No. 21IN THE SUPREME COURT OF THE UNITED STATES
________________________________________________________
_________________________________________________________
LEON TOLLETTE,
Petitioner,
-vBENJAMIN FORD, Warden,
Georgia Diagnostic and Classification Prison,
Respondent
__________________________________________________________
__________________________________________________________
APPENDIX TO PETITION FOR A WRIT OF CERTIORARI
__________________________________________________________
__________________________________________________________

CAPITAL CASE

Anna Arceneaux (Ga. 401554)*
* Counsel of Record
Vanessa J. Carroll (Ga. 993425)
Georgia Resource Center
104 Marietta Street NW, Suite 260
Atlanta, Georgia 30303
anna.arceneaux@garesource.org
vanessa.carroll@garesource.org
(404) 222-9202
COUNSEL FOR PETITIONER

INDEX TO APPENDIX
APPENDIX A

United States Court of Appeals for the Eleventh Circuit, Panel
Opinion (May 29, 2020)............................……………………………1

APPENDIX B

United States Court of Appeals for the Eleventh Circuit
Rehearing Denial (August 11, 2020)………………………………..26

APPENDIX C

United States District Court for the Middle District of Georgia
Order (August 17, 2016)……………………………………………...27

APPENDIX D

Georgia Supreme Court Denial of Certificate of Probable Cause
(March 28, 2014)……………………………………………………..133

APPENDIX E

Butts County Superior Court Order (Feb. 13, 2013)……………135

APPENDIX F

Direct Appeal Decision of the Georgia Supreme Court (Nov. 7,
2005)………………………………………………………………......178

Case: 16-17149

Date Filed: 05/29/2020

Page: 1 of 25

[DO NOT PUBLISH]

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
________________________
No. 16-17149
________________________
D.C. Docket No. 4:14-cv-00110-CDL

LEON TOLLETTE,
Petitioner - Appellant,
versus
WARDEN, GEORGIA DIAGNOSTIC PRISON,
Respondent - Appellee.
________________________
Appeal from the United States District Court
for the Middle District of Georgia
________________________
(May 29, 2020)
Before ED CARNES, Chief Judge, and JORDAN and MARCUS, Circuit Judges.
PER CURIAM:
Leon Tollette traveled from Los Angeles, California, to help Xavier Womack
and Jakeith Robinson with the armed robbery of a Brink’s armored truck in

* App. 1 *

Case: 16-17149

Date Filed: 05/29/2020

Page: 2 of 25

Columbus, Georgia. The three men followed the truck to SouthTrust bank. As John
Hamilton returned to the truck with a money bag, Mr. Tollette approached from
behind and shot him at close-range in the head, back, and legs, killing him in the
process. The drivers of the Brink’s truck and of a nearby Wells Fargo truck shot at
Mr. Tollette as they chased him, with Mr. Tollette and Mr. Womack returning fire.
Mr. Tollette also tried to shoot the responding police officers but surrendered when
he ran out of bullets. See Tollette v. State, 621 S.E. 2d 742, 745–46 (Ga. 2005).
Georgia charged Mr. Tollette with malice murder, armed robbery, and other
crimes related to the killing of Mr. Hamilton. On the first day of jury selection, Mr.
Tollette pleaded guilty to malice murder, felony murder, armed robbery, possession
of a firearm by a convicted felon, possession of a firearm during the commission of
a crime, and two counts of aggravated assault.
After a sentencing proceeding, the jury returned a death sentence for Mr.
Tollette’s murder of Mr. Hamilton after finding beyond a reasonable doubt that there
were two aggravating factors: (1) Mr. Tollette committed the murder during another
capital felony (i.e., armed robbery); and (2) Mr. Tollette committed the murder to
obtain money. The trial court sentenced Mr. Tollette to death for the murder,
imposed a life sentence for the armed robbery, and terms of years for the other
crimes. The trial court later denied Mr. Tollette’s motion for a new trial.
The Georgia Supreme Court affirmed Mr. Tollette’s convictions and
2
* App. 2 *

Case: 16-17149

Date Filed: 05/29/2020

Page: 3 of 25

sentences on direct appeal. In part, it concluded that trial counsel did not render
ineffective assistance with respect to mitigation at sentencing and that Mr. Tollette
suffered no prejudice from counsel’s failure to call his sister as a witness at the
sentencing proceeding. See id. at 745–50.
The state post-conviction court denied Mr. Tollette’s habeas corpus petition,
and the Georgia Supreme Court denied a certificate of probable cause. Mr. Tollette
then filed a federal habeas corpus petition under 28 U.S.C. § 2254, but the district
court denied relief. Following a review of the record, and with the benefit of oral
argument, we affirm the district court’s decision.1
I
The district court’s denial of Mr. Tollette’s habeas corpus petition is subject
to plenary review. See Fults v. GDCP Warden, 764 F.3d 1311, 1313 (11th Cir.
2014). But because his habeas corpus petition is governed by the provisions of the
Antiterrorism and Effective Death Penalty Act, Pub. L. No. 104–132, 110 Stat. 1214
(1996), Mr. Tollette can obtain relief only if the state court’s adjudication of a claim
was “contrary to, or involved an unreasonable application of, clearly established
Federal law, as determined by the Supreme Court,” or was “based on an
unreasonable determination of the facts in light of the evidence presented in the State

Because we write for the parties, we assume their familiarity with the record and set out only
what is necessary to explain our decision. As to any contentions not discussed in this opinion, we
summarily affirm.
1

3
* App. 3 *

Case: 16-17149

Date Filed: 05/29/2020

Page: 4 of 25

court proceeding.” 28 U.S.C. § 2254(d)(1)–(2). AEDPA thus “imposes a highly
deferential standard for evaluating state-court rulings and demands that state-court
decisions be given the benefit of the doubt.” Trepal v. Sec’y, Fla. Dep’t of Corr.,
684 F.3d 1088, 1107 (11th Cir. 2012) (quoting Hardy v. Cross, 565 U.S. 65, 66
(2011)). This standard is “difficult to meet.” Metrish v. Lancaster, 569 U.S. 351,
358 (2013).
A state court decision is “contrary to” clearly established federal law when “it
arrives at an opposite result from the Supreme Court on a question of law, or when
it arrives at a different result from the Supreme Court on ‘materially
indistinguishable’ facts.” Owens v. McLaughlin, 733 F.3d 320, 324 (11th Cir.
2013) (quoting Williams v. Taylor, 529 U.S. 362, 405 (2000)). See, e.g., Premo v.
Moore, 562 U.S. 115, 131 (2011) (“A state-court adjudication of the performance of
counsel under the Sixth Amendment cannot be ‘contrary to’ Fulminante,
for Fulminante—which involved the admission of an involuntary confession in
violation of the Fifth Amendment—says nothing about the Strickland standard of
effectiveness.”). A state court decision cannot be contrary to clearly established
federal law “where no Supreme Court precedent is on point.” Washington v. Crosby,
324 F.3d 1263, 1265 (11th Cir. 2003).
“[A]n unreasonable application of federal law is different from an incorrect
application of federal law.” Harrington v. Richter, 562 U.S. 86, 101, (2011)
4
* App. 4 *

Case: 16-17149

Date Filed: 05/29/2020

Page: 5 of 25

(emphasis in original and quotation marks and citation omitted). As the Supreme
Court has put it:
[A]n unreasonable application [of clearly established federal law] must
be objectively unreasonable, not merely wrong; even clear error will
not suffice. Rather, as a condition for obtaining habeas corpus from a
federal court, a state prisoner must show that the state court’s ruling on
the claim . . . was so lacking in justification that there was an error well
understood and comprehended in existing law beyond any possibility
for fairminded disagreement.
White v. Woodall, 572 U.S. 415, 419–20 (2014) (internal quotation marks and
citations omitted).
Under § 2254(d)(2), a federal court must afford “substantial deference” to a
state court’s factual determinations. Brumfield v. Cain, 576 U.S. 305, 135 S. Ct.
2269, 2277 (2015). And it must presume that those findings are correct unless the
petitioner rebuts that presumption by “clear and convincing evidence.” Parker v.
Head, 244 F.3d 831, 836 (11th Cir. 2001) (quoting § 2254(e)(1)). But “[i]f the
petitioner can rebut that presumption, we are not bound to defer to unreasonablyfound facts or to the legal conclusions that flow from them.” Tanzi v. Sec’y, Fla.
Dep’t of Corr., 772 F.3d 644, 651 (11th Cir. 2014) (citation and internal quotation
marks omitted) (also explaining that the presumption of correctness is limited to
findings of facts and does not apply to mixed determinations of law and fact).
With these principles in mind, we address Mr. Tollette’s arguments.

5
* App. 5 *

Case: 16-17149

Date Filed: 05/29/2020

Page: 6 of 25

II
Mr. Tollette contends that the prosecutor made several incorrect and improper
statements during closing argument and argues that those statements entitle him to a
new sentencing proceeding. Like the district court, we conclude that Mr. Tollette is
not entitled to habeas relief on this claim.
Claims of prosecutorial misconduct based on purportedly improper remarks
are subject to a two-part test: “(1) the remarks must be improper, and (2) the remarks
must prejudicially affect the substantial rights of the defendant.” Conner v. GDCP
Warden, 784 F.3d 752, 769 (11th Cir. 2015) (citation omitted). The Supreme Court
has held that improper prosecutorial arguments and statements can render a death
sentence unconstitutional if they “so infected the trial with unfairness as to make the
resulting conviction a denial of due process.” Darden v. Wainwright, 477 U.S. 168,
181 (1986) (quotation marks and citation omitted). To succeed, therefore, Mr.
Tollette must show that the “improper argument[s] rendered the sentencing stage
trial fundamentally unfair.” Romine v. Head, 253 F.3d 1349, 1366 (11th Cir. 2001).
In a capital case like this one, “[a]n improper prosecutorial argument . . . render[s] a
capital sentencing proceeding fundamentally unfair if there is a reasonable
probability that the argument changed the outcome, which is to say that absent the
argument[s] the defendant would not have received a death sentence.” Id. (internal
citation omitted).
6
* App. 6 *

Case: 16-17149

Date Filed: 05/29/2020

Page: 7 of 25

In deciding whether a prosecutor’s arguments deny a defendant due process,
a court considers “(1) whether the remarks were isolated, ambiguous, or
unintentional; (2) whether there was a contemporaneous objection by defense
counsel; (3) the trial court’s instructions; and (4) the weight of aggravating and
mitigating factors.” Land v. Allen, 573 F.3d 1211, 1219–20 (11th Cir. 2009)
(citation omitted). Also relevant is “the degree to which the challenged remarks
have a tendency to mislead the jury and to prejudice the accused,” and “the strength
of the competent proof to establish the guilt of the accused.” Davis v. Zant, 36 F.3d
1538, 1546 (11th Cir. 1994) (citations omitted).
Mr. Tollette argues that the prosecutor obfuscated the difference between a
life sentence without the possibility of parole and life imprisonment; misrepresented
the number of years before he would be parole eligible; referred to life imprisonment
as life with parole over the trial court’s corrections; improperly told the jury that
most murders are not death eligible; and invoked religious authority as mandating a
death sentence. Mr. Tollette asserts that these improper statements, among other
things, led to jury confusion about the possible sentences available. According to
Mr. Tollette, the statements—which he says the trial court failed to cure—violated
due process by making the trial fundamentally unfair, increased the likelihood of the
death penalty, and undermined confidence in the outcome of the case.
On direct appeal, the Georgia Supreme Court addressed Mr. Tollette’s
7
* App. 7 *

Case: 16-17149

Date Filed: 05/29/2020

Page: 8 of 25

arguments concerning the prosecutor’s remarks during closing argument. Noting
that no objections to certain of the remarks had been made by the defense, the
Georgia Supreme Court held that there was no “reasonable probability” that any
improper arguments “led to the imposition of a death sentence.” Tollette, 621 S.E.
2d at 747. With respect to the prosecutor’s statement that “the just punishment under
a lot of religions would be death for what [Mr. Tollette did],” the Georgia Supreme
Court agreed with Mr. Tollette that the argument was “improper,” but concluded that
there was no reasonable probability that it led to the jury’s imposition of a death
sentence. See id. at 748. With respect to the prosecutor’s arguments that “prison is
too good for [Mr. Tollette]” and that “prison for seven years and re-paroled” was
insufficient, the Georgia Supreme Court ruled that they too were improper—because
the likelihood of parole is generally “an improper subject matter for argument by
counsel”—but similarly concluded that they were “entirely harmless.” Id. The “jury
had life without parole as an available sentence and was properly charged, through
an original charge and an additional charge given during deliberations, that a
sentence of life without parole would mean that [Mr.] Tollette would never be
eligible for parole unless later adjudicated innocent.” Id.
The district court acknowledged that the Georgia Supreme Court did not cite
any federal cases in discussing Mr. Tollette’s prosecutorial misconduct claims but
concluded that those claims had been adjudicated on the merits on direct appeal. See
8
* App. 8 *

Case: 16-17149

Date Filed: 05/29/2020

Page: 9 of 25

D.E. 43 at 76–83. It noted, as well, that Mr. Tollette had also failed to cite in his
direct appeal brief the federal cases on which he now relied, and perhaps that was
the reason the Georgia Supreme Court did not cite or discuss federal law. See id. at
77–78 & nn. 24, 25. The district court also observed that the Georgia Supreme
Court’s substantive analysis was interchangeable (i.e., equivalent) with federal law.
See id. at 79.
On the merits, the district court first rejected Mr. Tollette’s argument that the
Georgia Supreme Court failed to undertake a holistic due process review and
consider all of the improper arguments together to assess their cumulative impact on
the sentencing proceeding. “[W]hile the Georgia Supreme Court discussed each
allegedly improper comment separately, it necessarily had to look at the entire
sentencing hearing, including all other improper arguments, to determine if the death
sentence was ‘imposed under the influence of passion, prejudice, or any other
arbitrary factor.’ O.C.G.A. § 17-8-75(c)(1).” Id. at 81–82. The district court then
concluded that the Georgia Supreme Court’s lack of prejudice determination was
subject to deference under AEDPA and was not unreasonable. The district court
also specifically addressed the prosecutor’s improper references to religion.
Applying Eleventh Circuit law, it concluded for several reasons that the Georgia
Supreme Court’s decision about lack of prejudice was not unreasonable. First, the
prosecutor’s religious references were “isolated and brief,” and “[r]eligion in no way
9
* App. 9 *

Case: 16-17149

Date Filed: 05/29/2020

Page: 10 of 25

permeated [the prosecutor’s] entire argument.” Id. at 85. Second, Mr. Tollette’s
counsel did not object to the religious references, and that failure weighed “against
finding the argument was severe enough to render the sentencing hearing
fundamentally unfair.” Id. Third, Mr. Tollette’s counsel countered the prosecutor’s
references to religion with his own religious argument, asking the jury to ask itself
“What would Jesus do”? Id. at 85–86. Mr. Tollette’s counsel, the district court
reasoned, was able to “lessen the impact of the prosecutor’s improper religious
argument by countering with his own plea for the jurors to look to their religious
values when deciding [Mr.] Tollette’s fate.” Id. at 86. Fourth, the trial court had sua
sponte instructed the jury—albeit during the defense’s closing argument—that it was
“not [to] invoke your religious beliefs to determine punishment in this case.” Id.
This instruction, concluded the district court, was “certainly broad enough to lessen
any prejudicial impact from the prosecutor’s improper comments.” Id. at 87. Fifth,
the “strength of the aggravating factors”—including the planning of the armed
robbery, Mr. Tollette’s lying in wait, Mr. Tollette’s shooting of Mr. Hamilton from
behind, and Mr. Tollette’s shooting at the police—when “compared to the lack of
evidence in mitigation”—the “only mitigation evidence was a plea from [Mr.]
Tollette’s mother”—also cut against a finding of prejudicial impact. Id.
Like the Georgia Supreme Court, we conclude that the prosecutor’s comments
about parole and religion were improper. See, e.g., Romine, 253 F.3d at 1366–67.
10
* App. 10 *

Case: 16-17149

Date Filed: 05/29/2020

Page: 11 of 25

Applying AEDPA deference, however, we agree with the district court that the
decision of the Georgia Supreme Court regarding prejudice was not unreasonable.
To the thorough analysis of the district court, we add only that the Georgia Supreme
Court’s decision is consistent with the Supreme Court’s opinion in Darden.
In Darden, the prosecutor made a closing argument condemned by every court
that reviewed it. See Darden, 477 U.S. at 179. There, a jury found a habeas
petitioner guilty of murder, robbery, and assault with intent to kill. See id. at 170.
During closing argument, the prosecution blamed the crime on the department of
corrections for furloughing the defendant, implied that the death penalty would be
the only guarantee against future similar acts, and referred to the defendant as an
“animal.” Id. at 180. The Supreme Court held that those comments “did not deprive
[the defendant] of a fair trial” because the “prosecutors’ argument did not manipulate
or misstate the evidence, nor did it implicate other specific rights of the accused such
as the right to counsel or right to remain silent.” Id. at 181–82. Overwhelming
evidence supported a guilty finding on all charges and “reduced the likelihood that
the jury’s decision was influenced by argument.” Id. at 182. The “bar for granting
habeas based on prosecutorial misconduct is a high one.” Allen, 573 F.3d at 1220.
For the reasons given by the district court, the Georgia Supreme Court’s decision
with respect to prejudice was not an unreasonable application of federal law as
established by the Supreme Court.
11
* App. 11 *

Case: 16-17149

Date Filed: 05/29/2020

Page: 12 of 25

III
Mr. Tollette asserts two ineffective assistance of counsel claims. First, he
contends that his trial counsel (and the counsel who represented him on the new trial
motion) did not properly investigate or present available mitigating evidence at
sentencing. Second, he argues that his appellate counsel failed to raise his trial
counsel’s (and new trial counsel’s) deficient performance with respect to mitigation.
These claims present “mixed question[s] of law and fact subject to de novo review.”
Williams v. Allen, 542 F.3d 1326, 1336 (11th Cir. 2008) (quoting McNair v.
Campbell, 416 F.3d 1291, 1297 (11th Cir. 2005)). But, as noted above, claims
adjudicated on the merits by a state court receive deference under AEDPA.
A
The Sixth Amendment entitles criminal defendants to the “effective assistance
of counsel”—that is, representation that does not fall “below an objective standard
of reasonableness” considering “prevailing professional norms.” Strickland v.
Washington, 466 U.S. 668, 686, 688 (1984). That standard is necessarily a general
one, as it requires “[n]o particular set of detailed rules for counsel’s conduct can
satisfactorily take account of the variety of circumstances faced by defense counsel
or the range of legitimate decisions regarding how best to represent a criminal
defendant.” Id. at 688–89. The question is whether counsel’s conduct is “outside
the wide range of professionally competent assistance.” Id. at 690.
12
* App. 12 *

Case: 16-17149

Date Filed: 05/29/2020

Page: 13 of 25

To succeed on his ineffective assistance of counsel claims, Mr. Tollette must
show two things. He must demonstrate that “counsel’s representation fell below an
objective standard of reasonableness,” and he must establish that “there is a
reasonable probability that, but for counsel’s unprofessional errors, the result of the
proceeding would have been different.” Padilla v. Kentucky, 559 U.S. 356, 366
(2010) (quotation marks and citation omitted).
When addressing performance, courts review counsel’s conduct in a “highly
deferential” manner and “must indulge a strong presumption that counsel’s conduct
falls within the wide range of reasonable professional assistance.” Strickland, 466
U.S. at 689.

To overcome the Strickland presumption of reasonableness, Mr.

Tollette must show that “no competent counsel would have taken the action that his
counsel did take.” Chandler v. United States, 218 F.3d 1305, 1315 (11th Cir.
2000) (en banc). In other words, if “some reasonable lawyer at the trial could have
acted, in the circumstances, as defense counsel acted at trial,” Waters v. Thomas, 46
F.3d 1506, 1512 (11th Cir. 1995) (en banc), then Mr. Tollette cannot establish
deficient performance.
With respect to prejudice, Mr. Tollette must demonstrate a “reasonable
probability that, absent [counsel’s] errors, the sentencer would have concluded that
the balance of aggravating and mitigating circumstances did not warrant death.”
Pooler v. Sec’y, Fla. Dep’t of Corr., 702 F.3d 1252, 1270 (11th Cir. 2012) (citation
13
* App. 13 *

Case: 16-17149

Date Filed: 05/29/2020

Page: 14 of 25

omitted). In a state like Georgia, where jury unanimity is required for a sentence of
death, the question is whether there is “a reasonable probability that at least one juror
would have struck a different balance” and voted against the death penalty. See
Wiggins v. Smith, 539 U.S. 510, 537 (2003).
A “reasonable probability” is one that is “sufficient to undermine confidence
in [the sentence],” and does not require a showing that “counsel’s deficient conduct
more likely than not altered the outcome of [the petitioner’s] penalty
proceeding.” Porter v. McCollum, 558 U.S. 30, 44 (2005) (quoting Strickland, 466
U.S. at 693–94). Nevertheless, “[t]he likelihood of a different result must be
substantial, not just conceivable.” Evans v. Sec’y, Dep’t of Corr., 703 F.3d 1316,
1327 (11th Cir. 2013) (en banc) (citation omitted). To assess the probability of a
different outcome, courts consider “the totality of the available mitigation
evidence—both that adduced at trial, and the evidence adduced in the habeas
proceeding—and reweigh it against the evidence in aggravation.” Porter, 558 U.S.
at 41 (citation omitted and alterations adopted).
B
Mr. Tollette’s mother was the only defense witness at sentencing. See
Tollette, 621 S.E. 2d at 749. She testified that she never married Mr. Tollette’s
father; Mr. Tollette had three brothers and two sisters and was a good, loveable, and
obedient child; they were a “family of love;” Mr. Tollette played sports when young
14
* App. 14 *

Case: 16-17149

Date Filed: 05/29/2020

Page: 15 of 25

and did well in school until he met up with “the wrong group;” Mr. Tollette and his
stepfather did not have a father-son relationship and were not as close as she would
have liked (though Mr. Tollette did respect his stepfather); Mr. Tollette left home at
sixteen without her consent because he became associated with the wrong crowd and
wanted to experiment “with some things he knew” he could not do while staying at
home; Mr. Tollette had a great relationship with his own son; Mr. Tollette was in
jail from time to time but would call her regularly; and Mr. Tollette had no drug
problem that she knew of. She apologized to Mr. Hamilton’s family and begged the
jury to spare Mr. Tollette’s life. See D.E. 43 at 38 (district court order summarizing
the testimony of Mr. Tollette’s mother).
Mr. Tollette argues that his trial counsel (and the counsel who represented him
on the new trial motion) ignored “red flags” and did not properly investigate,
develop, and present mitigation evidence to counter the state’s aggravating evidence
and depiction of the murder. He contends that counsel conducted an 11th hour pro
forma investigation that was unreasonable and that did not support their strategic
decisions. Sidestepping the matter of performance, we affirm the district court’s
denial of habeas relief because the Georgia Supreme Court did not unreasonably
conclude that Mr. Tollette failed to demonstrate prejudice under Strickland.
1
Mr. Tollette asserts that with a more timely investigation and expert witnesses,
15
* App. 15 *

Case: 16-17149

Date Filed: 05/29/2020

Page: 16 of 25

counsel could have made a credible argument that his actions were a result of or
impacted by his upbringing, his early exposure to alcohol, drugs, and violence, and
his mental health issues. In Mr. Tollette’s view, an adequate investigation would
have shown the jury that he was suffering from severe mental illness, depression,
impaired cognitive functioning, and substance abuse in the months leading to the
murder. Mr. Tollette also argues that trial counsel’s failure to use available evidence
that he was not a risk of danger in prison, and failure to interview his former
girlfriend, prejudiced his case.
In his brief, Mr. Tollette describes the available mitigating evidence that his
counsel failed to obtain and present from several witnesses, including his sister,
Gladys Lattier, and his former girlfriend, Katrina Wilson. See Br. for Appellant at
31–34. We summarize that evidence below. 2
● Mr. Tollette was born to a single mother struggling with four other young
children, and grew up in the Watts and Gardena neighborhoods of Los Angeles,
where gunshots were a nightly occurrence, crime (including drug dealing) was
rampant, and unemployment and incarceration were high. His sister was responsible
for looking after him even though she was just eight years older than him. Drug use,
violence and gang activity spilled into the public schools that he and his siblings

Trial counsel’s investigation and strategy, and the new mitigating evidence presented at the state
habeas proceeding, are laid out in detail in the district court’s order. See D.E. 43 at 16–55.
2

16
* App. 16 *

Case: 16-17149

Date Filed: 05/29/2020

Page: 17 of 25

attended.
● Without a father, Mr. Tollette looked to his older brothers as father figures
and protectors. Two of those brothers left home when he was, respectively, six and
thirteen. After that, his grades declined, and he gravitated towards gangs. According
to cultural anthropologist Dr. Diego Virgil, his gang affiliation was virtually
inevitable and predictable given his upbringing, and the gangs filled the vacuum left
by his dysfunctional family and impoverished community.
● Due to the problems he encountered, Mr. Tollette had low self-esteem,
anxiety, and depression, which left him predisposed to drug and alcohol addiction.
In the months leading up to the murder, he experienced his most serious episode of
depression due to a confluence of events, including the arrest of his girlfriend
(leading to his loss of living arrangements), the death of his biological father, his
lack of success in the music business, and his lack of success in dealing drugs due
to his own alcohol and drug abuse. He also had mental health issues, including
recurrent episodes of major depression and chronic low self-esteem, as described by
Dr. Michael Hilton, a forensic psychiatrist.
● Mr. Tollette had a lack of significant disciplinary history while incarcerated
in California. That history indicated that he would make a positive adjustment to
prison life.
On direct appeal, Mr. Tollette argued that the trial court should have granted
17
* App. 17 *

Case: 16-17149

Date Filed: 05/29/2020

Page: 18 of 25

his motion for a new trial because his trial counsel “did not prepare adequate
mitigation evidence,” and asserted that counsel should have called his sister, Ms.
Lattier, to testify. See Tollette, 621 S.E.2d at 749. The Georgia Supreme Court,
applying Strickland, rejected Mr. Tollette’s Sixth Amendment claim. Putting aside
the question of whether counsel’s failure to present other witnesses (including Mr.
Tollette’s sister) was constitutionally deficient, the Georgia Supreme Court
concluded that Mr. Tollette “did not suffer sufficient prejudice to warrant relief”
because the sister’s testimony “would have been merely a ‘reiteration of the mother’s
testimony.’” Id.
On post-conviction review, the Georgia Supreme Court denied Mr. Tollette’s
application for a certificate of probable cause and again concluded that he had failed
to demonstrate prejudice resulting from the alleged ineffective assistance of trial
counsel (and the counsel who represented him on the motion for a new trial).
Although recognizing that the state habeas court had failed to apply the correct
Strickland prejudice test, the Georgia Supreme Court concluded that the evidence
Mr. Tollette presented at the state habeas hearing did not demonstrate prejudice
under Strickland:
Nevertheless, after independently applying the correct legal principle
to the trial and habeas record, we conclude as a matter of law that, “[i]n
exercising its discretion once [the Petitioner] became eligible for a
death sentence,” the jury would not have been significantly swayed by
the testimony that the Petitioner presented on this issue in the state
habeas proceedings. We further conclude that trial counsel’s not
18
* App. 18 *

Case: 16-17149

Date Filed: 05/29/2020

Page: 19 of 25

utilizing testimony like that presented by the Petitioner’s new expert to
challenge the State’s characterization of the circumstances of the
murder did not result in prejudice sufficient to support the success of
the Petitioner’s underlying ineffective assistance of trial counsel claim
and thus that the Petitioner cannot show a reasonable probability that,
had direct appeal counsel raised the ineffective assistance of motion for
new trial counsel in litigating trial counsel’s ineffectiveness with
respect to this issue on direct appeal, the Petitioner would have been
granted a new trial on this basis. Therefore, the Petitioner cannot satisfy
the cause and prejudice test to overcome the procedural bar to that
claim, and it remains procedurally defaulted. Accordingly, we
conclude that this issue ultimately is without arguable merit.
D.E. 12-27 at 2 (citations omitted).
Under Hittson v. GDCP Warden, 759 F.3d 1210, 1232 (11th Cir. 2014), this
denial of a certificate of probable cause by the Georgia Supreme Court constituted
an adjudication on the merits of Mr. Tollette’s ineffective assistance of counsel
claims for purposes of AEDPA. And it is this denial that we consider under Wilson
v. Sellers, 138 S. Ct. 1188, 1193–95 (2018), with respect to the issue of prejudice.
See Knight v. Fla. Dept. of Corrections, ___ F.3d ___, 2020 WL 2092592, *9 n.3
(11th Cir. May 1, 2020).
With respect to most of the mitigating evidence summarized above, the
district court did not address prejudice, as it found that the state habeas court had
reasonably concluded that Mr. Tollette’s trial counsel (and counsel on the motion
for a new trial) had conducted an adequate investigation and made a reasonable
choice of trial strategy based on that investigation. See D.E. 43 at 55. With respect
to some of the mitigating evidence summarized above, however, the district court
19
* App. 19 *

Case: 16-17149

Date Filed: 05/29/2020

Page: 20 of 25

did analyze prejudice. For example, concerning the failure of counsel to interview
Mr. Tollette’s former girlfriend and present her testimony, the district court—in
addition to finding that performance was constitutionally adequate—concluded that
there was no resulting prejudice. See id. at 61–62.
Applying AEDPA deference on the issue of prejudice, we conclude that the
Georgia Supreme Court’s resolution of that issue was reasonable. And it was
reasonable both in its decision on direct appeal (with respect to the testimony of Mr.
Tollette’s sister) and in its decision denying a certificate of probable cause on
collateral review (with respect to the other mitigating evidence presented at the state
habeas proceeding). The reasons are as follows.
First, the aggravating evidence—including the planning and carrying out of
the armed robbery and murder, Mr. Tollette’s three prior convictions, Mr. Tollette’s
gang affiliation, and the victim impact statements—was relatively strong. That is
not conclusive, but it is relevant. We note as well that Mr. Tollette apparently
showed no remorse during his statement to the police and even laughed during a
portion of that statement. See D.E. 43 at 38–39. And he apparently “pursed his lips
or bl[ew] a kiss at one of [Mr.] Hamilton’s daughters when she was walking off the
witness stand after finishing her victim impact statement.” Id. at 39 (citing D.E. 92 at 61).
Second, some of the mitigating evidence presented at the state habeas
20
* App. 20 *

Case: 16-17149

Date Filed: 05/29/2020

Page: 21 of 25

proceeding had the potential for being a two-edged sword. See, e.g., Ponticelli v.
Secretary, 690 F.3d 1271, 1296 (11th Cir. 2012). For example, the testimony about
Mr. Tollette’s gang membership was not all mitigating in nature. Mr. Tollette’s own
gang expert, Dr. James Vigil, testified that Mr. Tollette joined a drug trafficking
gang, and could have been attracted to that gang because its members had money,
nice cars, and women. Evidence about gang membership, moreover, could have
opened the door to evidence of future dangerousness, an issue Mr. Tollette’s counsel
had succeeded in keeping out.

Finally, such evidence could have also been

countered by evidence that some of Mr. Tollette’s friends eventually left the gang
and pursued legitimate careers.
Third, the testimony from Mr. Tollette’s former girlfriend might have opened
the door to evidence of an armored truck robbery in California in which Mr. Tollette
was a suspect. Significantly, that robbery bore some similarities to the armed
robbery in which Mr. Tollette murdered Mr. Hamilton.
Fourth, the mental health evidence in favor of Mr. Tollette was not
overwhelming.

Dr. Hilton, who testified for Mr. Tollette at the state habeas

proceeding, concluded that he had recurrent episodes of major depression and
chronic low self-esteem. Those opinions were consistent with the initial mental
evaluations of Mr. Tollette, carried out by Drs. Karen Bailey-Smith and Margaret
Fahey of West Central Georgia Regional Hospital. Drs. Bailey-Smith and Fahey
21
* App. 21 *

Case: 16-17149

Date Filed: 05/29/2020

Page: 22 of 25

found that Mr. Tollette was depressed and his insight into his condition was
deficient. Drs. Bailey-Smith and Fahey also found, however, that he had a normal
intellect, an IQ of 89, and judgment that was “relatively intact.” See D.E. 43 at 30.
Mr. Tollette had a profile of an individual who was seen by others as angry and
argumentative, and a diagnosis of personality disorder not otherwise specified with
antisocial and schizotypal features. See id. at 31. Dr. Hilton agreed with this
diagnosis. See id. at 47.
Furthermore, a psychologist, Dr. Daniel Grant, testified at the state habeas
proceeding that Mr. Tollette was not insane or under a delusional compulsion at the
time of the murder; that he was not mentally disabled; that he was not severely
mentally ill; and that he exhibited antisocial personality traits. See id. at 47–48. Dr.
Grant had told trial counsel that there was “not much to work with,” that Mr. Tollette
suffered from borderline personality disorder, and that the “best” he could do was
testify that Mr. Tollette could be “useful” in prison if his California prison records
did not show disciplinary problems. See id. at 32–33.3

Mr. Tollette argues that the state habeas court erred in not considering the totality of the postconviction mitigating evidence he presented. See Br. for Appellant at 48–49. But we are not
reviewing the prejudice determination of the state habeas court. Rather, we are reviewing (and
giving AEDPA deference to) the Georgia Supreme Court on direct appeal and in denying a
certificate of probable cause on collateral review. And there is no claim that the Georgia Supreme
Court failed to view the mitigating evidence holistically. In any event, we have considered all of
the mitigating evidence cumulatively in conducting our own review on the matter of prejudice.

3

22
* App. 22 *

Case: 16-17149

Date Filed: 05/29/2020

Page: 23 of 25

2
Mr. Tollette separately contends that trial counsel could have and should have
presented evidence to counter the state’s characterization of the shooting as an
execution-style murder. He asserts that, contrary to what some of the state’s
witnesses (such as Cornell Christian and Sherry Ziegler) testified, there was
evidence that his first shot was not to Mr. Hamilton’s head.
In his statement to the police after the murder (which was played for the jury
at the sentencing proceeding), Mr. Tollette said that he shot when Mr. Hamilton
turned around and saw him and continued to shoot out of fear because Mr. Hamilton
did not fall when first shot. The testimony of Dr. Geoffrey Smith, the medical
examiner, and Ralph Tressel, a crime scene analyst, at the state habeas proceeding
also indicated that Mr. Tollette did not first shoot Mr. Hamilton in the head. For
example, Mr. Tressel testified that Mr. Tollette’s first two shots were to the legs, the
third was to the back, and the fourth was to the head. Mr. Tressel did not believe
that Mr. Tollette had approached Mr. Hamilton from behind and shot him in the back
of the head. Dr. Smith testified that the shots to the legs entered from the front, and
Mr. Hamilton most likely had to have been facing upward when he received those
wounds. If Mr. Hamilton had been shot in the head first and fallen on the ground
face down, then he could not have sustained those shots in the legs because the
trajectories would have been wrong. So the likely scenario is that Mr. Hamilton was
23
* App. 23 *

Case: 16-17149

Date Filed: 05/29/2020

Page: 24 of 25

shot in the legs while he was still standing. See Br. for Appellant at 41–47.
The district court, applying AEDPA deference, concluded that the Georgia
Supreme Court’s decision on prejudice as to this evidence concerning the sequence
of the shots, see D.E. 12-27 at 1–2, was reasonable: “A fairminded jurist could
conclude that there was no reasonable probability of a different sentence even if the
jury thought [Mr.] Tollette shot [Mr.] Hamilton first in both of his legs to disable
him and then placed the gun six inches from [Mr.] Hamilton’s head and pulled the
trigger.” D.E. 43 at 69.
We agree with the district court that the Georgia Supreme Court’s prejudice
determination was reasonable. First, two eyewitnesses (Mr. Christian and Ms.
Ziegler) testified that Mr. Tollette first shot Mr. Hamilton in the head. Second, Dr.
Smith admitted that he did not “know the order in which the gunshot[s] were
sustained,” and indicated that “there are a number of possibilities.” D.E. 43 at 67
(quoting D.E. 10-24 at 19). Third, Mr. Tressel based his opinion in part on Mr.
Tollette’s statement to the police. See id. at 66 n.23. Fourth, even if Mr. Tollette
first shot Mr. Hamilton in the legs and in the back, he then also shot him in the head
from very close range. The jury could have easily found that the sequence of shots—
even under Mr. Tollette’s account—still amounted to an execution-style killing of
Mr. Hamilton.

24
* App. 24 *

Case: 16-17149

Date Filed: 05/29/2020

Page: 25 of 25

3
As noted, Mr. Tollette contends that his appellate counsel rendered deficient
performance by not raising the deficient performance of trial counsel (and counsel
who represented him on the motion for a new trial) with respect to their
representation at sentencing. Because Mr. Tollette has failed to demonstrate that his
trial counsel or his new trial counsel rendered deficient performance, it follows that
appellate counsel did not fall below the Sixth Amendment standard. See Brooks v.
Comm’r, 719 F.3d 1292, 1300 (11th Cir. 2013). See also Brown v. United States,
720 F.3d 1316, 1335 (11th Cir. 2013) (“It is also crystal clear that there can be no
showing of actual prejudice from an appellate attorney’s failure to raise a meritless
claim.”).
IV
The district court’s denial of Mr. Tollette’s habeas corpus petition is affirmed.
AFFIRMED.

25
* App. 25 *

Case: 16-17149

Date Filed: 08/11/2020

Page: 1 of 1

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
________________________
No. 16-17149-P
________________________
LEON TOLLETTE,
Petitioner - Appellant,
versus
WARDEN,
Respondent - Appellee.
________________________
Appeal from the United States District Court
for the Middle District of Georgia
________________________
ON PETITION(S) FOR REHEARING AND PETITION(S) FOR REHEARING EN BANC
BEFORE: JORDAN, ED CARNES and MARCUS, Circuit Judges.
PER CURIAM:
The Petition for Rehearing En Banc is DENIED, no judge in regular active service on the Court
having requested that the Court be polled on rehearing en banc. (FRAP 35) The Petition for
Panel Rehearing is also denied. (FRAP 40)

ORD-46

* App. 26 *

Case 4:14-cv-00110-CDL Document 43 Filed 08/17/16 Page 1 of 106

IN THE UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF GEORGIA
COLUMBUS DIVISION
LEON TOLLETTE,

:
:
Petitioner,
:
:
:
vs.
:
Warden BRUCE CHATMAN,
:
:
Respondent.
:
______________________________:

NO. 4:14-CV-110 (CDL)

ORDER
LEON TOLLETTE was sentenced to death for the murder of John
Hamilton.

He petitions this Court for a writ of habeas corpus

pursuant to 28 U.S.C. § 2254.

For reasons discussed below, the

Court denies habeas relief.
I.

FACTUAL BACKGROUND AND PROCEDURAL HISTORY
A. Facts
The Georgia Supreme Court summarized the facts of this case

in Tollette’s direct appeal:
The trial evidence established that Xavier Wommack
had been planning a crime in Columbus, Georgia, and
he invited Tollette to travel from Los Angeles,
California, to join him. When Tollette arrived in
Columbus, he and Wommack, along with a third man,
Jakeith Robinson, finalized plans for the armed
robbery of an armored truck. On December 21, 1995,
the group followed a Brink's armored truck to the
SouthTrust bank.
Tollette sat waiting with a
newspaper near the bank, Wommack stood guard across
the street, and Robinson sat ready as the getaway
driver. As victim John Hamilton returned from the
bank to the Brink’s truck with a money bag, Tollette
approached Hamilton from behind and then fired at
close range into his head, back, and legs, killing

* App. 27 *

Case 4:14-cv-00110-CDL Document 43 Filed 08/17/16 Page 2 of 106

him. Carl Crane, the driver of the Brink's truck,
and Cornell Christianson, the driver of a nearby
Lummus Fargo truck, chased Tollette and fired shots
at him as he fled with the money bag; Tollette
returned fire at his pursuers. Wommack fired shots
from across the street to aid in Tollette's escape;
however, Wommack and Robinson ultimately drove away
without Tollette.
Robert Oliver, a police
technician, responded to the radio call of a
detective at the scene. When confronted by Oliver,
Tollette attempted to fire at him and at a cadet who
accompanied him, but all of the bullets in Tollette's
revolver were already spent. Tollette threw down
his revolver and surrendered.
Tollette v. State, 280 Ga. 100, 101, 621 S.E.2d 742, 745-46
(2005).
B. Procedural History
“On the first day of jury selection, Tollette pled guilty
to one count each of malice murder, felony murder, armed
robbery, possession of a firearm by a convicted felon, and
possession of a firearm during the commission of a crime and
to two counts of aggravated assault.”
at 745.

Id. at 100, 621 S.E.2d

At the conclusion of the sentencing trial on November

11, 1997, the jury sentenced him to death for malice murder,
finding beyond a reasonable doubt that Tollette murdered
Hamilton during the commission of the capital felony of armed
robbery, and he committed the murder for the purpose of
receiving money or other things of monetary value.

Id. at 101,

621 S.E.2d at 745.
Tollette filed, and the court granted, a Motion to be

-2* App. 28 *

Case 4:14-cv-00110-CDL Document 43 Filed 08/17/16 Page 3 of 106

Allowed to File an Out of Time Motion for New Trial.
8-5 at 63, 66.1

ECF No.

He filed a subsequent Motion for New Trial and

a First Amended Motion for New Trial.

ECF No. 8-5 at 72, 76.

The court held hearings on December 4, 1998 and January 25, 1999.
ECF Nos. 9-1; 9-2.

On January 28, 1999, the court denied

Tollette’s Motion for New Trial.

ECF No. 8-5 at 103.

Tollette filed a notice of appeal and the Georgia Supreme
Court affirmed his conviction and sentence.
at 101, 621 S.E.2d at 745.

Tollette, 280 Ga.

The United States Supreme Court

denied Tollette’s petition for certiorari on October 2, 2006.
Tollette v. Georgia, 549 U.S. 893 (2006).
Tollette filed a Petition for Writ of Habeas Corpus in the
Superior Court of Butts County, Georgia on August 7, 2007.
No. 9-26.

ECF

Tollette amended his petition once; the court

conducted an evidentiary hearing; and, in an order dated
February 13, 2013, the state habeas court denied relief.
Nos. 10-16; 10-21 to 12-11; 12-24.

ECF

Tollette filed a notice of

appeal and an application for certificate of probable cause to
appeal (“CPC application”) with the Georgia Supreme Court.
Nos. 12-25; 12-26.

ECF

On March 28, 2014, the court denied his CPC

application and on April 22, 2014, denied his motion for
reconsideration.

ECF Nos. 12-27; 12-29.

1

Because all documents have been electronically filed, this Order cites to
the record by using the document number and electronic screen page number
shown at the top of each page by the Court’s CM/ECF software.

-3* App. 29 *

Case 4:14-cv-00110-CDL Document 43 Filed 08/17/16 Page 4 of 106

On May 6, 2014, Tollette filed a Petition for Writ of Habeas
Corpus by a Person in State Custody in this Court.

ECF No. 1.

The Respondent filed his answer, and the Court denied Tollette’s
motion for discovery and an evidentiary hearing. ECF Nos. 13;
20; 23.

Both parties have now briefed exhaustion, procedural

default, and the merits of Tollette’s various claims.

ECF Nos.

34; 37; 41.
II.

STANDARD OF REVIEW

A. Exhaustion and procedural default
Procedural default bars federal habeas review when a
habeas petitioner has failed to exhaust state remedies that are
no longer available or when the state court rejects the habeas
petitioner’s claim on independent state procedural grounds.
Michigan v. Long, 463 U.S. 1032, 1040-42 (1983) (explaining that
an adequate and independent finding of procedural default will
generally bar review of the federal claim); Frazier v. Bouchard,
661 F.3d 519, 524 n.7 (11th Cir. 2011) (citations omitted); Ward
v. Hall, 592 F.3d 1144, 1156-57 (11th Cir. 2010).
There are two exceptions to procedural default.

If the

habeas respondent establishes that a default has occurred, the
petitioner bears the burden of establishing “cause for the
failure to properly present the claim and actual prejudice, or
that the failure to consider the claim would result in a
fundamental miscarriage of justice.”

-4* App. 30 *

Conner v. Hall, 645 F.3d

Case 4:14-cv-00110-CDL Document 43 Filed 08/17/16 Page 5 of 106

1277, 1287 (11th Cir. 2011) (citing Wainwright v. Sykes, 433
U.S. 72, 81-88 (1977) and Marek v. Singletary, 62 F.3d 1295,
1301-02 (11th Cir. 1995)).
A petitioner establishes cause by demonstrating that some
objective factor external to the defense impeded his efforts
Spencer v.

to raise the claim properly in the state courts.

Sec’y, Dep’t of Corr., 609 F.3d 1170, 1180 (11th Cir. 2010)
(citations omitted).

A petitioner establishes prejudice by

showing that there is a reasonable probability that the result
of the proceedings would have been different.
Regarding

what

is

necessary

to

Id.
establish

the

narrowly-drawn fundamental miscarriage of justice exception,
the Eleventh Circuit has stated:
To excuse a default of a guilt-phase claim
under
[the fundamental miscarriage of
justice] standard, a petitioner must prove “a
constitutional violation [that] has probably
resulted in the conviction of one who is
actually innocent.”
To gain review of a
sentencing-phase
claim
based
on
[a
fundamental miscarriage of justice], a
petitioner
must
show
that
“but
for
constitutional error at his sentencing
hearing, no reasonable juror could have found
him eligible for the death penalty under
[state] law.”
Hill v. Jones, 81 F.3d 1015, 1023 (11th Cir. 1996) (citations
omitted).
B. Claims that were adjudicated on the merits in the state
courts

-5* App. 31 *

Case 4:14-cv-00110-CDL Document 43 Filed 08/17/16 Page 6 of 106

The Antiterrorism and Effective Death Penalty Act of 1996
(“AEDPA”)

provides

the

standard

of

review

adjudicated on the merits in the state courts.

for

claims

This Court may

not grant habeas relief unless the state court’s decision was
(1) contrary to clearly established federal law; (2) involved
an unreasonable application of clearly established federal law;
or (3) was based on an unreasonable determination of the facts
in

light

of

proceeding.

the

evidence

presented

in

the

state

court

28 U.S.C. § 2254(d)(1)-(2); see also Harrington

v. Richter, 562 U.S. 86, 100 (2011).

Cleary established

federal law consists of only the holdings of the United States
Supreme Court that were in existence at the time of the relevant
state court decision.

Thaler v. Haynes, 559 U.S. 43, 47 (2010);

Williams v. Taylor, 529 U.S. 362, 412 (2000).
“The ‘contrary to’ and ‘unreasonable application’ clauses
of § 2254(d)(1) are separate bases for reviewing a state court’s
decisions.”

Putman v. Head, 268 F.3d 1223, 1241 (11th Cir.

2001) (citing Williams, 529 U.S. at 404-05).
Under § 2254(d)(1), “[a] state court’s decision is
‘contrary to’... clearly established law if it
‘applies a rule that contradicts the governing law
set forth in [the United States Supreme Court’s]
cases’ or if it ‘confronts a set of facts that are
materially indistinguishable from a decision of [the
United States Supreme] Court and nevertheless
arrives at a [different] result . . . .’”
Michael v. Crosby, 430 F.3d 1310, 1319 (11th Cir. 2005) (quoting

-6* App. 32 *

Case 4:14-cv-00110-CDL Document 43 Filed 08/17/16 Page 7 of 106

Mitchell v. Esparza, 540 U.S. 12, 15-16 2003)).
A

state

court’s

decision

involves

an

“unreasonable

application” of federal law when “‘the state court identifies
the correct governing legal rule but unreasonably applies it
to the facts of the particular state prisoner’s case, or when
it unreasonably extends, or unreasonably declines to extend,
a legal principle from Supreme Court case law to a new context.’”
Reese v. Sec’y, Fla. Dep’t of Corr., 675 F.3d 1277, 1286 (11th
Cir. 2012) (quoting Greene v. Upton, 644 F.3d 1145, 1154 (11th
Cir. 2011)).

An “unreasonable application” and an “incorrect

application” are not the same:
We have explained that an “unreasonable
application of federal law is different from an
incorrect application of federal law.” Indeed, “a
federal habeas court may not issue the writ simply
because that court concludes in its independent
judgment that the relevant state-court decision
applied clearly established federal law erroneously
or incorrectly.” Rather, that application must be
This distinction
“objectively unreasonable.”
creates “a substantially higher threshold” for
obtaining relief than de novo review. AEDPA thus
imposes
a
“highly
deferential
standard
for
evaluating state-court rulings” and “demands that
state-court decisions be given the benefit of the
doubt.”
Renico v. Lett, 559 U.S. 766, 773 (2010) (citations omitted).
To obtain relief “a state prisoner must show that the state
court’s ruling on the claim . . . was so lacking in justification
that there was an error well understood and comprehended in
existing

law

beyond

any

possibility

-7* App. 33 *

for

fairminded

Case 4:14-cv-00110-CDL Document 43 Filed 08/17/16 Page 8 of 106

disagreement.”

Richter, 562 U.S. at 103.

In other words, a

habeas petitioner must establish that no fairminded jurist
could agree with the state court’s decisions.

Woods v.

Etherton, 136 S. Ct. 1149, 1152-53 (2016); Pope v. Sec’y, Fla.
Dep’t of Corr., 753 F.3d 1254, 1262 (11th Cir. 2014); Holsey
v. Warden, Ga. Diagnostic Prison, 694 F.3d 1230, 1257 (11th Cir.
2012).
Pursuant to 28 U.S.C. § 2254(d)(2), district courts can
“grant habeas relief to a petitioner challenging a state court’s
factual findings only in those cases where the state court’s
decision ‘was based on an unreasonable determination of the
facts in light of the evidence presented in the State court
proceeding.’”

Price v. Allen, 679 F.3d 1315, 1320 (11th Cir.

2012) (quoting 28 U.S.C. § 2254(d)(2)).

A state court’s

factual finding is not unreasonable simply because the federal
habeas court might have made a different finding had it been
the first court to interpret the record.

Burt v. Titlow, 134

S. Ct. 10, 15 (2013) (citing Wood v. Allen, 558 U.S. 290, 301
(2010)).

Again, this Court can grant relief only if it finds

“no ‘fairminded jurist’ could agree with the state court’s
determination” of the facts.

Holsey, 694 F.3d at 1257 (quoting

Richter, 562 U.S. at 101).

Also, a state court’s factual

determination is “presumed to be correct,” and this presumption
can only be rebutted by “clear and convincing evidence.”

-8* App. 34 *

28

Case 4:14-cv-00110-CDL Document 43 Filed 08/17/16 Page 9 of 106

U.S.C. § 2254(e)(1).
Within this framework, the Court reviews

Tollette’s

claims.2
III.

TOLLETTE’S CLAIMS

A. Trial counsel were ineffective for failing to
investigate and present mitigating evidence and for
failing to meaningfully challenge the State’s case in
aggravation and subsequent counsel were ineffective for
failing to adequately litigate trial counsel’s
ineffectiveness.
Tollette makes several ineffective assistance claims:
(1) trial counsel failed to investigate, develop, and present
mitigation evidence; (2) trial counsel failed to investigate
and subject the State’s presentation of evidence to meaningful
adversarial testing; and (3) motion for new trial counsel and
appellate counsel were ineffective for failing to investigate

2

Tollette states that he “does not abandon any claims not herein addressed,
but relies instead on factual and legal arguments contained in the petition
itself, his subsequent Reply to Respondent’s Answer-Response, and in
briefing before the state courts in support of his claim that the State
Supreme Court’s rulings as to those claims were contrary to and/or an
unreasonable application of clearly established U.S. Supreme Court
precedent and/or were based on unreasonable determinations of fact.” ECF
No. 34 at 10-11. Tollette also states he “incorporates” all of the claims
and allegations raised before the state habeas court. ECF No. 34 at 11 n.1.
Tollette was told to brief any claim that he wished to pursue and was
specifically warned that any claim not briefed would be deemed abandoned.
ECF No. 14 at 2 n.2. “[M]ere recitation in a petition, unaccompanied by
argument, in effect forces a judge to research and thus develop supporting
arguments—hence, litigate—on a petitioner’s behalf. Federal judges cannot
litigate on behalf of the parties before them . . . .” Blankenship v. Terry,
2007 WL 4404972 at *40 (S.D. Ga.), aff’d, 542 F.3d 1253 (11th Cir. 2008)
(citations omitted). This Order focuses on the claims and arguments
addressed in the 300 pages of Tollette’s two briefs. Tollette has abandoned
any claim not addressed in his briefs. To any extent he has not abandoned
any unaddressed claim, he certainly has failed to show that the state courts’
denials of these claims were contrary to clearly established federal law,
involved any unreasonable applications of clearly established federal law,
or were based on any unreasonable factual determinations.

-9* App. 35 *

Case 4:14-cv-00110-CDL Document 43 Filed 08/17/16 Page 10 of 106

and

present

evidence

to

show

trial

counsel

performed

ineffectively.3
Because multiple state courts have addressed Tollette’s
ineffective assistance claims, “it is useful at the outset to
explain which state-court decisions we look to for purposes of
AEDPA review.”

Hittson v. GDCP Warden, 759 F.3d 1210, 1231

(11th Cir. 2014).

On direct appeal, Tollette argued trial

counsel raised “‘hardly any objections,’” did not prepare
adequate mitigation evidence, and made an improper statement
during closing arguments.
S.E.2d at 749-50.

Tollette, 280 Ga. at 106-07, 621

The Georgia Supreme Court held “the trial

court did not err [during the motion for new trial] in denying
Tollette’s claim of ineffective assistance of trial counsel.”
Id. at 107, 621 S.E.2d at 750.
Next, the state habeas court found Tollette’s ineffective
trial counsel and motion for new trial counsel claims were
either res judicata or procedurally defaulted.
at 4, 8-16.

ECF No. 12-24

Tollette argued that ineffective assistance of

3

Tollette also alleges that motion for new trial counsel and appellate
counsel were ineffective for failing to adequately litigate his claim that
the procedure in which he was forced to litigate ineffective assistance of
trial counsel violated his constitutional rights. ECF No. 34 at 156 n.55.
The Court addresses these allegations in section III B below, after it
addresses the constitutionality of the procedure in which Tollette was
forced to litigate his ineffective assistance of trial counsel claims.
Tollette also alleges that motion for new trial counsel and appellate counsel
were ineffective for failing to raise trial counsel’s failure to object to
portions of the prosecutor’s closing argument. ECF No. 34 at 200-07. The
Court addresses these allegations in section III D below, after it addresses
whether the prosecutor’s closing argument violated Tollette’s
constitutional rights.

-10* App. 36 *

Case 4:14-cv-00110-CDL Document 43 Filed 08/17/16 Page 11 of 106

appellate counsel provided the cause and prejudice necessary
to overcome the defaults.

ECF No. 12-24 at 9.

The state habeas

court found that Tollette’s ineffective assistance of appellate
counsel claims were properly before the court.

Moreover, the

court acknowledged that ineffective assistance of trial counsel
was the underlying basis for all of Tollette’s ineffective
assistance claims:

“Tollette’s claim that direct appeal

counsel [were] ineffective rests on the premise that motion for
new trial counsel [were] in fact ineffective in not properly
litigating trial counsel’s ineffectiveness, which in turn rests
on the premise that trial counsel were in fact ineffective.”
ECF No. 12-24 at 20.
prejudiced

by

Thus, to determine if Tollette was

appellate

counsel’s

failure

to

raise

the

ineffectiveness of previous counsel, the state habeas court
reviewed the underlying ineffective assistance of trial counsel
claims.

Taking into consideration all of the evidence,

including that introduced at the January 13, 22-23, 2009
evidentiary

hearing,

the

state

habeas

court

found

that

Tollette’s trial counsel did not perform ineffectively and
Tollette was not prejudiced.

ECF No. 12-24.

Thus, appellate

counsel were not ineffective for failing to pursue the claims.
ECF No. 12-24 at 42.
When denying Tollette’s CPC application, the Georgia
Supreme Court found the state habeas court had applied the wrong

-11* App. 37 *

Case 4:14-cv-00110-CDL Document 43 Filed 08/17/16 Page 12 of 106

standard for determining if Tollette was prejudiced by trial
counsel’s failure to use an expert to challenge the State’s
characterization of the circumstances of the murder.
12-27 at 1.

ECF No.

Applying Strickland v. Washington, 466 U.S. 668

(1984), the Georgia Supreme Court found that Tollette was not
prejudiced by trial counsel’s failure to “utilize[e] testimony
like that presented by the Petitioner’s new expert to challenge
the State’s characterization of the circumstances of the
murder.”

ECF No. 12-27 at 2.

The court “conclude[d] that this

issue ultimately is without arguable merit.”
2.

ECF No. 12-27 at

Finally, the Georgia Supreme Court found that all “other

claims properly raised by [Tollette] are without arguable
merit.”

ECF No. 12-27 at 2.

Under Hittson, the Georgia Supreme Court’s denial of
Tollette’s

CPC

application

is

the

final

state

court

determination of Tollette’s ineffective assistance claims and
the only question for this Court is whether there was any
reasonable basis for the Georgia Supreme Court to deny relief.
Hittson, 759 F.3d at 1232-33 (finding that post-Richter, Ylst
v. Nunnemaker, 501 U.S. 797 (1991), no longer applies and
federal courts reviewing under § 2254(d) are not required to
“look through” the Georgia Supreme Court’s summary denials of
CPC applications to the reasons given in the “‘last reasoned
decision’ by the state court.”) (quoting Ylst, 501 U.S. at 804);

-12* App. 38 *

Case 4:14-cv-00110-CDL Document 43 Filed 08/17/16 Page 13 of 106

Lucas v. Warden, 771 F.3d 785, 792 (11th Cir. 2014) (reasoning
of the state habeas court is irrelevant and petitioner must show
there was no reasonable basis for the Georgia Supreme Court to
deny relief).

Tollette argues, however, that the Court should

consider the reasoning of the state habeas court for all
ineffective assistance claims except the one specifically
addressed by the Georgia Supreme Court when it denied his CPC
application.

ECF 41 at 5-8.

The Court finds that regardless

of which state courts’ decision is analyzed, the result is the
same—Tollette is not entitled to habeas relief.4

4

The analysis used in Hittson, which calls for the federal courts to ignore
the reasons given by the state habeas court for denying relief and
hypothesize reasons why the Georgia Supreme Court could have denied the CPC
application, has been called into question. In Hittson v. Chatman, 135 S.
Ct. 2126 (2015) (Ginsburg and Kagan, JJ., concurring in denial of
certiorari), Justice Ginsburg stated, “[t]he Eleventh Circuit plainly erred
in discarding Ylst.” Id. at 2127. She explained that the instruction given
in Ylst, that federal courts reviewing an unexplained state court order
upholding a prior reasoned judgment “should presume that [the] ‘later
unexplained order[] upholding that judgment or rejecting the same claim
rest[s] upon the same ground,’” was not disturbed by Richter. Id. (quoting
Ylst, 501 U.S. at 803). Thus, federal courts are to look at the last reasoned
decision from the state court and determine whether it “was contrary to,
or involved an unreasonable application of, clearly established Federal law”
or “was based on an unreasonable determination of the facts in light of the
evidence presented.” 28 U.S.C. § 2254(d). The courts are not to
“hypothesize reasons that might have supported the [Georgia Supreme Court’s]
unexplained order.” Hittson, 135 S. Ct. at 2127. Three days after the
Supreme Court denied certiorari in Hittson, it decided Brumfield v. Cain,
135 S. Ct. 2269 (2015). In Brumfield, the Court observed that when
“conducting the § 2254(d)(2) inquiry, we, like the courts below, ‘look
through’ the Louisiana Supreme Court’s summary denial of Brumfield’s
petition for review and evaluate the state trial court’s reasoned decision
. . . .” Id. at 2276 (citing Johnson v. Williams, 133 S. Ct. 1088, 1094,
n.1 (2013) and Ylst, 501 U.S. at 806). The Court confirmed what Justice
Ginsburg said in Hittson: Richter applies only “where there is no ‘opinion
explaining the reasons relief has been denied.’” Brumfield, 135 S. Ct. at
2283 (quoting Richter, 562 U.S. at 98). On July 30, 2015, the Eleventh
Circuit granted en banc review in Wilson v. Warden, Ga. Diagnostic Prison,
No. 14-10681. The question for review is whether a federal habeas court
is required to look through a state appellate court’s summary decision that

-13* App. 39 *

Case 4:14-cv-00110-CDL Document 43 Filed 08/17/16 Page 14 of 106

1. The clearly established federal law
Strickland

5

is

“the

touchstone

assistance of counsel claims.”
1253, 1272 (11th Cir. 2008).

for

all

ineffective

Blankenship v. Hall, 542 F.3d
“A convicted defendant's claim

that counsel’s assistance was so defective as to require
reversal of a conviction or death sentence has two components.
First, the defendant must show that counsel’s performance was
deficient . . . .

Second, the defendant must show that the

deficient performance prejudiced the defense.”

Strickland,

466 U.S. at 687; Wong v. Belmontes, 558 U.S. 15, 16 (2009).
To establish deficient performance, Tollette must show
that “counsel’s representation fell below an objective standard
of reasonableness.”
must

apply

a

Strickland, 466 U.S. at 688.

“‘strong

presumption’

that

The Court
counsel’s

representation was within the ‘wide range’ of reasonable
professional assistance.”

Richter, 562 U.S. at 104 (quoting

is an adjudication on the merits to the reasoning in a lower court decision
when deciding whether the state appellate court’s decision is entitled to
deference under 28 U.S.C. § 2254(d). Given the unsettled law in this area,
the Court has attempted to err on the side of caution in Tollette’s case.
The Court has reviewed the factual findings and legal conclusions given by
the state habeas court when that court’s order provides the last reasoned
analysis of a claim. The Court has determined that the state habeas court’s
factual findings were reasonable and the legal conclusions were not contrary
to, or unreasonable applications of, Supreme Court precedent. 28 U.S.C.
§ 2254(d). Having found the state habeas court’s bases for denying relief
were reasonable, the Court necessarily finds that there were “arguments or
theories [that] . . . could have supported” the Georgia Supreme Court’s
denial of relief. Richter, 562 U.S. at 102.
5

Although the Strickland test was announced in the context of an ineffective
assistance of trial counsel claim, the same test applies to claims of
ineffective assistance of appellate counsel. Heath v. Jones, 941 F.2d 1126,
1130 (11th Cir. 1991).

-14* App. 40 *

Case 4:14-cv-00110-CDL Document 43 Filed 08/17/16 Page 15 of 106

Strickland, 466 U.S. at 689).

“To overcome that presumption,

[Tollette] must show that counsel failed to act ‘reasonabl[y]
considering all the circumstances.’”

Cullen v. Pinholster,

131 S. Ct. 1388, 1403 (2011) (quoting Strickland, 466 U.S. at
688).
To establish prejudice, Tollette must show “a reasonable
probability that, but for counsel’s unprofessional errors, the
result

of

the

proceeding

Strickland, 466 U.S. at 694.

would

have

been

different.”

“A reasonable probability is a

probability sufficient to undermine confidence in the outcome.”
Id.

When determining if prejudice exists, “it is necessary to

consider all the relevant evidence that the jury would have had
before it if [Tollette’s counsel] had pursued the different
path–not just the mitigation evidence [Tollette’s counsel]
could have presented, but also the [aggravating evidence] that
almost certainly would have come in with it.”

Wong, 558 U.S.

at 20 (citing Strickland, 466 U.S. at 695-96, 700); see also
Porter v. McCollum, 558 U.S. 30, 40-41 (2009).
“When the claim at issue is one for ineffective assistance
of counsel, . . . AEDPA review is ‘doubly deferential,’ with
federal courts affording ‘ both the state court and the defense
attorney the benefit of the doubt.’”

Etherton, 136 S. Ct. at

1151 (citations omitted); Knowles v. Mirzayance, 556 U.S. 111,
121 n.2 (2009).

Thus, Tollette must do more than satisfy the

-15* App. 41 *

Case 4:14-cv-00110-CDL Document 43 Filed 08/17/16 Page 16 of 106

Strickland standard.
ineffective

“He must also show that in rejecting his

assistance

of

counsel

claim

the

state

court

‘applied Strickland to the facts of his case in an objectively
unreasonable manner.’”

Rutherford v. Crosby, 385 F.3d 1300,

1309 (11th Cir. 2004) (quoting Bell v. Cone, 535 U.S. 685, 699
2002).
2. Claims that trial counsel failed to investigate,
develop, and present mitigation evidence and
subsequent counsel failed to adequately litigate
their failure
a. Trial counsel’s experience
The trial court appointed Robert Wadkins as lead counsel,
and he filed an entry of appearance on April 30, 1996.
8-1 at 27, 68.

ECF No.

The trial court appointed Steve Craft as

co-counsel on October 4, 1996.

ECF No. 8-1 at 68.

Wadkins started practicing law in 1983 and, by the time
of appointment, had handled approximately 300 criminal cases.
ECF Nos. 9-2 at 39; 10-24 at 52.
death penalty cases. 6

He had been involved in nine

ECF No. 10-24 at 52.

Prior to his

appointment in Tollette’s case, he attended at least one death
penalty seminar each year.

ECF No. 10-24 at 53.

Steve Craft started practicing law in 1993, handling
mainly criminal cases.

ECF No. 10-23 at 31.

6

Prior to

It is unclear the number of death penalty cases in which Wadkins was
involved prior to his appointment in Tollette’s case. Wadkins testified
that he had been involved in nine cases total, some before and some after
he represented Tollette. (ECF No. 10-24 at 52).

-16* App. 42 *

Case 4:14-cv-00110-CDL Document 43 Filed 08/17/16 Page 17 of 106

appointment in Tollette’s case, he had not been involved in a
death penalty case but had handled numerous felony cases,
including some in which the defendant was charged with murder.
ECF No. 10-23 at 32-33.
seminars before 1996.

Craft had attended two death penalty
ECF No. 10-23 at 33.

b. Investigation into Tollette’s background
Trial counsel spoke with witnesses about the crime and
obtained police reports, Tollette’s statements, and witness
statements from the State.
43-45.
of

ECF Nos. 9-2 at 41-42; 10-23 at

They realized soon after appointment that “in the sense

guilt

or

innocence,”

the

case

was

“fairly

straightforward”—the evidence was overwhelming that Tollette
was the shooter.

ECF Nos. 10-23 at 44; 10-24 at 23.

trial counsel knew “this was a sentencing phase case.”

Thus,
ECF No.

10-24 at 24.
Trial

counsel

met

with

Tollette

and

discussed

childhood and family life on several occasions.
at 56; 10-23 at 47.

his

ECF Nos. 9-2

Tollette was “adamant in the beginning

that, . . . [trial counsel] not contact

. . . any of his family,

and then once [they] did[,] he didn’t want them to come here.”
ECF No. 10-23 at 69.

Tollette “continued to tell [trial

counsel] that he did not want any mitigation put up at all.

And

specifically, he did not want his mother here, or for [them]
to bother his mother. . . .

He did not want his grandparents

-17* App. 43 *

Case 4:14-cv-00110-CDL Document 43 Filed 08/17/16 Page 18 of 106

in Arkansas brought into the [case].”

ECF No. 9-2 at 56.

Ultimately, Tollette “resolved himself to [trial counsel’s]
argument that his mother needed to” come to his trial.

ECF No.

10-23 at 69.
Trial

counsel

spoke

Robinson, and his sisters.

with

Tollette’s

mother,

Willie

ECF Nos. 9-2 at 51; 10-23 at 68.

Tollette’s older brother “didn’t want anything to do with [the
case] whatsoever.”

ECF No. 9-2 at 72.

Trial counsel contacted the MultiCounty Public Defender
and the Georgia Indigent Defense Counsel’s death penalty
section

on

mitigation

several
and

occasions

mental

health

regarding

their

experts.

need

Billing

for

records

indicate the first contact with these agencies occurred around
May 12, 1997.

ECF No. 8-4 at 67.

At that time, Pamela Blume

Leonard, with the MultiCounty Public Defender, told Craft they
should hire “a mitigation specialist to do a social history”
before hiring a psychologist “[s]ince there is no push from the
judge.”

ECF No. 10-41 at 54.

On the same date, Leonard gave

trial counsel a list of experienced investigators and a sample
affidavit to use in support of their request for funds for a
mitigation specialist.

ECF No. 10-41 at 55.

On June 10, 1997, trial counsel filed an ex parte motion
requesting funds for both a mitigation specialist and a
psychologist.

ECF No. 8-7 at 40-41.

-18* App. 44 *

At a June 13, 2007

Case 4:14-cv-00110-CDL Document 43 Filed 08/17/16 Page 19 of 106

hearing, trial counsel argued that they needed a mitigation
specialist,

in

part,

because

they

had

experienced

some

“difficulty in p[inning] down all of the issues of . . .
[Tollette’s] upbringing . . . .”

ECF No. 8-7 at 80.

The trial

court refused to rule on the motion until trial counsel
submitted an “organized plan” describing how the funds would
be spent.

ECF No. 8-8 at 3.

On June 16, 1997, trial counsel reported the results of
the ex parte hearing to Leonard and requested her assistance:
I want to give some background information to
you and then ask you to send me . . . an outline of
how you would proceed. Mr. Tollette was born and
lived in the Los Angeles County area in California
most of his life. His mother still lives there. His
grandparents reside in Arkansas and he spent most of
his summers there. What we have indicated to the
Judge is that you need to go to California to
interview his mother, obtain all school records and
any medical records that may or may not be available.
Then interview his grandparents and do likewise
there. The Judge has indicated that without some
idea of, more specifically, what it is that you[‘re]
going after, he is not going to grant the funds. I
understand that we have a right to interview these
folks and go out and see them, but we are not even
going to try to argue that point with the Judge right
now. What I need from you is an outline of how you
would proceed and approximately how long you think
it would take and what information you would hope to
glea[n] from this . . . .
ECF No. 10-41 at 42.
On June 25, 1997, Leonard responded with an “outline of
the tasks and times needed to identify, locate and interpret
data regarding [Tollette’s] background.”

-19* App. 45 *

ECF No. 10-41 at 40.

Case 4:14-cv-00110-CDL Document 43 Filed 08/17/16 Page 20 of 106

She stated that a minimum of 150-175 total hours were needed
to conduct a mitigation investigation. ECF No. 10-41 at 40.
On June 27, 1997, using the information Leonard provided,
trial counsel filed an ex parte supplemental brief, stating that
a mitigation
investigate
$5,200.00.

specialist
Tollette’s

would need 140 to 160 hours to
background

ECF No. 8-7 at 51.

and

the

cost

would

be

On July 16, 1997, the trial

court held an ex parte hearing and granted $5,000.00 for a
mitigation specialist.

ECF No. 8-8 at 28.

On approximately July 28, 1997, trial counsel hired Cheryl
Abernathy,

a

mitigation

specialist

with

twenty

years

of

experience who had “consulted on death penalty cases on both
state and federal levels.”

ECF No. 12-4 at 66.

Abernathy told

trial counsel there was “little time to prepare for an extensive
investigation”7 but she would contact Tollette’s family while
she was on vacation in Los Angeles on July 29 to August 5, would
meet with Tollette when she returned to Georgia, and would
travel to California to do further investigation during the week
of August 17, 1997.

ECF No. 12-4 at 66-67.

On August 8, 1997, Abernathy met with trial counsel and
interviewed

Tollette.

ECF

Nos.

12-4

7

at

85.

Tollette

At the time, Tollette’s trial was scheduled to start September 8, 1997.
ECF No. 8-4 at 74. Realizing they needed more time to conduct the mitigation
investigation and have Tollette examined by a psychologist, trial counsel
moved for a six-month continuance on August 13, 1997. ECF No. 12-2 at 17-30.
The trial court rescheduled the trial for November 3, 1997. ECF Nos. 8-4
at 95; 8-17.

-20* App. 46 *

Case 4:14-cv-00110-CDL Document 43 Filed 08/17/16 Page 21 of 106

completed

a

questionnaire

indicating:

(1)

he

had

an

unremarkable early childhood with no hospitalizations or
developmental delays; (2) he attended a “pretty well kept
school”; (3) he suffered no social or academic difficulties in
school; (4) he was raised by his mother; (5) he received
emotional support and nurturing during childhood; (6) he was
disciplined by spanking but “they weren’t to[o] hard”; (7) he
was never physically or sexually abused; (8) he had a “very good
relationship” with his siblings; (9) he never suffered any head
trauma as a child; (10) the middle class suburbs in which he
grew up were “a nice place to live”; (11) over the last year
he had “many close friends”; (12) he started abusing drugs or
alcohol at age fourteen; (13) cocaine was his drug of choice
and he used drugs or alcohol daily; and (14) he had received
no mental health care in the past.

ECF No. 10-27 at 33-54.

On August 16, 1997, Abernathy had a telephone conversation
with Tollette’s mother and on August 22, 1997, Abernathy
travelled to Los Angeles.

ECF No. 12-4 at 85.

While in Los

Angeles, she interviewed Tollette’s mother, his sisters, his
maternal aunt, and a childhood friend.
85; 12-5 at 36-47.

ECF Nos. 12-4 at 78,

She told trial counsel that she found

Tollette’s “family to be cooperative and personable” but she
thought it was “troubling that so many of them have been involved
with the criminal justice system.”

ECF No. 12-4 at 84.

-21* App. 47 *

She

Case 4:14-cv-00110-CDL Document 43 Filed 08/17/16 Page 22 of 106

provided trial counsel with typed notes of the interviews.

ECF

No. 12-5 at 36-47, 84.
Tollette’s mother reported that she and her four older
children moved from Mississippi to Los Angeles after she
divorced her first husband.

ECF No. 12-5 at 40.

In 1968 she

“had a one night stand with [Tollette’s] father” and gave birth
to Tollette on December 29, 1968.

ECF No. 12-5 at 41, 48.

She

never married Tollette’s father, and he did not support or
maintain contact with Tollette.

ECF No. 12-5 at 41.

She

married her second husband, a postal employee, in 1990.
Tollette and his stepfather “never had much of a relationship.”
ECF No. 12-5 at 41.
together.

She and her second husband had one child

ECF No. 12-5 at 41.

Tollette’s mother stated that Tollette had no birth
complications, was a healthy infant, and had no major problems
during early childhood.

He played baseball and did well in

school until high school, when he began cutting classes and
associating with “a negative group of boys who were not from
their neighborhood.”

ECF No. 12-5 at 41.

Tollette’s mother

stated that she lost control over Tollette and he left home
without warning during his teenage years.

ECF No. 12-5 at 41.

He went to live with “a group of unsavory people” in San
Francisco.

ECF No. 12-5 at 41.

Thereafter, he started

“getting into trouble with legal authorities on a regular

-22* App. 48 *

Case 4:14-cv-00110-CDL Document 43 Filed 08/17/16 Page 23 of 106

basis.”

ECF No. 12-5 at 42.

While she was not sure, she

thought three factors contributed to Tollette’s troubles:

He

was teased as a child because of his light complexion and short
stature; he felt abandoned when his other brother, Donnelle,
married and moved out of the family home; and he “always seemed
to be materialistic.”

ECF No. 12-5 at 42.

Tollette’s mother also stated her other children, three
of whom abused drugs, had been charged with various crimes and
served time in prison.

As for herself, she was very involved

in the Church of God in Christ.
Tollette’s

sister,

ECF No. 12-5 at 42-43.

Merlinda

Moore,

8

reported

that

Tollette tried desperately to fit in when he was younger, but
children teased him because he was short.

ECF No. 12-5 at 45.

She did not think Tollette had a close relationship with their
mother or stepfather, and he had no relationship at all with
his biological father.

ECF No. 12-5 at 45.

She opined that

both she and Tollette may have “so many problems” because they
did not get the attention they deserved.

ECF No. 12-5 at 45.

She stated that when she and Tollette were children, their
family attended church, went to the beach, and enjoyed going
to barbecues together.

ECF No. 12-5 at 45.

8

Moore stated she left home when she was fifteen, moved to Chicago, and
started abusing drugs. When she returned to Los Angeles, she and her sister,
Gladys Lattier, were convicted for armed robbery and served time in prison.
She stated that during prison she turned her life around and had been in
no further legal trouble. ECF No. 12-5 at 44-45.

-23* App. 49 *

Case 4:14-cv-00110-CDL Document 43 Filed 08/17/16 Page 24 of 106

Moore had custody of Tollette’s son, TJ. ECF No. 12-5 at
44.

Tollette’s girlfriend, Evonne Lopez, gave birth to TJ

while she was serving a prison sentence.

ECF No. 12-5 at 44.

Merlinda stated that Tollette and TJ had a close relationship
and Tollette had always been good to both his son and his nephew.
ECF No. 12-5 at 44-45.
Tollette’s other sister, Gladys, recalled that her family
moved to California and initially lived with her aunt, Josie
Washington.

After leaving Washington’s home, they lived in the

projects in Watts from 1968 to 1972.

“She described the Watts

area as having a great deal of crime, drive-by shootings, and
gang bangers.”

ECF No. 12-5 at 38.

In 1972, they moved to

Gardena, California, which “was a much nicer environment.”
No. 12-5 at 38.

ECF

Lattier reported she had a good relationship

with her stepfather, and their family participated in various
activities, such as going to the beach and having barbecues.
ECF No. 12-5 at 38.

She stated she had been addicted to cocaine

and served time in prison on three separate occasions.
12-5 at 39.

ECF No.

Lattier thought that she and her siblings had

problems because they left home when they were too young and
immature.

ECF No. 12-5 at 39.

Tollette’s

aunt,

Josie

Washington,

remembered

that

Tollette was born in the car on the way to the hospital, but
“appeared fine.”

ECF No. 12-5 at 46.

-24* App. 50 *

Tollette’s mother had

Case 4:14-cv-00110-CDL Document 43 Filed 08/17/16 Page 25 of 106

no complications before or after delivery.

ECF No. 12-5 at 46.

Washington described Tollette as “a fairly good kid.”
12-5 at 47.

ECF No.

He loved to play baseball, did not fight or cause

disturbances, was neat and clean, and was not hyperactive.

She

could not explain why Tollette “got with the wrong crowd” and
“chose a life of crime.”

ECF No. 12-5 at 47.

According to

Washington, Tollette’s mother tried “to talk to him, advise him,
preach to him, etc, however, he would not listen.”
at 47.

ECF No. 12-5

Washington stated that Tollette’s family did not know

that he was charged with murder in Columbus, Georgia until FBI
agents visited his mother’s house.

She opined that Tollette

was “ashamed, especially since his mother had warned him about
his behavior.”

ECF No. 12-5 at 47.

Shelton James stated that he first met Tollette when they
were in the fourth grade.

ECF No. 12-5 at 36.

James and

Tollette lived in the same neighborhood, which James described
as “a good place to grow up,” “fairly peaceful,” and made up
of single family homes inhabited by “a mixture of ethnic
groups.”

ECF No. 12-5 at 36.

He described Tollette as a good

friend during childhood and stated that “they had much in common
because neither of them had their biological fathers in the
home.”

ECF No. 12-5 at 36.

James stated that Tollette enjoyed

playing baseball, had a complex about his height, liked to hang
around older guys and smoke and drink, was never violent, got

-25* App. 51 *

Case 4:14-cv-00110-CDL Document 43 Filed 08/17/16 Page 26 of 106

along well with his peers, was not liked by his stepfather, and
“had no parents to turn to.”

ECF No. 12-5 at 37.

Abernathy also interviewed Tollette at least two more
times and reported her findings to trial counsel.
at 68-75.

ECF No. 12-4

During the September 19, 1997 interview, she asked

Tollette “why he continued to get arrested as he had been in
approximately thirteen institutions.”

ECF No. 12-4 at 68.

Tollette responded that each time he was released from prison,
he was “dumped on the street” with just $200.00 and a trip to
the nearest bus station.

ECF No. 12-4 at 68.

After he returned

to his familiar surroundings he would be lured back into
criminal activities because he had no other way of supporting
himself.

While Tollette acknowledged that he could get a job

at a fast food restaurant, “he argued that the income wouldn’t
have been sufficient and besides, he was impressed with the
enormous material accumulation that some of the neighborhood
drug dealers had amassed as a result of their drug activity.”
ECF No. 12-4 at 69.
During that same interview, Tollette told Abernathy that
any child who grew up in Los Angeles was a member of, or
affiliated with, a gang, and he was a member of the Crypts.

He

reported that the Crypts served as a family for him, and he
joined the gang for acceptance, friendship, and protection.
ECF No. 12-4 at 69.

Tollette “got into ‘gang banging’ while

-26* App. 52 *

Case 4:14-cv-00110-CDL Document 43 Filed 08/17/16 Page 27 of 106

in junior high school,” and he had attained a high status in
the gang by the time he was in high school.
69.

ECF No. 12-4 at

While he had never killed anyone to achieve status and

acceptance in the gang, he had stolen cars and committed
robberies.

ECF No. 12-4 at 69.

In an October 16, 1997 interview, Tollette provided
additional information about the gangs in Gardena, California:
[Tollette] explained that even though his
neighborhood appears “safe,” it is not.
He
elaborated that there is ample crime, drugs, and gang
activity in the area. [Tollette] stated that you
cannot escape it, in and around the Los Angeles area.
[He] related that most of the guys he grew up with
. . . got involved in gang activities. It was the
norm in his neighborhood. Leon stated that getting
into a gang sparked the beginning of his criminal
life. Gang involvement . . . leads to an array of
criminal activities and thus gets you into trouble
with the police. Once you go to prison, [Tollette]
asserts, you are on your way to learning more about
committing crimes. Each time you’re locked up and
released, you psych yourself into believing that you
are now a better criminal and therefore, you won’t
get caught the next time. When asked how many times
does one need to get caught before they stop buying
into that argument, [he] had no answer.
ECF No. 12-4 at 73.
Tollette reported that he started smoking marijuana in his
early teens and cocaine and crack in his late teens.
12-4 at 69.
crack.

ECF No.

At one time, he was addicted to both alcohol and

ECF No. 12-4 at 70.

Regarding

his

home

life,

Tollette

stated

that

his

biological father, who was an alcoholic Vietnam veteran, came

-27* App. 53 *

Case 4:14-cv-00110-CDL Document 43 Filed 08/17/16 Page 28 of 106

to see him only once per year.

ECF No. 12-4 at 72.

He had fond

memories of the summers he spent in Arkansas with his paternal
grandparents.9

His mother was supportive and caring before she

married Tollette’s stepfather.

ECF No. 12-4 at 70.

After

their marriage, she “turned her back on him and his siblings.”
ECF No. 12-4 at 72.

His stepfather would “whip [him and his

siblings] severely” or beat them if they made too much noise.
ECF No. 12-4 at 70.
her children.

His mother never intervened or protected

Tollette reported that he once ran away from home

because he was afraid of being whipped by his stepfather.

When

it was discovered that he ran away, his stepfather “beat him
severely.” ECF No. 12-4 at 70.

His stepfather never attended

his baseball games, never provided direct financial support,
and never encouraged him in any way.

ECF No. 12-4 at 70-71.

He claimed he left home at an early age because of the
mistreatment he received from his stepfather.

ECF No. 12-4 at

73.
In addition to these interviews, trial counsel obtained
Tollette’s school, prison, and medical records.

ECF Nos. 9-2

at 52; 10-23 at 57.
c. Investigation into Tollette’s mental health
On November 27, 1996, trial counsel filed a notice of

9

Tollette told Abernathy that he did not want his grandparents to be
contacted. ECF No. 12-4 at 72.

-28* App. 54 *

Case 4:14-cv-00110-CDL Document 43 Filed 08/17/16 Page 29 of 106

intention to raise the issue of insanity, mental illness, or
competency.

ECF No. 8-4 at 5.

On that same day, the State

moved for discovery of any “written expert report” that may be
made by Tollette’s experts.10

ECF No. 8-4 at 18-20.

On January 7, 1997, the trial court ordered a mental
evaluation

of

competency

to

Tollette
stand

to

trial;

determine:
(2)

the

(1)

degree

Tollette’s
of

criminal

responsibility or mental competence at the time of the crime;
(3)

whether

Tollette

is

mentally

recommendations for disposition.

retarded;

and

(4)

any

ECF No. 8-4 at 43.

On

February 7, 1997, Drs. Karen Bailey-Smith and Margaret Fahey
with West Central Georgia Regional Hospital interviewed and
tested Tollette for approximately seven hours.
at 8.

ECF No. 12-2

They prepared two reports dated March 6, 1997 (“West

Central Reports”), which they gave to the trial court, trial
counsel, and the prosecutor.

ECF No. 12-2 at 8-16.

The West Central Reports show that Tollette indicated as
follows during his interview with Bailey-Smith and Fahey:

(1)

He had a good relationship with this mother and stepfather until
his teenage years; (2) he knew his natural father but did not
have a significant relationship with him; (3) as the youngest
in his family, he received much attention and pampering; (4)

10

At an August 15, 1997 pretrial hearing, the State again asked for any
written reports that Tollette’s psychologist prepared. ECF No. 8-17 at 13.

-29* App. 55 *

Case 4:14-cv-00110-CDL Document 43 Filed 08/17/16 Page 30 of 106

he had a good relationship with his three stepbrothers and two
stepsisters; (5) he moved out of the family home in the tenth
grade because of a conflict over a car; (6) he lived with friends
and other family members since that time; (7) he was an average
student until the tenth grade, when he became disinterested in
school; (8) he received his GED in prison; (9) he supported
himself primarily through selling drugs; (10) he started
drinking alcohol and smoking marijuana in elementary school and
started using cocaine regularly and experimenting with other
drugs during high school; (11) his criminal history contains
mainly drug-related charges, including sale and distribution
of cocaine, possession of cocaine, and possession of a firearm
by a convicted felon; and (12) the only time he saw a mental
health counselor was at age sixteen because of his antisocial
behavior.

ECF No. 12-2 at 13-14.

Bailey-Smith and Fahey found that Tollette’s intellect
appeared normal, he had an IQ of 89, his judgment was “relatively
intact,” his mood was depressed, and his insight into his
condition was deficient.

ECF No. 12-2 at 10.

Tollette

reported that he had never harmed himself in the past, but stated
that he currently thought “about hurting or killing himself as
he does not think he can go through with what lays ahead of him
legally.”
had

ECF No. 12-2 at 9.

“visions

or

dreams”

He claimed he heard voices and

in

November

-30* App. 56 *

1995

when

he

was

Case 4:14-cv-00110-CDL Document 43 Filed 08/17/16 Page 31 of 106

“excessively preoccupied with the belief that his girlfriend
was cheating on him with his best friend.”

ECF No. 12-2 at 10.

He also “described, at length, his beliefs that an ex-girlfriend
. . . may have been a witch [who] placed a curse on him” and
he thought his “current legal predicament is related to that
curse.”

ECF No. 12-2 at 10.

Bailey-Smith and Fahey opined

that Tollette was placing responsibility for the crime “outside
of himself” as a way of dealing with the anxiety caused by his
current legal problems.
The

Minnesota

ECF No. 12-2 at 10.

Multiphasic

Personality

Inventory-2

“MMPI-2” revealed
a profile which would suggest an individual who is seen
by others as angry and argumentative. These individuals
are usually able to control the expression of their
hostility, but they do exhibit episodic, angry outbursts,
especially in response to stress. The self-concept of
these individuals is usually unrealistic and grandiose.
They tend to exaggerate their own contributions and
self-worth. They tend to view the world as a threatening
place. They are suspicious and mistrustful, and often
feel that they are unfairly blamed or punished. They
often feel misunderstood, alienated, and estranged from
others. They often blame others for their own problems
and short-comings. Not surprisingly, these individuals
are likely to have a long history of very poor
interpersonal relationships. They are often excessively
demanding of attention, affection, and sympathy.
However, they tend to be resentful of any demands placed
on them.
Taken together, all information on Mr. Tollette would
suggest that his behavior can best be described by the
diagnosis of Personality Disorder NOS with Antisocial and
Schizotypal Features.
ECF No. 12-2 at 10-11

-31* App. 57 *

Case 4:14-cv-00110-CDL Document 43 Filed 08/17/16 Page 32 of 106

Ultimately, Bailey-Smith and Fahey determined Tollette
was competent to stand trial, and he had the capacity to
distinguish right from wrong at the time of the crime.

ECF No.

12-2 at 11, 16.
On June 10, 1997, trial counsel requested funds for a
psychologist.

ECF No. 8-7 at 40-41.

At the June 13, 1997 ex

parte pretrial hearing, trial counsel argued that the West
Central Reports were “very limited and very flawed.”
8-8 at 1.
for

a

ECF No.

On July 16, 1997, the trial court granted $2,500.00

psychological

expert.

ECF

No.

8-8

at

28.

The

MultiCounty Public Defender recommended Dr. Daniel Grant, and
trial counsel contacted Grant in September 1997.
10-22 at 40; 10-41 at 12.

ECF Nos.

Trial counsel gave Grant Abernathy’s

memos, Tollette’s statements to the police, and the West Central
Reports.
Grant

ECF No. 10-22 at 46.
spent

two

days

with

neuropsychological evaluation.

Tollette

performing

ECF No. 10-22 at 41-42.

a
He

“gave neuropsychological testing, which included intelligence,
achievement, . . . memory, language processing, executive
functions, motor functions, and … some tests that looked at …
personality issues and level of adjustment.”

ECF 10-22 at 41.

Grant determined, and reported to trial counsel,11 that Tollette

11

Perhaps because the State had sought discovery of any written
psychological report, trial counsel did not ask Grant to provide a written
report. ECF No. 10-22 at 65.

-32* App. 58 *

Case 4:14-cv-00110-CDL Document 43 Filed 08/17/16 Page 33 of 106

was not insane or under a delusional compulsion at the time of
the crime, was not mentally retarded, and was not severely
mentally ill.

ECF No. 10-22 at 43-44.

Tollette was depressed and felt hopeless.

Grant found that
ECF No. 10-22 at

43-44.
Trial counsel’s notes of the conversation with Grant show
that Grant reported:

There was “not much to work with”;

Tollette’s memory problems could be “related to drug use”;
Tollette suffered borderline personality disorder; he was
“moody, irritable, [and had a] poor personal concept”; Tollette
felt “unloved, unwanted, [and that] nobody cared for him”; he
was either not depressed or “mildly depressed”; Tollette wanted
to die if he was sentenced to life without the possibility of
parole; he was suicidal “from [the] reality of [his] options”;
he had “problems with emotions—has little or no control”; and
Tollette was “self-centered, aggressive and antisocial but not
much else.”

ECF Nos. 10-22 at 65-69; 12-2 at 2-4.

Trial

counsel’s notes show that the “best [Grant] can do” is testify
that Tollette could be “useful in prison” if his prison records
from California do not show disciplinary problems.
12-2 at 4.

ECF No.

Although Grant requested Tollette’s prison records

from his numerous incarcerations in California, trial counsel
did not provide him with those records.
61, 64, 69.

-33* App. 59 *

ECF No. 10-22 at 47-48,

Case 4:14-cv-00110-CDL Document 43 Filed 08/17/16 Page 34 of 106

d. Presentation of evidence at sentencing
At the October 20, 1997 pretrial hearing, Tollette told
the trial court that he “was trying to get [his] lawyers just
to stop everything right here, all of the proceedings.

And [he]

wanted to plead guilty and request to be put to death.”
No. 8-18 at 45.

Tollette said he did not want trial counsel

to put up any defense to the death penalty.
46.

ECF

ECF No. 8-18 at

Trial counsel objected, stating that Tollette was not

making a rational decision and asked the trial court not to grant
his request.

ECF No. 8-18 at 46.

The trial court told Tollette

his request was “on the record.”

ECF No. 8-18 at 47. Again on

October 24, 1997, Tollette told the trial court he wanted to
plead guilty and be given the death penalty.

ECF No. 8-19 at

4.
On November 3, 1997 Tollette pled guilty to all charges.
ECF No. 8-21.

Trial counsel explained that they did not

“necessarily concur” in his decision to plead guilty but “it
is his decision and . . . he’s been consistent in that regard
all along.”

ECF No. 8-21 at 16.

Prior to the commencement of the sentencing hearing on
November 10, 1997, trial counsel sought to limit the State’s
evidence in aggravation.

ECF No. 8-31 at 2.

They argued that

because Tollette pled guilty, the State should not be allowed
to present all of the underlying facts of their case in chief.

-34* App. 60 *

Case 4:14-cv-00110-CDL Document 43 Filed 08/17/16 Page 35 of 106

ECF No. 8-31 at 2-3.

Instead, only matters in aggravation and

mitigation should be presented during the sentencing hearing.
ECF No. 8-31 at 2-3.

The Court ruled the State could present

the facts “surrounding the armed robbery, surrounding the
killing, surrounding the aggravating assault, but it’s not
necessary to go into all the peripheral matters that [they]
would have to deal with if [they] were trying the case.”

ECF

No. 8-31 at 8.
The State moved to have Bailey-Smith conduct a “risk
assessment

profile”

so

that

it

could

present

concerning Tollette’s future dangerousness.12
9-10; 8-4 at 108.

testimony

ECF Nos. 8-31 at

The court questioned whether trial counsel

planned to present any experts and they stated “we have no
intention of putting any expert up knowing what we think we know
that the State is going to put up.”

ECF No. 8-31 at 10.

The

trial court ruled that the State could not conduct a “risk
assessment profile” or present evidence of Tollette’s future

12

This was not the first time the State moved to present expert testimony
that Tollette would not be a good risk in prison. ECF No. 8-21 at 3-4. In
an October 20, 1997 Amendment to Notice of Evidence in Aggravation of
Punishment and Victim Impact Evidence, the State notified trial counsel that
it planned to present testimony from Bailey-Smith and Fahey “concerning the
future dangerousness of . . . Tollette, based on the psychological
examination, the facts of the crime, the defendant’s prior criminal history,
and the interview given him on February 7, 1997.” ECF No. 8-4 at 108. At
the November 3, 1997 pretrial hearing, the State requested the trial court
to allow Bailey-Smith to conduct a risk assessment on Tollette and trial
counsel opposed the motion. ECF No. 8-21 at 3. The trial court took the
“motion under advisement” but denied it at that time because there was a
question “whether legally . . . the State is authorized to put on this type
of testimony without the defense utilizing expert testimony in whatever
phase of trial it’s used in.” ECF No. 8-21 at 5.

-35* App. 61 *

Case 4:14-cv-00110-CDL Document 43 Filed 08/17/16 Page 36 of 106

dangerousness because trial counsel were not going to present
expert testimony.

ECF No. 8-31 at 12.

The State presented testimony regarding the armed robbery
and murder of Hamilton.

ECF Nos. 8-31 at 86-151; 8-32 at 1-43;

8-37 at 45-65; 8-38 at 1-1513.

Tollette’s audiotaped statement

to the police was played for the jury.

ECF No. 8-32 at 44-73.

In his statement, Tollette said he was from California and
had been in Columbus only three or four days at the time of the
robbery.

ECF No. 8-32 at 52, 57.

He came to Columbus when his

accomplice, Xavier Womack,14 called and told him that “he had
something working.”

ECF No. 8-32 at 59.

Tollette stated he

came to Columbus “to try to hussle [sic] to make some money.”
ECF No. 8-32 at 57.

While he and Womack had discussed robberies

in the past, they did not plan this robbery until after he
arrived in Columbus.

ECF No. 8-32 at 58.

Tollette explained

that Womack became familiar with the schedules of the armored
vehicles before Tollette arrived in Columbus and Womack was the
one

who

planned

this

robbery.

ECF

No.

8-32

at

59-60.

According to Tollette, he walked up as Hamilton was loading
money into the Brinks truck.

ECF No. 8-32 at 48.

13

When Hamilton

For reasons unknown, the sentencing hearing transcript is out of order on
the Court’s electronic case filings system. The transcript of testimony
from the sentencing hearing starts at ECF No. 8-31 and continues through
ECF No. 8-32. Exhibits tendered during the sentencing hearing start at ECF
No. 8-33 and continue through ECF No. 8-37 at 44. The transcript of
testimony from the sentencing hearing resumes at ECF No. 8-37 at 45.
14
In an apparent attempt to conceal Xavier Womack’s identify, Tollette
actually stated his accomplice’s name was Xavier Johnson. ECF No. 8-32 at
52.

-36* App. 62 *

Case 4:14-cv-00110-CDL Document 43 Filed 08/17/16 Page 37 of 106

turned around and saw him, Tollette started firing.
8-32 at 48.

ECF No.

Tollette explained that killing Hamilton was never

part of the plan:
It was something I can say happened out of, more
out of my fright. You know I originally didn’t want
to shoot him nor kill him, but, you know. I wanted
everything to go okay and get the money and run . .
. .
. . . .
So, so, I didn’t get overly frustrated and
wanted to kill him, but killing him was not what I
was out to do. Like I said I shot him and he didn’t
fall, and that’s usually what people do when they get
shot they fall down.
I did try to grab his gun
because he was trying to grab it and he was trying
to grab mine. I just wanted to grab the bag and run,
so what I wanted him to do is fall down.
ECF No. 8-32 at 62-64.
Tollette stated that he was in the Shotgun Crip and Womack
was in the Crips, both of which were gangs located in Los
Angeles, California.

ECF No. 8-32 at 66-67.

The State introduced certified copies of Tollette’s
previous convictions:

(1) three December 2, 1988 guilty pleas

to selling cocaine; (2) an August 30, 1990 guilty plea to
possession of cocaine; and (3) a May 13, 1992 guilty plea to
possession of a firearm by a convicted felon.
16-18.

ECF No. 8-38 at

The State also presented victim impact statements from

Hamilton’s wife, two daughters, and one co-worker.

ECF No.

8-38 at 21-54.
Trial counsel presented testimony from Tollette’s mother,

-37* App. 63 *

Case 4:14-cv-00110-CDL Document 43 Filed 08/17/16 Page 38 of 106

who brought Tollette’s three-year-old son with her to the
sentencing hearing.
she

never

married

ECF No.8-38 at 76-77.
Tollette’s

father;

She testified that

Tollette

had

three

brothers and two sisters; Tollette was a good, loveable,
obedient child; they “were a family of love”; Tollette did well
in school “until he met up with the wrong group”; Tollette played
sports when he was young; Tollette and his stepfather did not
have a father-son relationship and were not as close as she would
have liked; Tollette did respect his stepfather; Tollette left
home was he was sixteen without her consent; Tollette left home
because he became associated with the wrong crowd and wanted
to “experiment with some things that he knew . . . he could not
do and stay” at home; Tollette had a great relationship with
his son; she knew he was in jail from time to time, but he called
her regularly; and he had no drug problem of which she was aware.
ECF No. 8-38 at 78-87.

Tollette’s mother begged the jury to

spare his life and she apologized to the Hamilton family.

ECF

No. 8-38 at 88-89.
In closing arguments, the State argued that the facts of
this case are “absolutely horrendous,” but Tollette “thinks the
whole thing is funny.” 15

ECF No. 8-38 at 95.

Jurors were

reminded that Tollette showed no remorse and even laughed during

15

Tollette had apparently leaned back in his seat at some point during the
sentencing hearing and grinned. ECF No. 9-2 at 58.

-38* App. 64 *

Case 4:14-cv-00110-CDL Document 43 Filed 08/17/16 Page 39 of 106

his statement to law enforcement.

ECF No. 8-38 at 103.

According to the State, Tollette had plenty of opportunity to
back out of this crime as it took him and his codefendants days
to plan the robbery.

ECF No 8-38 at 98, 101.

Jurors were told

to show the same mercy for Tollette that he showed for Hamilton
on the day he shot him.

ECF No. 8-38 at 97-98, 100-01, 123.

The State said that Tollette had “several criminal convictions
in California,” ECF No. 8-38 at 109, “served time in California
prisons,” ECF No. 8-38 at 100, and argued he was beyond
rehabilitation.

ECF No. 8-38 at 120.

The State, however, did

not reference Tollette’s gang affiliation during closing.
Trial counsel explained that their closing argument was
guided, in part, by the way Tollette acted during the trial.
Wadkins stated that “[i]t was obvious that the jury was
disgusted . . . in mild term[s], toward [Tollette].

Some of

[Tollette’s] actions in the courtroom during the trial, you may
recall the page, the newspaper page with him leaning back and
grinning.”

ECF No. 9-2 at 58.

Apparently Tollette had also

pursed his lips or blown a kiss at one of Hamilton’s daughters
when she was walking off the witness stand after finishing her
victim impact statement.

ECF No. 9-2 at 61.

Wadkins thought

it necessary to gain credibility with the jury by telling them
that he too was disgusted by Tollette but still thought that
Tollette’s life should be spared.

ECF No. 9-2 at 58-59

-39* App. 65 *

Case 4:14-cv-00110-CDL Document 43 Filed 08/17/16 Page 40 of 106

Trial counsel told the jury they did not have to invoke
the

death

penalty

just

circumstances existed.

because

they

found

ECF No. 8-38 at 125.

aggravating
Instead they

could sentence Tollette to life or life without the possibility
of parole.

If sentenced to life without the possibility of

parole, there was no possibility “he would ever be on the
street.”

ECF No. 8-38 at 130.

Because life without the

possibility of parole was available, Tollette did not have to
be sentenced to death in order to protect society.
at 131.

ECF No. 8-38

Trial counsel argued that sentencing a defendant to

life without the possibility of parole may punish him more than
death because he has to “wake up every day for the rest of his
life behind bars to reflect on what he’s done.”
at 132.

ECF No. 8-38

Since a sentence of life without the possibility of

parole protected society, vengeance, trial counsel argued, was
the only reason left to sentence a defendant to die:
Now, I also submit to you this thought, knowing
that you’ve got a third option of life without parole,
if you don’t have to . . . kill[] . . . him [to protect]
society, and yet you do kill him, you are no different
than him. If you kill him when you don’t have too,
that’s exactly what he did to Mr. Hamilton.
He
killed him, and he didn’t have to.
If you kill
Tollette and you don’t have to, how are you different
than Tollette? You are not. You won’t be. You’ll
live the rest of your life knowing you are in the same
category, deep down.
ECF No. 8-38 at 132-33.

Trial counsel concluded by asking the

jurors to consider what their spiritual leaders might do if

-40* App. 66 *

Case 4:14-cv-00110-CDL Document 43 Filed 08/17/16 Page 41 of 106

faced with such a decision.

ECF No. 8-38 at 133

The jury returned a sentence of death, finding two
aggravating circumstances:

(1) The murder was committed while

Tollette was engaged in another capital felony—armed robbery;
and (2) Tollette committed the murder for the purposes of
receiving money or any other thing of monetary value.

ECF No.

8-5 at 43-44.
e. Motion for new trial and direct appeal
Trial counsel failed to file a timely motion for new trial
because they were confused about whether they would continue
to represent Tollette.

ECF No. 8-5 at 63-64.

On December 19,

1997, they moved to be allowed to file an out of time motion
for new trial and the trial court granted the motion on December
22, 1997.

ECF No. 8-5 at 66.

The trial court appointed David Grindle to represent
Tollette, and he filed an amended motion for new trial on March
11, 1998.

ECF No. 8-5 at 72-73.

court terminated Wadkins.16

On July 21, 1998, the trial

On October 20, 1998, Grindle filed

his first amended motion for new trial and alleged, inter alia,
ineffective assistance of trial counsel.

ECF No. 8-5 at 76-85.

The trial court denied Grindle’s motion for funds to hire an
investigator.

ECF Nos. 8-8 at 40-45; 9-2; 10-24 at 109.

16

To

While it is unclear when Craft’s representation of Tollette ceased, it
is clear that Craft did not represent Tollette at the motion for new trial
or on direct appeal.

-41* App. 67 *

Case 4:14-cv-00110-CDL Document 43 Filed 08/17/16 Page 42 of 106

prepare for the motion for new trial hearing, Grindle spoke with
Wadkins and Tollette, consulted the MultiCounty Public Defender
and the Southern Center for Human Rights, and reviewed the trial
transcript.

ECF No. 10-24 at 95, 98, 110, 116, 122

The motion for new trial hearing was held on December 4,
1998 and January 25, 1999.

ECF Nos. 9-1; 9-2.

only witness Grindle called.

ECF No. 9-2.

Wadkins was the

The court summarily

denied the motion for new trial on January 28, 1999.

ECF No.

8-5 at 103.
Grindle represented Tollette on direct appeal until he was
replaced by Dorothy Williams, who was later replaced by Jim
Elkins and Mike Reynolds.17
72-73, 76-77, 84-87, 92.

ECF Nos. 10-24 at 119-21; 10-25 at

In relation to ineffective assistance

of counsel, the Georgia Supreme Court found:
Tollette claims that his trial counsel rendered
constitutionally-ineffective
assistance.
To
prevail in his claim, Tollette must demonstrate both
that his counsel performed deficiently under
constitutional standards and that the deficiency in
reasonable probability changed the outcome of his
trial.
. . . .
Tollette complains that his trial counsel did
not
prepare
adequate
mitigation
evidence.
Tollette’s lead counsel testified that he was
appointed to Tollette’s case more than a year before
trial, interviewed potential witnesses, arranged for
a mental health examination by a pair of
17

Trial counsel’s files were lost sometime during the direct appeal. ECF
No. 10-24 at 119-20. Grindle testified that the files were lost after he
handed all of them over to Williams. ECF No. 10-24 at 119-20.

-42* App. 68 *

Case 4:14-cv-00110-CDL Document 43 Filed 08/17/16 Page 43 of 106

psychologists, arranged for an examination by a
neuropsychologist, hired a “mitigation specialist,”
consulted with lawyers expert in death penalty cases,
and obtained and weighed the usefulness of school and
prison records. Counsel did not believe that the
psychological experts offered anything helpful to
Tollette’s case, and, in counsel's appraisal,
Tollette’s school and prison records were also
unhelpful.
The investigation by counsel and the mitigation
specialist led to a conclusion that Tollette’s mother
and one of his sisters could offer helpful testimony.
Although Tollette’s mother testified at trial,
Tollette argues that counsel performed deficiently
by failing to secure the attendance of his sister
through an interstate subpoena. Pretermitting the
question of whether counsel’s failure to compel the
attendance of the witness has been shown to be
deficient performance, we conclude that Tollette did
not suffer sufficient prejudice to warrant relief.
The only testimony in the hearing on the motion for
new trial regarding the content of the sister’s
potential testimony showed that it would have been
merely a “reiteration of the mother's testimony.”
. . . .
Having reviewed Tollette’s arguments and the
record, we conclude that the trial court did not err
claim
of
ineffective
in
denying
Tollette’s
assistance of trial counsel.
Tollette, 280 Ga. at 106-07, 621 S.E.2d at 749-50. (citations
omitted).
f. State habeas proceedings
In an attempt to show what mitigation evidence trial
counsel could, and allegedly should, have presented during
sentencing, state habeas counsel presented testimony from seven
witnesses

and

introduced

numerous

-43* App. 69 *

affidavits

and/or

Case 4:14-cv-00110-CDL Document 43 Filed 08/17/16 Page 44 of 106

depositions from experts and from Tollette’s family members,
former friends, and teachers. 18

ECF Nos. 10-21 to 11-35.

Dr. James Vigil, an anthropologist with the University of
California testified about Tollette’s gang involvement.
No. 10-21 at 20-75

ECF

He stated that Tollette’s family did not

support or nurture him while he was growing up in a gang-infested
ECF No. 10-21 at 42-49.

area.

He had no male role models and

received no guidance from his father or stepfather.
10-21 at 48-49.

The gang offered Tollette protection and

security when he left home at the age of sixteen.
at 46.

ECF No.

ECF No. 10-21

Vigil stated that the combination of Tollette’s family

situation and the gang presence in Gardena, California made
Tollette’s gang involvement “predetermined.”

ECF No. 10-21 at

64.
On cross examination, Vigil stated that the Westside
Shotgun Crips were known as a drug trafficking gang and Tollette
could have been attracted to the gang because its members had
a lot of money, nice cars, and women.

ECF No. 10-21 at 67, 72.

He acknowledged that the “enormous material accumulation that
some of the neighborhood drug dealers had amassed as a result
of their drug activity” could have motivated Tollette to return
18

In addition, Craft, Wadkins, and Grindle testified at the state habeas
evidentiary hearing. ECF Nos. 10-23 at 29-94; 10-24 at 20-124. Also, Ralph
Robert Tressell, an expert in forensic investigation and crime scene
analysis, and medical examiner Geoferry Smith testified regarding the
sequence of the gunshots and their testimony is discussed in section III
A 3 of the Order.

-44* App. 70 *

Case 4:14-cv-00110-CDL Document 43 Filed 08/17/16 Page 45 of 106

to the gang each time he was released from prison.

ECF No. 10-21

at 72-73.
Katrina Wilson testified she met Tollette in 1993, when
he was hanging out with other gang members in the house next
door to her grandparent’s home.

ECF No. 10-21 at 105-06.

She

was eighteen years old at the time and he was twenty-six.

ECF

No. 10-21 at 105.

They dated until sometime in 1995.

10-21 at 105; 10-25 at 5.

ECF Nos.

She testified that Gardena was a

violent, gang-infested neighborhood in the 1980s.

ECF No.

10-21 at 82-85.
Wilson stated that Tollette treated her son and his own
young son very well, and he was respectful of her grandmother.
ECF No. 10-21 at 92-97.

When they met, Tollette drove a BMW

and wore nice clothes and jewelry.

ECF No. 10-21 at 97.

She

knew Tollette did not have a job, and he never spoke of looking
for work.

ECF No. 10-21 at 108-09.

Thus, she was suspicious

how Tollette got the money for these luxury items, but she never
asked.

ECF No. 10-21 at 108.

Wilson stated that approximately two months before he left
to go to Georgia, Tollette pawned his BMW and no longer wore
expensive clothes and jewelry.
at 7.

ECF Nos. 10-21 at 97-98; 10-25

Instead, “[h]e looked aged and haggard,” and started

driving, and occasionally living in, an old Chevrolet Malibu.
ECF Nos. 10-21 at 97-98; 10-25 at 7.

-45* App. 71 *

He lost touch with his

Case 4:14-cv-00110-CDL Document 43 Filed 08/17/16 Page 46 of 106

friends, started drinking heavily, lost weight, and slept
excessively.

ECF No. 10-21 at 100.

“seemed to have hit bottom.”

Wilson said Tollette

ECF No. 10-25 at 7.

Dr. Michael Hilton, a forensic psychiatrist, testified
that several factors present in Tollette’s early childhood
caused him to suffer from low self-esteem at an early age:

his

father abandoned him; his mother was neglectful; his stepfather
was abusive; and his older brothers left home.
at 119-20.

ECF No. 10-21

After his brother Darnell moved from the home when

Tollette was thirteen, Tollette’s grades fell and he quit
playing baseball.

ECF No. 10-21 at 120.

According to Hilton,

Tollette essentially raised himself, and Tollette joined a gang
when he was fourteen because of the safety it provided.

ECF

No. 10-21 at 120, 126.
Hilton testified that Tollette, who started abusing drugs
and alcohol in his early teens, has a biological predisposition
towards addictions.

ECF No. 10-21 at 126-27.

His father was

an alcoholic and two of his sisters and an uncle abused drugs.
ECF No. 10-21 at 126.
After spending approximately two hours with Tollette,
Hilton diagnosed him as having recurrent episodes of major
depression and chronic low self-esteem.
10-22 at 1.

ECF Nos. 10-21 at 127;

Hilton stated that Tollette suffered his first

episode of major depression at eighteen and was going through

-46* App. 72 *

Case 4:14-cv-00110-CDL Document 43 Filed 08/17/16 Page 47 of 106

a severe depressive episode at the time he robbed and killed
Hamilton.

ECF No. 10-21 at 129.

According to Hilton, several

factors led to Tollette’s 1995 major depressive episode:
Tollette’s girlfriend was arrested and he lost his living
arrangements in early 1995; his biological father died in
January 1995; he had no success in the music business; and he
was no longer having success dealing drugs because of his own
alcohol and drug abuse.

ECF No. 10-22 at 7-8.

Hilton opined

that Tollette’s depression impaired his impulse control and led
him to make a “desperate break” from his past nonviolent illegal
activities and commit armed robbery and murder. ECF No. 10-22
at 9-10.
Hilton agreed with the West Georgia Reports’ diagnosis of
personality disorder not otherwise specified, with antisocial
traits and schizotypal features.

ECF No. 10-22 at 19-20.

While he disagreed, Hilton acknowledged that the MMPI results
showed

Tollette engages in manipulative and self-serving

behavior, is hostile and aggressive, and fails to accept
responsibility.

ECF No. 10-22 at 29-30.

He also acknowledged

that while depression and substance abuse impact the ability
to make choices, Tollette made the decision to abuse alcohol
and drugs and commit various crimes.

ECF No. 10-22 at 33.

Grant testified that Tollette’s prison adaptability—or
ability to be a good inmate—was an issue they could have

-47* App. 73 *

Case 4:14-cv-00110-CDL Document 43 Filed 08/17/16 Page 48 of 106

ECF No. 10-22 at 46-48.

explored.19

He stated that he asked

trial counsel to provide him with Tollette’s prison records.
However, they never did.

ECF No. 10-22 at 46-48.

Grant agreed

that Tollette exhibited antisocial personality traits.
No. 10-22 at 55.

ECF

Grant testified that, although he found

Tollette to be only “mildly depressed” when he examined him in
1997, he did not dispute Hilton’s diagnosis of major depression
in the months leading up to the murder.

ECF No. 10-22 at 71.

Tollette also tendered several affidavits from family and
friends.

The affiants testified about

ECF No. 10-25 at 2-68.

gangs and drugs in the neighborhood and schools; the pressures
that many young men feel to join a gang; Tollette’s neglectful,
alcoholic father; Tollette’s poor home life; and Tollette’s
positive relationship with his young son. ECF No. 10-25 at 2-68.
g. Tollette’s arguments
Tollette

makes

several

arguments

related

to

trial

counsel’s alleged failure to investigate and present mitigation
evidence.

First, he claims that trial counsel’s mitigation

investigation was less than thorough because they waited until
the last minute to start the investigation and then proceeded
19

At the state habeas evidentiary hearing, Bailey-Smith testified that she
and Fahey did not review Tollette’s prison records and did not assess how
Tollette would adapt to prison or whether he would pose a threat in prison.
ECF No. 10-24 at 7-8. She did agree that prior performance in prison is
“one of the better predictors” of whether a defendant will pose a risk in
prison in the future. ECF No. 10-24 at 7. However, prison adaptability
was “not [her] area of expertise.” ECF No. 10-24 at 9. Instead, she and
Fahey normally “looked only at competency to stand trial and criminal
responsibility.” ECF No. 10-24 at 4-8.

-48* App. 74 *

Case 4:14-cv-00110-CDL Document 43 Filed 08/17/16 Page 49 of 106

in a “lackadaisical” manner.

ECF No. 41 at 10.

Tollette

argues that armed with evidence from a timely and competent
investigation, including expert assistance, trial counsel
could have made a credible argument that Tollette’s behavior
and choices were a product of his deprived upbringing; early
exposure to alcohol, drugs, and violence; family history of
addiction; and mental and emotional disturbances, i.e., major
depressive disorder and polysubstance abuse.
74-75, 77.

ECF No. 34 at

According to Tollette, they could have shown the

jury that in the weeks and months leading to Hamilton’s murder,
he “was suffering from the combined effects of a severe and
debilitating mental illness marked by desperation and impaired
cognitive functioning and a severe drug and alcohol addiction.”
ECF No. 34 at 33.

Second, Tollette claims that he was

prejudiced by trial counsel’s failure to use available evidence
to show he would not pose a risk of future danger in prison.
ECF No. 34 at 91-94.

Third, Tollette states trial counsel’s

“most shocking and inexplicable oversight” was their failure
to interview, Katrina Wilson, Tollette’s former girlfriend.
Through the lens of an ineffective assistance of appellate
counsel claim, the state habeas court addressed Tollette’s
various ineffective assistance of trial counsel claims.

The

court found that Tollette was not prejudiced by appellate
counsel’s failure to raise ineffectiveness claims against

-49* App. 75 *

Case 4:14-cv-00110-CDL Document 43 Filed 08/17/16 Page 50 of 106

previous counsel because the underlying ineffectiveness of
trial counsel claims had no merit.

ECF No. 12-24 at 20.

This

Court can grant relief only if it determines that no “fairminded
jurist” could agree with the state court.

Etherton, 136 S. Ct.

at 1152.
According

to

Tollette,

trial

counsel

started

their

investigation into his background too late and then did so only
because they wanted to “get[] . . . on the record” that they
conducted an investigation.20

ECF No. 34 at 20.

However, this

is not a case in which trial counsel waited until the eve of
trial to investigate their client’s background.

Compare Bobby

v. Van Hook, 558 U.S. 4, 9-10 (2009) (finding that trial
counsel’s mitigation investigation was not started too late
20

To support this allegation, Tollette selectively quotes a June 16, 1997
letter from Craft to Leonard. ECF Nos. 10-41 at 42-43; 34 at 20. He argues
that Craft wrote Tollette was just “‘cold blooded,’” but they needed to “‘get
. . . on the record’” that they checked into his background even though
doing so would not “‘bear any fruit.’” ECF No. 34 at 20 (quoting ECF No.
41 at 42). However, that is not exactly what Craft wrote. ECF No. 10-41
at 42-43. Craft requested that Leonard (1) tell him how she would gather
background information on Tollette to give to a psychiatrist, and (2) provide
an outline of how an independent psychiatric evaluation would proceed. ECF
No. 10-41 at 42-43. Craft told Leonard that he had already spoken to
Tollette “repeatedly,” as well as Tollette’s mother and grandmother. ECF
No. 10-41 at 43. By the time he wrote the June 16, 1997 letter, Craft had
already received the March 6, 1997 West Central Reports. ECF No. 12-2 at
8-16. Craft wrote that he had “begun to believe that some of what [he]
perceived is not actually an identifiable problem that a psychiatrist may
actually be able to do anything with. Actually, what it amounts to is that
we may be dealing with just plain cold-blooded here. But, . . . Wadkins
and I both agree that [funding for a mitigation specialist and psychiatrist]
is something that we have to pursue and then at least let the Judge deny
it at a minimum and if he approves it, get it on the record that we checked
into these things.” ECF No. 10-41 at 43. A reasonable interpretation is
Craft was informing Leonard that, based on what they had already discovered,
a psychiatrist might not be able to provide mitigating evidence, but they
needed to pursue funding for a background investigation and a psychiatrist
anyway.

-50* App. 76 *

Case 4:14-cv-00110-CDL Document 43 Filed 08/17/16 Page 51 of 106

when counsel interviewed lay witnesses “early and often,”
consulted an expert more than one month before trial, and looked
into hiring a mitigation specialist five weeks before trial),
with Williams 529 U.S. at 395 (explaining that trial counsel
waited too late to prepare for the sentencing phase when they
did not begin to prepare for that phase until a week before
trial).

Trial counsel spoke with Tollette about his childhood

and family life in California on numerous occassions.
9-2 at 56; 10-23 at 47.

ECF No.

Despite Tollette’s insistence that they

not contact his family and no mitigation evidence be presented,
trial counsel spoke, on numerous occasions, to Tollette’s
mother and his sisters, and they obtained school, prison, and
medical records.

ECF Nos. 9-2 at 47, 51, 56; 10-23 at 57, 67-69.

Abernathy had three months and $5,000.00 to investigate his
background.

She

spoke

with

mother,

sisters,

maternal aunt, grandparents, and a childhood friend.

ECF Nos.

12-4 at 78, 85; 12-5 at 36-47.

Tollette’s

Trial counsel also reviewed the

West Georgia Reports and hired Grant to conduct neurological
testing to find potential mitigating evidence.

ECF No. 9-2 at

44-45.
From this investigation, trial counsel learned most, if
not all, of the information that was later presented at the state
habeas evidentiary hearing.

They knew Tollette’s biological

father deserted him; he did not get along with his step-father,

-51* App. 77 *

Case 4:14-cv-00110-CDL Document 43 Filed 08/17/16 Page 52 of 106

who whipped or, in his words, “beat him severely”; he felt
abandoned when his older brother married and left home; his
mother was neglectful and did not intervene to protect him from
his stepfather; he started abusing alcohol and drugs when he
was a child; he left home at a young age; there were gangs in
Gardena; Tollette was a gang member; and Tollette had a good
relationship with his son. ECF Nos. 9-2 at 71; 12-2 at 13-14;
12-4 at 69-73; 12-5 at 39, 41-42, 45.

They also knew Tollette

was “depressed”; felt “hopeless”; suffered from Personality
Disorder NOS with Antisocial and Schizotypal Feature; had
memory problems that could be related to drug use; was moody,
irritable, self-centered; and was
control over his emotions.

aggressive

with

little

ECF No. 12-2 at 2-4, 10-11.

Trial counsel discussed how to use what they had learned
during the mitigation investigation.

They had “a lot of

discussion[s]” about whether they could turn Abernathy’s
findings into the mitigation strategy that “Tollette was the
person he is as a result of the problems that he had in childhood,
such as the abandonment he felt, the guilt, and . . .
kinds of things.”

ECF No. 9-2 at 74.

those

Ultimately, they

determined nothing they found would persuade the jury to have
sympathy for Tollette.

They thought that trying to present

evidence of a deprived childhood “would probably back fire in
[their] face” because “[m]any of the jurors probably would have

-52* App. 78 *

Case 4:14-cv-00110-CDL Document 43 Filed 08/17/16 Page 53 of 106

had a much worse childhood than he did.”

ECF No. 9-2 at 76

When questioned why they did not present evidence that
Tollette was physically abused by his stepfather, 21 Craft
explained:
The parental discussion about what’s a beating
and what’s a whipping is a fine line. And based on
his history, I think the State would argue that maybe
he needed one more along the way to keep him out of
trouble. I don’t, you know, absent a trip to the
hospital, DFACS intervening, those type situations
where you can demonstrate an injury, are what an
average person in a 40 to 60 year old age group jury
would consider too much. I don’t believe that that
would have been considered mitigating.
ECF No. 10-23 at 71.
Trial counsel also discussed whether they should present
evidence of Tollette’s gang membership.
71-73.

ECF No. 10-23 at

Craft stated they viewed gang evidence as a “two-edged

sword”:
You know, you present that as he had no choice, he
was forced to join a gang, how do you show that, and
as a result of that, that led him, . . ., “into a life
of crime at an early age,” or did he decide he wanted
to be big and bad and prove himself by being part of
the gang, and that was a choice, to enter this
lifestyle? Which, then again, it comes back to the
State’s position, how are they going to counter that
argument? Well, that’s right, he joined a gang when
he was a teenager and he has been a gangster ever
since, or a thug . . . . Those types of things are
a two-edged sword and you have to be very careful how
21

Tollette’s reports of physical abuse were inconsistent. He initially
reported to Abernathy that he had never been physically abused and received
only light spankings as punishment. ECF No. 10-27 at 42. He also reported
that he left home due to a conflict with his parents over a car, not because
of his stepfather’s abuse. ECF No. 12-4 at 16. No other family member
reported that Tollette was physically abused.

-53* App. 79 *

Case 4:14-cv-00110-CDL Document 43 Filed 08/17/16 Page 54 of 106

you put that in front of a jury.
ECF No. 10-23 at 72-73
While trial counsel knew evidence of Tollette’s gang
membership would be revealed to the jury when they heard his
statement to the police, they wanted to “marginalize” such
evidence “as much as possible by restricting it to one phase
as opposed to two and not bringing up specific items for them
to attack.”

ECF No. 10-23 at 89.

Therefore, they made the

strategic decision not to present gang evidence.
at 72.

ECF No. 10-23

Strickland, 466 U.S. at 690 (finding that “strategic

choices made after thorough investigation of law and facts
relevant to plausible options are virtually unchallengable”).
Trial counsel viewed evidence of Tollette’s drug and
alcohol

abuse

similarly.

ECF

No.

10-23

at

73.

Craft

explained:
[T]here were some issues about some of the people in
his past that he was involved with as it related to
the drug use, that also involved selling drugs.
Again, we could argue that he grew up young and made
the mistake of getting with the wrong crowd. And all
of that may be true and the drug use could contribute,
but at the same time if the State comes back and says,
yeah, and then he decided he wanted to make a living
selling drugs, and that’s all he’s done, is a life
of crime, he’s supported himself this way, tie that
in with the hustling statement that the detective
says he made, all those things, again, if you present
something that has minimal or no mitigating factor
and you open the door for more aggravating factors,
. . . you’re not helping your argument at all.
ECF

No.

10-23

at

73.

As

with

the

-54* App. 80 *

gang

evidence,

they

Case 4:14-cv-00110-CDL Document 43 Filed 08/17/16 Page 55 of 106

strategically decided not to present the drug and alcohol abuse
evidence.

ECF No. 10-23 at 73; Pace v. McNeil, 556 F.3d 1211,

1224 (11th Cir. 2009) (holding that presenting evidence of drug
use or drug abuse “may alienate the jury and offer little reason
to lessen the sentence”); Tompkins v. Moore, 193 F.3d 1327, 1338
(11th Cir. 1999) (holding that “a showing of alcohol and drug
abuse . . . can harm a capital defendant as easily as it can
help him at sentencing”).
Looking at the record as a whole, this Court agrees with
the state habeas court’s determination that “trial counsel
conducted an adequate mitigation investigation, and they made
a

reasonable

investigation.”

choice

of

trial

strategy

ECF No. 12-24 at 34.

based

on

the

It certainly cannot find

the state habeas court’s decision was contrary to Strickland;
involved an unreasonable application of Strickland; or was
based on any unreasonable factual determinations.
Next, Tollette complains that trial counsel should have
had Grant review his prison records so Grant could testify that
Tollette would be a nonthreatening, productive inmate in
prison.

ECF No. at 34 at 135-39.

On several occasions, the

State sought to have Tollette examined for future dangerousness
or adaptability to prison and have Bailey-Smith testify to such
during sentencing.

ECF Nos. 8-4 at 108; 8-21 at 2-5.

When

questioned whether they planned on presenting a mental health

-55* App. 81 *

Case 4:14-cv-00110-CDL Document 43 Filed 08/17/16 Page 56 of 106

expert, trial counsel stated they would not because they did
not want to open the door for the State to present expert
testimony.

ECF No. 8-31 at 10.

The trial court found the State

could present evidence of future dangerousness only if trial
counsel presented expert testimony.

ECF No. 8-31 at 10.

At the motion for new trial hearing, trial counsel
explained they feared the presentation of evidence regarding
Tollette’s adaptability to prison would open the door to the
State’s presentation of the same or of broader mental health
evidence.

ECF No. 9-2 at 65.

Trial counsel “successfully kept

out” the West Central Reports, which they did not view as
mitigating at all, “by not putting Dr. Grant up.”
at 67-68.

ECF No. 10-23

The West Central Reports showed Tollette had

“Personality Disorder NOS with Antisocial and Schizotypal
Features.”

ECF No. 8-7 at 46.

Trial counsel stated, “You

don’t want to argue to a jury that somebody that you want to
be locked up as not being a future threat suffers from . . .
antisocial behavior.

I don’t think that the jury would concur

in your opinion . . . .”

ECF No. 10-23 at 67-68.

Trial counsel

also stated they feared some answers Grant might have to provide
on cross examination would be damaging.

ECF No. 10-23 at 67.

Given this record, the state habeas court reasonably
determined “that the information that was available to counsel
during trial ‘would not have led constitutionally effective

-56* App. 82 *

Case 4:14-cv-00110-CDL Document 43 Filed 08/17/16 Page 57 of 106

counsel to pursue [a different trial strategy] and would not
be reasonably probable to have resulted in’ the jury sentencing
Tollette to life without parole.”

ECF No. 12-24 at 42

(footnotes omitted).
Finally, Tollette argues that trial counsel’s

“most

shocking and inexplicable oversight” was their failure to
interview his former girlfriend, Wilson, and have her testify
at sentencing.

ECF No. 34 at 33.

According to Tollette, this

particular oversight “was the most damaging to” his case because
Wilson “could have provided valuable and compelling insight
into [his] character and the struggles he had faced throughout
his life, and most importantly, in the weeks and months prior
to the crime.”

ECF No. 34 at 13-14.

Though he now claims “Wilson held the key to an entire case
in mitigation,” there is no indication that Tollette ever
mentioned her to anyone.

ECF No. 34 at 13.

Abernathy’s notes

of her interviews with Tollette show he mentioned two previous
girlfriends:
72-75.

Evonne Lopez and Edy Malendez.

Tollette told her that Lopez, the mother of his son,

went to prison in 1993.

ECF No. 10-26 at 72.

Tollette met Malendez and moved in with her.
72, 74.

In November 1993,
ECF No. 10-26 at

By May 1995, they were “on the run” from federal

authorities and Malendez turned herself in.
75.

ECF No. 10-26 at

ECF No. 10-26 at

At the time of the interview, August 8, 1997, Malendez was

-57* App. 83 *

Case 4:14-cv-00110-CDL Document 43 Filed 08/17/16 Page 58 of 106

in prison in Dublin, California for selling drugs.
10-26 at 72, 75.

ECF No.

He also told Abernathy that one of these women

“burn[ed] candles” and “put a curse on him.”

ECF No. 10-26 at

72, 74.
Trial counsel’s notes of their conversation with Grant
show Tollette told Grant he had a relationship with only one
woman.

ECF No. 11-21 at 7.

lighter” is shown.

No name is mentioned, but “candle

ECF No. 11-21 at 7.

Grant’s notes show

Tollette reported he moved in with his girlfriend when he got
out of jail, she “started burning candles” and the “devil used
her to get to him.”

ECF No. 11-22 at 45-46.

Compared with

Abernathy’s notes, it appears Tollette was referring to either
Lopez or Malendez.
Tollette contends he told Bailey-Smith and Fahey about
Wilson and the West Central Reports should have put trial
counsel on notice of her existence.

ECF No. 34 at 12.

Wilson’s

name, however, appears nowhere in the West Central Reports.
Instead,

they

show

that

Tollette

reported

he

had

been

“excessively preoccupied with the belief that his girlfriend
was cheating on him with his best friend,” and he thought “an
ex-girlfriend of his may have been a witch [who] placed a curse
on him.”

ECF No. 12-2 at 10.

Lopez and Malendez are the only

names mentioned in the notes Bailey-Smith and Fahey took during
the psychiatric evaluation.

ECF No. 10-32 at 62.

-58* App. 84 *

The notes

Case 4:14-cv-00110-CDL Document 43 Filed 08/17/16 Page 59 of 106

seem to suggest that Tollette accused Malendez of “cast[ing]
demons on [him].”

ECF No. 10-32 at 64.

While Tollette apparently never mentioned Wilson, her name
and relationship to Tollette were shown in a Los Angeles Police
Department

Investigation

Report

“LA

Report”

regarding

a

November 20, 1995 armed robbery and aggravated assault of an
armored truck driver in California.

The crimes were extremely

similar to the Columbus armed robbery and murder, and Tollette
was initially considered a suspect.

ECF No. 11-34 at 15.

Tollette argues trial counsel’s failure to interview Wilson,
a witness named therein, amounts to ineffective performance
under Rompilla v. Beard, 545 U.S. 374 (2005).
13, 18-19, 30, 35.

ECF No. 34 at

Though Tollette relies heavily on Rompilla

and makes extensive arguments, Respondent fails to address
Rompilla’s application to Tollette’s case.
In Rompilla, trial counsel’s sentencing strategy stressed
residual doubt.

Id. at 386.

They were on notice that the

“Commonwealth intended to seek the death penalty by proving
Rompilla had a significant history of felony convictions
indicating the use or threat of violence.”

Id. at 383.

They

knew the prosecutor intended to establish a prior conviction
for a similar offense of rape and assault by reading a transcript
of the rape victim’s testimony from the earlier trial.
383-84, 389.

Id. at

Yet, trial counsel failed to examine the readily

-59* App. 85 *

Case 4:14-cv-00110-CDL Document 43 Filed 08/17/16 Page 60 of 106

available court file on Rompilla’s prior conviction. Id.
“Without making efforts to learn the details and rebut the
relevance of the earlier crime, a convincing argument for
residual doubt was certainly beyond any hope.”

Id. at 386.

The Supreme Court held
that even when a capital defendant’s family members
and the defendant himself have suggested that no
mitigating evidence is available, his lawyer is bound
to make reasonable efforts to obtain and review
material that counsel knows the prosecution will
probably rely on as evidence in aggravation at the
sentencing phase of trial.
Id. at 377.
In Tollette’s case, he argues the State intended to
introduce the LA Report against him in the sentencing phase of
his trial.

Thus, under Rompilla, trial counsel had a duty to

interview Wilson, who was named in the report.
35.

ECF No. 34 at

The record shows a Notice of Intent to Introduce Evidence

of Similar Transactions in the case of Xavier Womack, Tollette’s
codefendant.
Womack’s

ECF No. 11-34 at 4-6.

counsel,

Michael

Tollette’s trial counsel.22

Garner

and

This was served on
Rory

ECF No. 11-34 at 6.

Selwynn,

not

In his reply

brief, Tollette acknowledges that the State provided notice of
the evidence it intended to introduce in aggravation against
Tollette and the California robbery was not included.
22

ECF No.

Trial counsel did have a copy of the LA Report and did know that Tollette
was, at some point, considered a suspect in that case. It appears the State
provided trial counsel with a copy of the LA Report along with various other
discovery on December 23, 1996. ECF No. 11-19 at 28-30.

-60* App. 86 *

Case 4:14-cv-00110-CDL Document 43 Filed 08/17/16 Page 61 of 106

41 at 20 n.40.

While Rompilla held that trial counsel “is bound

to make reasonable efforts to obtain and review material that
counsel knows the prosecution will probably rely on as evidence
in aggravation at the sentencing phase of trial,” the Court
cannot read Rompilla to require trial counsel to not only review
a

report

containing

information

that

could

be

used

in

aggravation in a codefendant’s case, but to also interview
witnesses named in that report.
Moreover,

even

if

Tollette’s

counsel

should

have

interviewed Wilson, the state court reasonably determined that
their failure to do so did not prejudice Tollette.

Tollette

stresses that Wilson could have told the jury about the
struggles he faced growing up in a gang-infested neighborhood
and how his mental state deteriorated in the months leading up
to Hamilton’s murder.

ECF No. 34 at 38-44.

As the state habeas

court found, Tollette again “relies on his presumption that
jurors would have construed the evidence as showing how his
‘behavior was a product of his history and circumstances which
he was unable to overcome.’”
omitted).

ECF No. 12-24 at 36 (footnote

However, much of her testimony “could have just as

likely been viewed unfavorably.”

Id.

For example, Wilson was questioned in connection with the
November

20,

1995

aggravated assault.

California

armored

truck

ECF No. 11-34 at 15.

-61* App. 87 *

robbery

and

At Tollette’s

Case 4:14-cv-00110-CDL Document 43 Filed 08/17/16 Page 62 of 106

sentencing hearing, the jurors heard nothing of these previous
crimes.

Tollette

acknowledges

that

Wilson

might

“have

testified that she had been approached by FBI agents in order
to discuss Mr. Tollette’s possible involvement in a California
robbery.”

ECF No. 41 at 21.

Thus the jurors would have learned

that Tollette had been a suspect in an armored truck robbery
and aggravated assault in California that bore a striking
resemblance to the Columbus armored truck robbery and murder,
to which Tollette had just pled guilty.

ECF No. 11-34 at 13.

Also, Wilson testified that Tollette was in the Shotgun Crips;
hung around with gang members in the house next door to her
grandparents’ home; and he never worked but always had expensive
cars, nice clothes, and flashy jewelry.
105-09.

ECF No. 10-21 at

Such testimony would not be viewed favorably.

In conclusion, the state habeas court, through the lens
of an ineffective assistance of appellate counsel claim, found
trial counsel adequately investigated Tollette’s background
and made a reasonable choice of trial strategy based on the
investigation.

Therefore, Tollette was not prejudiced by

appellate counsel’s failure to raise the issue that motion for
new

trial

counsel

failed

to

effectively

ineffective assistance of trial counsel claim.

litigate

the

Because the

state habeas court’s decision did not involve any unreasonable
applications of law or fact and was not contrary to Supreme Court

-62* App. 88 *

Case 4:14-cv-00110-CDL Document 43 Filed 08/17/16 Page 63 of 106

precedent, this Court must deny relief.
3. Claim that trial counsel failed to investigate and
subject the State’s presentation of evidence to
meaningful adversarial testing
Tollette argues that trial counsel ineffectively rebutted
the State’s characterization of the murder.
94-105.

ECF No. 34 at

According to Tollette, the State presented testimony

and argument that Tollette murdered Hamilton “execution style”
with four quick gunshots, the first to the head and the remaining
three in rapid succession after Hamilton was incapacitated. ECF
No. 34 at 95, 99.

He argues that trial counsel were ineffective

for failing to evaluate the evidence and elicit testimony that
Tollette first shot Hamilton in the legs instead of running up,
shooting him in the head and then shooting him three more times
after he was incapacitated.

ECF No. 34 at 94-99.

No one disputes that Tollette shot Hamilton four times.
In its opening statement, the State told the jury that “Hamilton
got shot in the head right about in the temple . . . and went
down like a ton of bricks.

Either before or after he was shot

in the head, . . . he was shot in each leg, and he was also shot
in the back.”
Tollette

ECF No. 8-31 at 65 (emphasis added).
argues

that

“[t]he

[S]tate

presented

the

testimony of three witnesses who described a fast, point-blank,
execution-style shooting while the victim’s back was turned.”
ECF No. 34 at 95.

That is a bit of a stretch.

-63* App. 89 *

Cornell

Case 4:14-cv-00110-CDL Document 43 Filed 08/17/16 Page 64 of 106

Christianson testified that Tollette shot Hamilton in the head,
Hamilton fell, and Tollette continued to shoot.
at 1.

ECF No. 8-32

He said nothing about Hamilton being shot from behind.

Carl Crane testified that he heard four shots fired in rapid
succession and Hamilton fell.

ECF No. 8-31 at 136.

Again,

Crane said nothing about Hamilton’s back being turned at the
time or which shot caused Hamilton to fall.

Sherry Ziegler

testified that she saw Tollette run up to the back of the armored
truck and quickly shoot “four or five rounds.”
at 18.

ECF No. 8-32

She stated that “[t]he best” she could “recall,” is that

Tollette shot Hamilton in the back of the head and kept shooting
as Hamilton fell but she “wasn’t close enough to say for sure”
that Tollette shot Hamilton in the head first.

ECF No. 8-32

at 18-19, 23.
The medical examiner told the jury that in 99 out of 100
cases involving multiple gunshot wounds, he could not determine
the order of the wounds.

ECF No. 8-37 at 65.

The wounds to

Hamilton’s legs could have been inflicted by someone standing
over and firing down at him.

ECF No. 8-38 at 5-6.

The “most

obvious scenario” for the wound to the Hamilton’s back is that
Hamilton was ducking down or slumped down when he received this
shot.

ECF No. 8-38 at 7.

However, the medical examiner stated

he “wasn’t at the scene to view what happened, [he was] just
speculating

or

giving

an

opinion

-64* App. 90 *

as

to

a

number

of

Case 4:14-cv-00110-CDL Document 43 Filed 08/17/16 Page 65 of 106

ECF No. 8-38 at 8.

possibilities.”

As for the fatal shot to

his head, Tollette’s gun was no more than six inches from
Hamilton’s head and this injury would have been immediately
debilitating, causing Hamilton to hit the ground.

ECF No. 8-38

at 10-11.
In his audiotaped statement to the police, which was played
for the jury, Tollette said he intended to rob the armored truck
but did not intend to shoot Hamilton.
66.
him.

ECF No. 8-32 at 47, 62,

Hamilton was turned the other way as Tollette approached
When he turned around, Tollette started shooting.

No. 8-32 at 48.

ECF

Tollette stated, “[A]s I started shooting him,

I was getting closer to him, . . . he did reach for the gun.
And like I say, he didn’t fall.”

ECF No. 8-32 at 63.

He also

said that he tried to shoot Hamilton “[i]n the chest [or] [u]pper
chest where his underwear was” because he thought Hamilton might
be wearing a vest.

ECF No. 8-32 at 62.

During its closing, the State argued that “Hamilton was
shot in the head, no defensive wounds, shot on the way down.
The first wound was immediately debilitating, that is it knocked
him out, killed him, probably.”

ECF No. 8-38 at 97.

Later,

the State said that Tollette “ran up and shot [Hamilton], and
shot him on the way down.
testimony.

And you’ve heard the medical

Shot on the ground or shot on the way down.”

No. 8-38 at 102.

-65* App. 91 *

ECF

Case 4:14-cv-00110-CDL Document 43 Filed 08/17/16 Page 66 of 106

During state habeas proceedings, crime scene analyst Ralph
Tressel testified that Tollette’s first two shots were to
Hamilton’s legs, the third show was to his back, and the last
shot was to Hamilton’s head.

ECF No. 10-23 at 8-14.

However,

if the third and fourth shots were fired in rapid succession
before Hamilton hit the ground, the third shot may have been
to his head and the last one to his back as he was falling.
No. 10-23 at 15.

ECF

Tressel stated that the physical evidence did

not show that Tollette approached Hamilton “and shot him
directly in the head from behind.”

ECF No. 10-23 at 19.

He

opined that Tollette tried to disable Hamilton by shooting him
twice in the legs and then “got close enough to Mr. Hamilton,
they started tussling over the gun and tussling over the money
bag and the gun was discharged twice more.”23

ECF No. 10-23 at

21.
Smith also testified again at the state habeas evidentiary
hearing.

He stated that the bullets entered the front, and

exited the back, of Hamilton’s legs.

In order for Hamilton to

have received these wounds after he fell to the ground, he would
23

Tressel based this assertion on one of Tollette’s statement to the police
and on J. L. Grantham’s statement. ECF No. 10-23 at 19-20, 24. In his
audiotaped statement, Tollette did not say he struggled with Hamilton.
However, in one police report Tollette is reported to have said he struggled
with Hamilton. ECF No. 11-34 at 21. In a January 10, 1996 statement,
Grantham said he was travelling on First Avenue when movement near the Brinks
truck caused him to look and he “saw two people at the rear of the truck
[and] they looked like they were struggling or together.” ECF Nos. 10-23
at 19-20, 24; 11-34 at 61-62. There is no indication trial counsel ever
interviewed Grantham. Moreover, Grantham did not testify at the sentencing
hearing or at the state habeas evidentiary hearing.

-66* App. 92 *

Case 4:14-cv-00110-CDL Document 43 Filed 08/17/16 Page 67 of 106

have had to be facing upwards.

There

ECF No. 10-24 at 17-28.

was no evidence indicating Hamilton was ever on the ground
facing upwards.

ECF No. 10-24 at 18.

Smith stated he did not

“know the order in which the gunshot were sustained, but there
are a number of possibilities.”

ECF No. 10-24 at 19.

The most

likely scenario is that Hamilton sustained the gunshot wounds
while he was standing.
The

state

ECF No. 10-24 at 19.

habeas

court

determined

that

Tollette

“effectively appended” his defaulted claim that trial counsel
were ineffective for failing to investigate and rebut the
State’s

characterization

of

the

murder

“to

his

viable

ineffectiveness claim against direct appeal counsel”:
Tollette argues that had trial counsel
investigated the circumstances of the crime, counsel
could have persuasively challenged the State’s
characterization of the crime as an execution-style
shooting.
Tollette contends that trial counsel
could have used eyewitnesses to the shooting and
forensic experts to show that Tollette did not shoot
Hamilton execution style, but that he first shot
Hamilton in each leg, then to the back, and finally
and fatally to the head. In Hall v. Terrell, 285 Ga.
448, 452-454 IIC (2009), the Supreme Court held that
even assuming that trial counsel should have
presented forensic evidence disputing the exact
number of blows inflicted and the timing of the fatal
blow, the habeas petitioner failed to show “any
reasonable probability that the jury would have
failed to find beyond a reasonable doubt the
statutory aggravating circumstance.” As in Hall v.
Terrell, Tollette failed to meet the prejudice prong
of the Strickland test because the sequencing of
gunshot wounds would not have significantly swayed
the jury against finding a statutory aggravating
circumstance.

-67* App. 93 *

Case 4:14-cv-00110-CDL Document 43 Filed 08/17/16 Page 68 of 106

ECF No. 12-24 at 41 (footnotes omitted)
When denying Tollette’s CPC Application, the Georgia
Supreme Court found that the state habeas court applied the
incorrect prejudice standard:
[T]he standard applied by the habeas court is not the
Strickland test for prejudice in this context,
because it fails to account for the jury’s
discretionary decision regarding sentencing once it
has found at least one statutory aggravating
circumstance. . . .
Nevertheless, after independently applying the
correct legal principle to the trial and habeas
record, we conclude as a matter of law that, “[i]n
exercising its discretion once [the Petitioner]
became eligible for a death sentence,” the jury would
not have been significantly swayed by the testimony
that the Petitioner presented on this issue in the
habeas proceedings. We further conclude that trial
counsel’s not utilizing testimony like that
presented by the Petitioner’s new expert to challenge
the State’s characterization of the circumstances of
the murder did not result in prejudice sufficient to
support the success of the Petitioner’s underlying
ineffective assistance of trial counsel claim and
thus that the Petitioner cannot show a reasonable
probability that, had direct appeal counsel raised
the ineffective assistance of motion for new trial
counsel
in
litigating
trial
counsel’s
ineffectiveness with respect to this issue on direct
appeal, the Petitioner would have been granted a new
trial on this basis.
Therefore, the Petitioner
cannot satisfy the cause and prejudice test to
overcome the procedural bar to that claim, and it
Accordingly, we
remains procedurally defaulted.
conclude that this issue ultimately is without
arguable merit.
ECF No. 12-27 at 1-2 (citations omitted).
The only question for this Court is whether “‘some

-68* App. 94 *

Case 4:14-cv-00110-CDL Document 43 Filed 08/17/16 Page 69 of 106

fairminded jurists could agree with the’” Georgia Supreme
Court’s decision.
F.3d at 1346).

Holsey, 694 F.3d at 1257 (quoting Hill, 662

They could.

A fairminded jurist could conclude

that there was no reasonable probability of a different sentence
even if the jury thought Tollette shot Hamilton first in both
of his legs to disable him and then placed the gun six inches
from Hamilton’s head and pulled the trigger.

Because the

Georgia Supreme Court’s denial of this claim is not contrary
to, or an unreasonable application of Strickland, or based upon
any unreasonable determinations of fact, this Court must deny
relief.
B. The procedure by which Tollette was forced to litigate
ineffective assistance of counsel, including the
removal of trial counsel over Tollette’s objections,
violated his rights under the Fifth, Sixth, and
Fourteenth Amendments.
Wadkins was apparently confused about whether trial
counsel would handle the motion for new trial.
63-64.

ECF No. 8-5 at

This confusion resulted in his failure to file a timely

motion for new trial.

ECF No. 8-5 at 63-64.

The trial court

granted Wadkins’ request to file an out-of-time motion for new
trial and appointed Grindle to handle the motion for new trial
and appeal.

ECF No. 8-5 at 66, 72-75.

Grindle told the trial

court, “Tollette, at least as far as he is concerned[,] would
have desired Mr. Wadkins to stay on the case throughout the first
level of the appeal.”

ECF No. 9-1 at 3.

-69* App. 95 *

The trial court found

Case 4:14-cv-00110-CDL Document 43 Filed 08/17/16 Page 70 of 106

it needed to appoint “new counsel to raise this issue of
ineffective assistance of counsel.

So it is all dealt with here

and we don’t spend five years in between dealing with that
issue.”

ECF No. 9-1 at 8.

The trial court’s decision to appoint new counsel before
the motion for new trial was not raised on direct appeal.

State

habeas counsel argued that (1) the trial court abused its
discretion

when

it

dismissed

trial

counsel

from

their

representation against Tollette’s wishes prior to the motion
for new trial, ECF No. 12-24 at 12; (2) the procedure by which
he was forced to litigate ineffective assistance of trial
counsel at the motion for new trial violated his constitutional
rights, ECF No. 12-24 at 14; and (3) motion for new trial and
direct appeal counsel failed to adequately object to or litigate
the improper removal of trial counsel, ECF No. 12-24 at 14.
state

habeas

court

found

these

claims

were

procedurally

defaulted and/or “meritless”:
The first allegation of ineffectiveness—that
direct appeal counsel should have protested the trial
court’s denial of Tollette’s right to counsel of
choice—is meritless.
First, Tollette could have
raised this issue on direct appeal, and he has not
shown sufficient cause to explain why it was not
raised.
Direct appeal counsel cannot be held
ineffective for failing to raise a claim that was
procedurally defaulted. Second, Davis v. State, 262
Ga. 221 1991, cited by Tollette in support of his
contention that he had a right to retain counsel of
choice, actually undermines his claim. In Davis,
the Georgia Supreme Court explicitly stated that

-70* App. 96 *

The

Case 4:14-cv-00110-CDL Document 43 Filed 08/17/16 Page 71 of 106

“[a]n indigent defendant has no right to compel the
trial court to appoint an attorney of his own
choosing.” The right to counsel-of-choice depends
on whether objective considerations favoring the
appointment of the preferred counsel are outweighed
by countervailing considerations of comparable
weight. . . .
Tollette also cited White v. Kelso, 261 Ga. 32
1991
for
the
proposition
that
litigating
effectiveness in habeas is the accepted practice in
Georgia. While the Court in White noted that “claims
of ineffective assistance of counsel are often
properly raised for the first time in a habeas
petition,” it ultimately ruled that the petitioner’s
ineffectiveness claim was procedurally barred
because appellate counsel, who was not the trial
counsel, failed to assert it on direct appeal. “The
rule is consistent:
New counsel must raise the
ineffectiveness of previous counsel at the first
possible stage of post-conviction review.”
Here, Tollette’s preference that trial counsel
continue to represent him on the motion for new trial,
with the reason for such preference being to delay
raising his ineffectiveness claim until habeas
proceedings, does not outweigh the countervailing
consideration to litigate the ineffectiveness claim
at the earliest practicable opportunity. Tollette
has provided no persuasive legal support for his
contention that the trial court abused its discretion
in appointing substitute counsel for the motion for
new trial in order to litigate the ineffectiveness
claim. Having failed to show an abuse of discretion
by trial court, Tollette has failed to show the cause
and prejudice necessary to show that his direct
appeal counsel were ineffective for omitting this
argument from appeal.
ECF No. 12-24 at 18-19 (footnotes omitted).
This decision is not contrary to Supreme Court precedent,
does not involve an unreasonable application of Supreme Court
precedent, and is not based on any unreasonable determinations

-71* App. 97 *

Case 4:14-cv-00110-CDL Document 43 Filed 08/17/16 Page 72 of 106

of fact.

In fact, Tollette has not pointed to, and the Court

is not aware of, a Supreme Court case holding that a trial court
does not have discretion to replace appointed counsel.

To the

contrary, the Supreme Court has stated that the Sixth Amendment
guarantees defendants in criminal cases the right to
adequate representation, but those who do not have
the means to hire their own lawyers have no cognizable
complaint as long as they are adequately represented
by attorneys appointed by the courts.
“[A]
defendant may not insist on representation by an
attorney he cannot afford.”
Caplin & Drysdale, Chartered v. United States, 491 U.S. 617,
624 (1989) (quoting Wheat v. United States, 486 U.S. 153, 159
(1988)).
Trial courts have “wide latitude” to “balance[e] the right
to counsel of choice against the needs of fairness, and against
the demands of its calendar.”

United States v. Gonzalez-Lopez,

548 U.S. 140, 152 (2006).

In this case, the trial court

exercised its discretion to appoint new counsel so trial counsel
ineffectiveness claims could be handled during the motion for
new trial.
Public

ECF No. 10-23 at 77-78.

Defender

indicate

that

Notes from the MultiCounty

trial

court

was

“somewhat

sympathetic” regarding the ineffective assistance issues and
believed that these claims “need[ed] to be raised.”
10-41 at 79.

ECF No.

Trial counsel stated that the court preferred to

bring in new appellate counsel so ineffective assistance “could
be an issue at the hearing and then the appropriate testimony

-72* App. 98 *

Case 4:14-cv-00110-CDL Document 43 Filed 08/17/16 Page 73 of 106

for evidentiary purposes could be made there, to document the
record.”

ECF No. 10-23 at 78.

The state habeas court’s determination that appellate
counsel were not ineffective for failing to raise this issue
was also reasonable and supported by the record.

Appellate

counsel could not be ineffective for failing to raise a claim
that motion for new trial counsel had abandoned or waived.
Also, the state habeas court reasonably decided that the
underlying claim was “meritless.”

Appellate counsel are not

deficient for failing to raise claims that have no merit.
Freeman v. Att’y Gen., 536 F.3d 1225, 1233 (11th Cir. 2008).
C. Tollette was denied due process, a fair trial, and
reliable sentencing when the prosecutor made improper
remarks arguments in his closing argument
Tollette argues that the prosecutor improperly invoked
religion as the basis for the jury to impose a death sentence
and misinformed the jury about Tollette’s parole eligibility.
ECF No. 34 at 159.

The Georgia Supreme Court found the

prosecutor’s remarks were improper, but they did not amount to
reversible

error.

Tollette

alleges

the

Georgia

Supreme

Court’s decisions on these issues are not entitled to deference
because the court failed to adjudicate the federal claims on
the merits, made unreasonable factual determinations, and/or
unreasonably applied clearly established federal law.
34 at 160-61.

-73* App. 99 *

ECF No.

Case 4:14-cv-00110-CDL Document 43 Filed 08/17/16 Page 74 of 106

1. The Georgia Supreme Court adjudicated the federal
claims.
Tollette argues that the Georgia Supreme Court failed to
adjudicate
regarding

his
the

due

process

prosecutor’s

and

Eighth

improper

Amendment

closing.

claims

Instead,

according to Tollette, the court addressed only his state law
claims.

He alleges the court considered only whether the

religious argument led to the death penalty being “‘imposed
under the influence of passion, prejudice, or any other
arbitrary factor.’”

Tollette, 280 Ga. at 103-04, 621 S.E.2d

at 747 (quoting O.C.G.A. § 17-10-35(c)(1)).

Regarding parole,

he states the Georgia Supreme Court referenced only the state
life without parole statute and Georgia caselaw.
621 S.E.2d at 748.

Id. at 105,

The Georgia Supreme Court’s failure to

adjudicate his federal claims, Tollette argues, entitles him
to de novo review of these claims in this Court.

While

Respondent fails to address Tollette’s specific arguments, he
does state that the Georgia Supreme Court’s opinion is due
deference under § 2254(d) because the court adjudicated all of
Tollette’s federal claims on the merits.

ECF No. 37 at 200,

211.
Section II of Tollette’s appellate brief was titled, “The
trial court committed reversible error by allowing the State
to argue facts not in evidence and impermissible prejudicial

-74* App. 100 *

Case 4:14-cv-00110-CDL Document 43 Filed 08/17/16 Page 75 of 106

matters.”

ECF No. 8-16 at 22.

In the opening paragraph, he

argued that he
was denied his rights to a fair and impartial jury,
due process, equal protection, a fair trial and
reliable determination of punishment, pursuant to
the Fifth, Sixth, Eighth and Fourteenth Amendments
to the United States Constitution . . . when the State
made at least five improper[,] inflammatory[,] and
prejudicial comments to the jury during its closing
argument.
ECF No. 9-16 at 22.

According to Tollette, one of the five

improper prosecutorial comments was:

“And I submit to you that

these facts, this crime, the proper . . . the just punishment
under a lot of religions would be death for what he’s done.”
ECF No. 9-16 at 26.

Another was:

“I submit to you ladies and

gentlemen, prison is too good for this defendant.

Prison for

the rest of life, prison for seven years and re-paroled, prison
for whatever.”

ECF No. 9-16 at 28.

The Georgia Supreme Court found:
Tollette argues that he preserved his current
objections to the prosecutor’s allegedly-improper
arguments through a pretrial motion. Although we
have held that an adverse ruling by a trial court to
a motion in limine seeking to limit a specific
argument at trial serves to preserve the issue of the
argument’s propriety for appellate review, we find
that no such ruling was obtained in this case and,
therefore, that the issue has been waived.
Nevertheless, if an argument by the State was
improper in a death penalty case, this Court must
examine whether the argument led to a death sentence
“imposed under the influence of passion, prejudice,
or any other arbitrary factor.”
In making that
examination, this Court determines whether any
improper arguments in reasonable probability led to

-75* App. 101 *

Case 4:14-cv-00110-CDL Document 43 Filed 08/17/16 Page 76 of 106

the imposition of a death sentence.
. . . .
During his closing argument, the prosecutor
argued that “the just punishment under a lot of
religions would be death for what [Tollette did].”
This argument was improper in that it emphasized the
mandates
of
various,
although
unspecified,
religions. However, because Tollette did not object
to this argument at trial, we consider only whether
it in reasonable probability led to the jury's
selection of a death sentence. We find that it did
not.
. . . .
Tollette objected to [the] reference to “how
many years” might pass before Tollette would he
eligible for parole. The likelihood of parole is an
improper subject matter for argument by counsel . .
. . Accordingly, we find that the trial court erred
in
overruling
Tollette’s
objection
to
the
prosecutor’s argument. Nevertheless, we find that
the argument ultimately proved entirely harmless in
Tollette’s case, given the fact that the jury had life
without parole as an available sentence and was
properly charged, through an original charge and an
additional charge given during deliberations, that
a sentence of life without parole would mean that
Tollette would never be eligible for parole unless
later adjudicated innocent.
Tollette, 280 Ga. at 103-05, 621 S.E.2d at 747-48 (citations
omitted).
The Georgia Supreme Court did not acknowledge any federal
basis for Tollette’s claims and did not cite any federal cases.
Even so, this Court cannot “assume that [the] unaddressed
federal claim was simply overlooked.”
S. Ct. 1088, 1089-90 (2013).

Johnson v. Williams, 133

Instead, the Court must “presume

-76* App. 102 *

Case 4:14-cv-00110-CDL Document 43 Filed 08/17/16 Page 77 of 106

that the federal claim was adjudicated on the merits—but that
presumption can in some limited circumstances be rebutted.”
Id. at 1096 (explaining that the presumption a state court
addressed the federal claim is a “strong one” that may be
rebutted only in “unusual circumstances”).

The evidence

rebutting the presumption must lead “very clearly to the
conclusion that a federal claim was inadvertently overlooked
in state court.”

Id. at 1097

Tollette argues his prosecutorial misconduct claims are
“cognizable under multiple sources of constitutional law,”
including Simmons v. South Carolina, 512 U.S. 154 (1994); Darden
v. Wainwright; 477 U.S. 168 (1986); Caldwell v. Mississippi,
472 U.S. 320 (1985); and Donnelly v. DeChristoforo, 416 U.S.
637 (1974).

ECF No. 34 at 169.

According to Tollette, the

Georgia Supreme Court’s failure to cite these cases, or their
underlying

constitutional

provisions,

overlooked his federal claims.

proves

the

ECF No. 34 at 169-72.

court
Perhaps

the Georgia Supreme Court was guided by Tollette’s own failure
to cite any of these cases anywhere in his appellate brief.24

24

Tollette’s appellate brief is shown at ECF No. 9-16. There was a previous
appellate brief submitted by Grindle. ECF Nos 9-3; 9-4. However, Grindle
ceased representing Tollette and Tollette’s case was stricken from the
Georgia Supreme Court’s docket. ECF No. 9-5. Afterward, Tollette’s case
was re-docketed and stricken from the docket two more times before it was
docketed the fourth and final time on March 28, 2005. ECF Nos. 9-6; 9-10;
9-12; 9-13; 9-15. A new briefing schedule was provided and appellate
counsel Elkins and Reynolds filed their May 17, 2005 appellate brief. ECF
Nos. 9-15; 9-16. This is the brief that the Georgia Supreme Court had before
it when it ruled on Tollette’s direct appeal.

-77* App. 103 *

Case 4:14-cv-00110-CDL Document 43 Filed 08/17/16 Page 78 of 106

Instead, when arguing that the prosecutor’s religious and
parole arguments violated his rights, he cited only state law:
O.C.G.A. § 17-8-75; O.C.G.A. § 17-10-6.1(c)(1); O.C.G.A. §
17-10-35, Carruthers v. State, 272 Ga 306, 528 S.E.2d 217
(2000), overruled on other grounds by Vergera v. State, 283 Ga.
175, 657 S.E.2d 863 (2008); Hammond v. State, 264 Ga. 879, 452
S.E.2d 745 (1995); and Jenkins v. State, 265 Ga. 539 (1995).25
ECF No. 9-16 at 26-29.

While Tollette alleged generally that

his Fifth, Eighth, and Fourteenth Amendment rights had been
violated, his specific arguments were based on state law.

It

appears, therefore, that Tollette “treated [his] state and
federal claims interchangeable.”

Williams, 133 S. Ct. at 1099.

Having done so, it is “hardly surprising that the [Georgia
Supreme Court] did so as well.”

Id.

Tollette’s litigation strategy after the Georgia Supreme
Court issued its opinion also supports the conclusion that the

25

As explained above, Tollette did, in the first paragraph of the section
dealing with improper prosecutorial comments, allege his Fifth, Eighth, and
Fourteenth Amendment rights were violated when the State made five improper
comments. ECF No. 9-16 at 22. When making his specific arguments regarding
the prosecutor’s mention of religion and parole, however, he did not argue
that the prosecutor’s comments violated federal law; he did not cite the
United States Constitution; and he did not cite Supreme Court precedent.
(ECF No. 9-16 at 26-27). It might be argued that Tollette mentioned the
United States Constitution only “in passing” and, therefore, his federal
claims regarding the religion and parole comments are unexhausted and
procedurally defaulted. Williams, 133 S. Ct. at 1096. Except for the claim
Tollette raises under Caldwell v. Mississippi, 472 U.S. 320 (1985),
Respondent does not make this argument. Thus, the Court does not make this
finding. The Court merely points out that Tollette is now criticizing the
Georgia Supreme Court for responding to the specific arguments Tollette made
in his appellate brief and for failing to cite cases that Tollette himself
failed to cite.

-78* App. 104 *

Case 4:14-cv-00110-CDL Document 43 Filed 08/17/16 Page 79 of 106

court adjudicated the federal, as well as state, claims.

Id.

Tollette “neither petitioned [the Georgia Supreme Court] for
rehearing nor argued in subsequent state . . . proceedings that
the state court had failed to adjudicate [his federal] claim[s]
on the merits.”

Id.

To the contrary, in his Petition for Writ

of Certiorari, he argued the Georgia Supreme Court wrongly
denied his claim that the “prosecutor’s misstatement regarding
the eligibility for parole . . . resulted in violations of his
constitutional
Amendments.”

rights

under

the

ECF No. 9-23 at 16.

Eighth

and

Fourteenth

It is, therefore, clear that

until these federal proceedings, Tollette did not think the
Georgia Supreme Court had inadvertently failed to adjudicate
his federal claims on the merits.
Furthermore, the Georgia Supreme Court’s analysis under
O.C.G.A. § 17-10-35(c)(1) appears to be interchangeable with
the federal analysis.

Childers v. Floyd, 736 F3d 1331, 1335

(11th Cir. 2013) (finding no need for separate federal analysis
when the state law “fit hand in glove” with the federal right
guaranteed by the Constitution).

In fact, the Georgia Supreme

Court has stated that its analysis under this statute “is no
mere matter of statutory interpretation; every decision to
impose

the

death

penalty

implicates

the

procedural

and

substantive protections of the Eighth Amendment and our view
must, at a minimum, be sufficient to satisfy those protections.”

-79* App. 105 *

Case 4:14-cv-00110-CDL Document 43 Filed 08/17/16 Page 80 of 106

Conner v. State, 251 Ga. 113, 117, 303 S.E.2d 266, 273 (1983);
See also Williams, 133 S. Ct. at 1096 (explaining that “if the
state-law rule subsumes the federal standard—that is, if it is
at least as protective as the federal standard—then the claim
may be regarded as having been adjudicated on the merits”).
In this case, after finding the prosecutor’s religious
comment improper, the Georgia Supreme Court questioned whether
“it in reasonable probability led to the jury’s selection of
a death sentence.”

Tollette, 280 Ga. at 104, 621 S.E.2d at 748.

Under clearly established federal law, a prosecutor’s improper
statement violates due process only if “the improper argument
rendered the sentencing stage trial fundamentally unfair.”
Romine v. Head, 253 F.3d 1349, 1366 (11th Cir. 2001); Donnelly,
416 U.S. at 645.

And, “a capital sentencing proceeding [is]

fundamentally unfair if there is a reasonable probability that
the argument changed the outcome, which is to say that absent
the argument the defendant would not have received a death
sentence."

Romine, 253 F.3d at 1366 (citations omitted).

The

Court sees no difference in these two analyses.
Tollette

argues

that

“[a]lthough

the

‘reasonable

probability’ in the Tollette opinion may appear at first blush
to be similar to the fundamental fairness due process inquiry,
it did not constitute such review in this case.”
at 174-75.

ECF No. 34

According to Tollette, this is because “under

-80* App. 106 *

Case 4:14-cv-00110-CDL Document 43 Filed 08/17/16 Page 81 of 106

Georgia law, unless an error or instance of prosecutorial
misconduct is independently sufficient to in ‘reasonable
probability’ lead to a different sentence, there is no defect
at trial.”

ECF No. 34 at 175.

In other words, Tollette claims

the Georgia Supreme Court considered each improper comment in
isolation, as opposed to undertaking a due process analysis and
looking at the entire record to determine whether the multiple
improper arguments may have affected the trial as a whole.
The

Georgia

Supreme

Court

stated

that

O.C.G.A.

§

17-10-35(c)(1) requires it to determine if the death penalty
has been “imposed under the influence of passion, prejudice,
or any other arbitrary factor.”

Tollette, 280 Ga. at 103-04,

621 S.E.2d. at 747 (citing O.C.G.A. § 17-10-35(c)(1)).

The

court has explained that to make this determination, it “must
examine the entire record for the presence of factors improperly
impacting on the decision to impose a sentence of death.”
Conner, 251 Ga. at 117, 303 S.E.2d at 272-73; Spivey v. State,
253 Ga. 187, 191, 319 S.E.2d 420, 427 (1984) (explaining that
under O.C.G.A. § 17-10-35(c)(1), the court reviews the entire
record, including the closing argument to determine if the
“argument considered in its entirety, was so prejudicial or
offensive, or involved such egregious misconduct . . . as to
require reversal”).
Supreme

Court

The Court finds that while the Georgia

discussed

each

allegedly

-81* App. 107 *

improper

comment

Case 4:14-cv-00110-CDL Document 43 Filed 08/17/16 Page 82 of 106

separately, it necessarily had to look at the entire sentencing
hearing, including all other improper arguments, to determine
if the death sentence was “imposed under the influence of
passion, prejudice, or any other arbitrary factor.”

O.C.G.A.

§ 17-8-75(c)(1).
When

addressing

Tollette’s

claim

regarding

the

prosecutor’s parole comment, the Georgia Supreme Court held
that the prosecutor’s statement was improper and, therefore,
the trial court erred in overruling Tollette’s objection.
Tollette, 280 Ga. at 105, 621 S.E.2d at 748.

However, the

improper argument “ultimately proved entirely harmless in
Tollette’s case.”

Id.

In a similar case, the Eleventh Circuit

applied deference to such a ruling.

Lucas v. Warden, Ga.

Diagnostic & Classification Prison, 771 F.3d 785, 803-05 (11th
Cir. 2014).

In Lucas, the Georgia Supreme Court, without

citing federal law, found that the prosecutor’s comments about
prisoner escapes was improper, but “harmless.”

Lucas v. State,

274 Ga. 640, 648-49, 555 S.E.2d 440, 448-49 (2001).

When

addressing this issue in his federal habeas action, the Eleventh
Circuit stated:
The Georgia Supreme Court’s determination, rendered
on direct appeal, that any error was harmless was not
an unreasonable application of Supreme Court law.
This is especially true since the harmless error
standard we apply as a federal habeas court—that the
error is harmless unless there is “actual prejudice,”
meaning that the error had a “substantial and

-82* App. 108 *

Case 4:14-cv-00110-CDL Document 43 Filed 08/17/16 Page 83 of 106

injurious effect or influence” on the jury’s
verdict—is more difficult to meet than the one
applied by the Georgia Supreme Court.
Lucas, 771 F.3d at 802-03.
deference

to

the

Following Lucas, this Court affords

Georgia

Supreme

Court’s

“harmless”

determination.
In conclusion, the Court finds that Tollette has not
presented evidence to rebut the “strong” presumption that the
Georgia Supreme Court adjudicated his federal claims on the
merits.

Williams, 133 S. Ct. at 1096.

2. The Georgia Supreme Court’s ruling on the religious
comment did not involve an unreasonable determination of
the facts or application of the law and was not contrary
to clearly established federal law.
During closing arguments, the prosecutor stated that “the
just punishment—the just punishment under a lot of religions
would be death for what he’s done.”

ECF 8-38 at 119.

On direct

appeal, Tollette argued this was an improper statement and the
Georgia Supreme Court agreed but found it did not “in reasonable
probability le[a]d to the jury’s selection of a death sentence.”
Tollette, 280 Ga. at 104, 621 S.E.2d at 748.
The prosecutor also told the jury:
You know, Mr. Wadkins is going to ask you for
mercy, going to tell you to be merciful on him. Show
him the same standard of mercy he showed John
Hamilton. It states blessed are the merciful for
they shall inherit mercy, I believe. Show him the
same mercy he showed John Hamilton.
ECF No. 8-38 at 122-23.

Tollette argues that the Georgia

-83* App. 109 *

Case 4:14-cv-00110-CDL Document 43 Filed 08/17/16 Page 84 of 106

Supreme Court’s failure to mention this latter statement
amounts to “an unreasonable determination of fact and once again
illustrates why no deference to their ruling is due.”
34 at 235, 41 at 49.

ECF Nos.

The Georgia Supreme Court’s failure to

mention this statement was not an unreasonable determination
of fact; it was a direct result of Tollette failing to mention
this statement anywhere in his appellate brief.26

ECF No. 9-16

at 22-29.
Nor did the Georgia Supreme Court unreasonably apply
federal law when it determined the prosecutor’s religious
reference did not, in reasonable probability, lead to the
imposition of the death penalty.
621 S.E.2d at 747.

Tollette, 280 Ga. at 103-04,

To determine whether the prosecutor’s

argument rendered the trial fundamentally unfair, this Court
considers the improper statements in context of the entire
sentencing hearing, including such factors as “‘(1) whether the
remarks were isolated, ambiguous, or unintentional; (2) whether
there was a contemporaneous objection by defense counsel; (3)
26

Tollette correctly points out that “Respondent wholly misstates the
portion of the State’s closing argument that . . . Tollette claims
constitutes an unreasonable determination of fact by the Georgia Supreme
Court.” ECF No. 41 at 47. Respondent alleges that Tollette is faulting
the Georgia Supreme Court for failing to specifically address the
prosecutor’s statement: “I submit the appropriate punishment to show
retribution can only be death. Forgiveness does not lie here. Forgiveness
might for a lesser crime, but not for this one.” ECF No. 37 at 213. Tollette
never makes this argument. Respondent does not argue Tollette has failed
to exhaust his claim regarding the prosecutor’s statement: “It states
blessed are the merciful for they shall inherit mercy . . . .” The Court,
therefore, does not treat this portion of Tollette’s improper religious
argument claim as unexhausted.

-84* App. 110 *

Case 4:14-cv-00110-CDL Document 43 Filed 08/17/16 Page 85 of 106

the

trial

court’s

instructions;

and

aggravating and mitigating factors.’”

(4)

the

weight

of

Spencer v. Sec’y, Dep’t

of Corr., 609 F3d 1170, 1182 (11th Cir. 2010) (quoting Land v.
Allen, 573 F.3d 1211, 1219-20 (11th Cir. 2009)).
In Tollette’s case, the prosecutor’s religious references
were isolated and brief.
entire argument.

Religion in no way permeated his

Romine, 253 F.3d at 1369.

Trial counsel did

not object and their failure to do so weigh against finding the
argument was severe enough to render the sentencing hearing
fundamentally unfair.

Romine, 253 F.3d at 1370 (citing Cargill

v. Turpin, 120 F.3d 1366, 1379 (11th Cir. 1997)); Williams v.
Kemp, 846 F.2d 1276, 1283 (11th Cir. 1988); Brooks v. Kemp, 762
F.2d 1383, 1397 n.19 (11th Cir. 1985).
Instead of objecting, trial counsel countered with his own
religious argument:
Now, I think when we went through the voir dire,
most people said they had some kind of religious
affiliation. Knowing that you don’t have to kill
Tollette to keep him out of society, what is our
religious teaching telling us, say about how we
should handle this problem?
And I saw a young lady with a—not too long ago
with a wrist bracelet that had some letters on it,
it was WWJD. And I asked her what that meant. And
she told me, she said that’s, what would Jesus do.
She said I wear it when I—it helps to remind when I
get in a situation, it helps to tell me how to think
about the situation and how to handle it, how to make
decisions.
So, I thought that might be a good question here.

-85* App. 111 *

Case 4:14-cv-00110-CDL Document 43 Filed 08/17/16 Page 86 of 106

Whoever your spiritual leader is, what would that
person do?
ECF No. 8-38 at 133.

Thus, trial counsel were able to lessen

the impact of the prosecutor’s improper religious argument by
countering with his own plea for the jurors to look to their
religious values when deciding Tollette’s fate.

See Tucker v.

Kemp, 762 F.2d 1497, 1509 (11th Cir. 1985) (explaining that
prosecutor’s improper argument regarding parole board was
effectively countered by defense counsel’s argument that
defendant probably would never be released).
The trial court, sua sponta, instructed the jury that it
was to follow the law, not religious commands:
Just—ladies and gentlemen of the jury, you are
not to invoke—the jury may use whatever personal
reasons it finds to impose sentences, but you will
invoke secular. You will not invoke your religious
beliefs to determine punishment in this case. But
you will follow the law as the Court gives you.
ECF No. 8-38 at 133-34.
Tollette complains that “it was not until the defense
closing argument—after all of the prosecutor’s religious
arguments were made without objection or instruction—that the
judge gave an instruction.”
However,

“all

of

the

ECF No. 41 at 46.

prosecutor’s

consisted of a few brief sentences.

This is true.

religious

arguments”

ECF No. 8-38 at 119, 123.

The trial court allowed trial counsel to make a lengthy
religious appeal and only cut him off after he implored the

-86* App. 112 *

Case 4:14-cv-00110-CDL Document 43 Filed 08/17/16 Page 87 of 106

jurors to ask themselves “what would Jesus do” or what their
religious leaders would do if faced with deciding Tollette’s
fate.

Though it came after trial counsel’s religious appeal,

the trial court’s instruction to determine punishment based on
the law was certainly broad enough to lessen any prejudicial
impact from the prosecutor’s improper comments.
The strength of the aggravating factors compared to the
lack of evidence in mitigation is relevant to the Court’s
determination that the prosecutor’s improper argument did not
render Tollette’s trial fundamentally unfair.

Evidence showed

that Tollette, a career felon, and two of his friends planned
an armed robbery of an armored truck.
621 S.E.2d at 745.

Tollette, 280 Ga. at 101,

They followed a Brink’s armored truck to

the bank and Tollette waited in front of the bank until Hamilton
exited with bags of money.

Id.

Tollette approached Hamilton

from behind and shot him at close range four times before fleeing
with a bag of money and shooting at those who pursued him.
621 S.E.2d at 745-46.

Id.,

When confronted by police, he attempted

to shoot them, but all of the bullets in his revolver were spent.
Id.

The only mitigation evidence was a plea from Tollette’s

mother.

Taking

all

of

these

relevant

factors

into

consideration, the Court finds that the prosecutor’s religious
comments

did

not

render

the

trial

fundamentally

unfair.

Certainly the Georgia Supreme Court’s finding that it did not

-87* App. 113 *

Case 4:14-cv-00110-CDL Document 43 Filed 08/17/16 Page 88 of 106

in reasonable probability lead to the jury’s selection of a
death sentence did not involve an unreasonable application of
clearly established federal law.
Finally, Tollette argues that the prosecutor’s improper
religious argument relieved the jury of its obligation to decide
Tollette’s sentence in violation of Caldwell v. Mississippi,
472 U.S. 320 (1985).

ECF No. 34 at 198-203.

Respondent states

that the claim is unexhausted because Tollette “made no claim
on direct appeal or in state habeas based upon Caldwell.”
No. 37 at 202.

ECF

Tollette did not, in fact, cite Caldwell or make

this particular argument on direct appeal.

He argues, however,

that he exhausted the claim on direct appeal by citing “to the
Eighth and Fourteenth Amendments, as well as federal law, with
regard to his improper arguments claim.”

ECF No. 41 at 34.

A

review of Tollette’s appellate brief shows he did not cite any
federal law when he argued the prosecutor made an improper
appeal to the jurors’ religious beliefs.

ECF No. 9-16 at 26-27.

Nor did he argue that the prosecutor’s religious argument
relieved the jury of its obligation to decide Tollette’s
sentence.

Therefore,

procedurally defaulted.
(11th

Cir.

2003)

this

claim

is

unexhausted

and

Turner v. Crosby, 339 F.3d 1247, 1280

(“Procedural

default

arises

when

‘the

petitioner simply never raised a claim in state court, and it
is obvious that the unexhausted claim would not be procedurally

-88* App. 114 *

Case 4:14-cv-00110-CDL Document 43 Filed 08/17/16 Page 89 of 106

barred due to state-law procedural default.’”) (quoting Bailey
v. Nagle, 172 F.3d 1299, 1302 (11th Cir. 1999)).
Even if the claim is exhausted, however, it has no merit.
In Caldwell, the prosecutor told the jury not to consider itself
the final decision maker regarding whether the defendant would
die because a death sentence is automatically reviewed for
correctness by the state supreme court.
323, 325-26.

Caldwell, 472 U.S. at

The Supreme Court vacated the death sentence,

holding “it is constitutionally impermissible to rest a death
sentence on a determination made by a sentencer who has been
led to believe that the responsibility for determining the
appropriateness of the defendant’s death rests elsewhere.”
Id. at 329.

Caldwell, however, applies only to comments “that

mislead the jury as to its role in the sentencing process in
a way that allows the jury to feel less responsible than it
should for the sentencing decision.”
n.15.

“To

establish

a

Caldwell

Darden, 477 U.S. at 183
violation,

a

defendant

necessarily must show that the remarks to the jury improperly
described the role assigned to the jury by local law.”

Dugger

v. Sec’y Fla. Dep’t of Corr., 489 U.S. 401, 407 (1989).
In this case, “the jury was not affirmatively misled
regarding its role in the sentencing process.”
Oklahoma, 512 U.S. 1, 9 (1994).

Romano v.

The prosecutor did not

misinform the jury about its role in sentencing under Georgia

-89* App. 115 *

Case 4:14-cv-00110-CDL Document 43 Filed 08/17/16 Page 90 of 106

Instead, he stated it was the jury’s responsibility to

law.

deliberate and determine Tollette’s fate.
108, 113, 115.

ECF No. 8-38 at 97,

Trial counsel told the jury that if one them

“refuse[d] to vote for the death sentence then Tollette will
not die.”

ECF No. 8-38 at 127.

When the prosecutor objected,

trial counsel stated that, “All I am saying is if any one of
them [does not vote for the death sentence], then he won’t die
....

Because that makes each one responsible.”

at 128.
argument.”

ECF No. 8-38

The trial court stated that was “a reasonable
Id.

Furthermore, the trial court made clear

during its charge that it was up to the jury to determine which
punishment to impose for Hamilton’s murder.
3-4, 6, 9.

ECF No. 8-39 at

Taking all of this into consideration, the Court

cannot find that the jury was “led to believe that the
responsibility

for

determining

the

[Tollette’s] death rest[ed] elsewhere.”

appropriateness

of

Caldwell, 472 U.S. at

329.
In conclusion, considering all the prosecutor’s improper
arguments in the context of the entire sentencing hearing, the
Court finds the Georgia Supreme Court denial of relief was not
based on any unreasonable factual findings.

Additionally, the

state court’s decision was not contrary to, or involve any

-90* App. 116 *

Case 4:14-cv-00110-CDL Document 43 Filed 08/17/16 Page 91 of 106

unreasonable applications of, federal law.27
3. The Georgia Supreme Court’s ruling on the parole
comment did not involve an unreasonable determination of
the facts or application of the law and was not contrary
to clearly established federal law.
Tollette

argues

that

the

Georgia

Supreme

Court

“simplistically concluded” that the prosecutor’s mention of
parole after seven years was harmless.

ECF No. 34 at 179.

Basically, Tollette faults the state court for failing to say
more.

ECF No. 34 at 182.

Allegations that a state court

“failed to say enough” and should have “provided a detailed

27

Tollette compares his case to that of Romine and Farina v. Sec’y, Fla.
Dep’t of Corr., 536 F. App’x 966 (11th Cir. 2013). In both, the Eleventh
Circuit found that the prosecutor’s improper religious comments rendered
the sentencing stage trial fundamentally unfair. Romine, 253 F.3d at 1371;
Farina, 536 F. Appx. at 983-84. Respondent does not cite these cases or
respond to Tollette’s arguments. District courts have been cautioned not
to rely on circuit precedent when determining if the state court made an
unreasonable application of clearly established federal law. Renico, 559
U.S. at 779; Grossman v. McDonough, 466 F.3d 1325, 1335-36 (11th Cir. 2006)
(“Clearly established federal law is not the case law of the lower federal
courts, including this Court.”) (quoting Putman v. Head, 268 F.3d 1223, 1241
(11th Cir. 2001)). “Even if we were permitted to consider Eleventh Circuit
law in resolving a habeas claim under AEDPA, the prosecutor's Biblical
references in this case do not constitute error under Romine” or Farina.
Shere v. Fla. Dep’t of Corr., 537 F.3d 1304, 1310 (11th Cir. 2008). In Romine,
the prosecutor used scripture to cross examine a witness; the jurors were
lodged in the Baptist Assembly; the trial judge arranged for the jurors to
have a Bible and attend a religious service on Sunday; the prosecutor told
the jurors to sentence Romine to death, after prayer, because the Bible
required it; the defense “quoted no scripture and did not argue religion
at all”; and a juror testified that they discussed one of the Biblical
passages the prosecutor told them to consider. Romine, 253 F.3d at 1358-63.
In Farina, the prosecutor referenced religion three times during voir dire;
told the entire venire to follow their religious beliefs if they conflicted
with the law; cross examined a witness to establish that, as a matter of
Christian faith, the jury could sentence Farina to death; and quoted the
Bible during his closing. Farina, 536 F. App’x at 971-73. Unlike these
situations, religions did not “permeate[] virtually every aspect “ of
Tollette’s sentencing hearing. Romine, 253 F.3d at 1358. Tollette has
pointed to two religious references during the prosecutor’s closing. These
references did not render his trial fundamentally unfair.

-91* App. 117 *

Case 4:14-cv-00110-CDL Document 43 Filed 08/17/16 Page 92 of 106

explanation” cannot prevail.

Evans v. Sec’y, Dep’t of Corr.,

703 F.3d 1316, 1329 (11th Cir. 2012).

Nothing in § 2254

requires the state court to recite every relevant fact or
argument for its decision.

Lee v. Comm’r, Ala. Dep’t of Corr.,

726 F.3d 1172, 1212 (11th Cir. 2013).

“AEDPA ‘focuses on the

result’ of a state court's decision, ‘not on the reasoning that
led to that result,’ and nothing in the statute requires a state
court to accompany its decision with any explanation, let alone
an adequate one.”

Gissendaner v. Seabolt, 735 F.3d 1311, 1329

(11th Cir. 2013) (quoting Wright v. Sec’y for the Dep’t of Corr.,
278 F.3d 1245, 1255 (11th Cir. 2002)).

The Georgia Supreme

Court clearly found that the trial court erred when it overruled
trial

counsel’s

objection

to

the

prosecutor’s

regarding parole, but the error was harmless.

statement

This Court must

decide only whether that decision is contrary to Supreme Court
precedent or whether it was based on unreasonable facts or an
unreasonable application of clearly established federal law.
The record shows it was not.
Before closing arguments began, the trial judge instructed
the jury that they had “heard all of the evidence [they were]
going to hear in this case.”

ECF No. 8-38 at 90.

They were

told to “[r]emember that nothing the attorneys say in their
closing arguments is evidence.”

ECF No. 8-38 at 90.

The prosecutor argued as follows:

-92* App. 118 *

Case 4:14-cv-00110-CDL Document 43 Filed 08/17/16 Page 93 of 106

Rehabilitation, we’ve touched on it. We know
he cannot be rehabilitated. Parole, insane. The
idea of him on our streets again is something I submit
you don’t want to take a chance on.
I submit to you life without parole in prisons,
in the government supported prisons of the United
States is too good for him. Government supported,
taxpayer funded, taxpayer maintained.
ECF No. 8-38 at 120-21.
Trial counsel’s objection was sustained and the following
exchange occurred:
Mr. Conger: I submit to you ladies and
gentlemen, prison is too good for this defendant.
Prison for the rest of his life, prison for seven
years and re-paroled, prison for whatever.
Mr. Wadkins: I object to that, too, your Honor.
He’s ta[l]king about how many years.
Mr. Conger:

I don’t know how many years.

Mr. Wadkins: I thought I heard him mention a
number, several years or something.
The Court:
objection.
Mr. Conger:

I overrule the objection, that
All right.

If you give him life with the possibility of
parole, I don’t know if he would be paroled or when
he would be paroled. But I submit to you that any
prison sentence after what he’s done is a slap on the
wrist. He deserves the maximum.
ECF No. 8-38 at 121-22.
During his closing, trial counsel told the jury:
So, is there any real reason that you would have
to kill him. In the old days, there were only two
choices in a murder case where the District Attorney

-93* App. 119 *

Case 4:14-cv-00110-CDL Document 43 Filed 08/17/16 Page 94 of 106

sought the death penalty.
There were only two
choices, life in prison, and death. That’s all.
So, your choice was to have a person, if you gave
him life, at some point the possibility of parole was
there.
. . . .
There may have been times in those days and, I’m
sure there were, when a person was so dangerous that
even the possibility of parole, possibility that he
would ever get out was too big a risk to take. And
that would have been a justification for them killing
somebody, give them the death penalty. Death would
be the only answer.
But I tell you, and if I never say anything else,
let me get this point to you, that is no longer the
case. Georgia law is not that way anymore. You no
longer only have two choices. Now, you have a third
choice. In 1993, I believe, the Georgia legislature
added another possible sentence for you to
deliberate, and that is life without the possibility
of parole. . . .
So now, since ’93, we have life without the
possibility of parole so the risk that you had
beforehand that somebody would ever get out is
eliminated. You can put people like Leon Tollette
away with assurance they will be in jail until they
die. You can do that now.
ECF No. 8-38 at 129-31.
Following oral arguments, the trial court reminded the
jury that “the opening statements or closing arguments by the
attorneys” were not evidence. ECF No. 8-39 at 2.

The jury was

instructed that they could sentence Tollette to death, life
without the possibility of parole, or life and told that “[l]ife
imprisonment without parole means that the defendant will spend

-94* App. 120 *

Case 4:14-cv-00110-CDL Document 43 Filed 08/17/16 Page 95 of 106

the remainder of his natural life incarcerated and shall not
be eligible for parole.”

ECF No. 3-39 at 5.

During deliberations, the jury asked the trial court to
clarify “if the defendant is given life without parole, is there
any

possibility

of

release

under

overcrowding, et cetera, et cetera.”

any

circumstances,

ECF No. 8-39 at 17.

Referring to O.C.G.A. § 17-10-16, the judge responded:
Nothwithstanding any other provision of law,
any person who is convicted of an offense for which
the death penalty may be imposed, and who was
sentenced to imprisonment for life without parole
shall not be eligible for any form of parole during
such person’s natural life. It says unless the State
Board of Pardon and Parole or a Court of this state
after notice and public hearing determined that such
person was innocent of the offense for which the
sentence of imprisonment for life without parole was
imposed. Such person shall not be eligible for any
work release program or any other program
administered by the Department of Corrections, the
effect of which would be to reduce the term of actual
imprisonment.
In answer to your question, it says shall not.
ECF No. 8-39 at 17-18.
Although unclear in the record, the jury apparently asked
the question again and the trial judge read the statute again.
ECF No. 8-39 at 19.

The jury asked for a copy of the statute

and, over the prosecutor’s objection, the judge provided them
with a copy.

ECF No. 8-39 at 24-25.

Viewed in the context of the entire sentencing hearing,
the Court finds the Georgia Supreme Court reasonably determined

-95* App. 121 *

Case 4:14-cv-00110-CDL Document 43 Filed 08/17/16 Page 96 of 106

the

trial

court’s

failure

to

sustain

prosecutor’s parole reference was harmless.

the

objection

to

After saying that

Tollette might be eligible for parole in seven years, the
prosecutor stated that, if given life with the possibility of
parole, he did not know when, or if, Tollette would ever be
eligible for parole.

ECF No. 8-38 at 122.

Also, life without

parole was an option and the trial court properly instructed
the jury regarding life without the possibility of parole.
Though Tollette maintains the instruction was confusing, the
Georgia Supreme Court has repeatedly found the language in
O.C.G.A. § 17-10-31.1(d) adequately informs the jury of the
meaning of life without parole.

Henry v. State, 269 Ga. 851,

855, 507 S.E.2d 419, 422 (1998); Bishop v. State, 268 Ga. 286,
292, 486 S.E.2d 887, 895 (1997); Henry v. State, 265 Ga. 732,
741, 462 S.E.2d 737, 746 (1995).
Tollette

now

28

maintains

that

the

prosecutor’s

misrepresentation about parole, coupled with the confusing jury
instruction, are analogous to the denial of due process
recognized in Simmons v. South Carolina, 512 U.S. 154 (1994),
and its progeny.

ECF Nos. 34 at 182; 41 at 35.

28

These cases

The Court fails to see where Tollette made this argument during direct
appeal to the Georgia Supreme Court. However, he did generally allege that
his due process rights were violated by the Prosecutor’s comment regarding
parole. Respondent has not argued that Tollette failed to exhaust this
claim. In fact, as Tollette points out, Respondent does not “dispute,
distinguish, or even cite the Simmons line of cases that [Tollette] relied
on in his main brief.” ECF No. 41 at 39. The Court, therefore, treats this
claim as exhausted.

-96* App. 122 *

Case 4:14-cv-00110-CDL Document 43 Filed 08/17/16 Page 97 of 106

hold that “‘where a capital defendant’s future dangerousness
is at issue, and the only sentencing alternative to death
available to the jury is life imprisonment without possibility
of parole,’ the Due Process Clause ‘entitles the defendant “to
inform the jury of [his] parole ineligibility, either by a jury
instruction or in arguments by counsel.”’”

Lynch v. Arizona,

136 S. Ct. 1818, 1818 (2016) (quoting Shafer v. South Carolina,
532 U.S. 36, 39 (2001)).
In

Tollette’s

case,

available to the jury:

there

were

three

death, life without the possibility of

parole, and life with the possibility of parole.
at 5.

alternatives

ECF No. 3-39

Trial counsel told the jury that it had the option of

putting “people like Leon Tollette away with assurance they will
be in jail until they die.”

ECF No. 8-38 at 131.

The trial

court instructed the jury that “[l]ife imprisonment without
parole means that the defendant will spend the remainder of his
natural life incarcerated and shall not be eligible for parole.”
ECF No. 3-39 at 5.

Language in the Georgia statute informing

the jury that Tollette would spend his natural life in prison
unless he was later found innocent of the underlying crime did
not misinform the jury or deny him due process under Simmons.
In conclusion, the Georgia Supreme Court’s ruling that the
trial court’s error for failing to sustain the objection to the
prosecutor’s improper parole comment was not contrary to

-97* App. 123 *

Case 4:14-cv-00110-CDL Document 43 Filed 08/17/16 Page 98 of 106

Simmons or any other Supreme Court precedent; nor did it involve
an unreasonable application of Simmons or any other Supreme
Court precedent.

Finally, it was not based on any unreasonable

factual determinations.
D. Appellate counsel were unconstitutionally ineffective
for failing to raise trial counsel’s failure to object
to the prosecutor’s impermissible religious arguments
Tollette argues that appellate counsel were ineffective
for failing to raise trial counsel’s failure to object to the
prosecutor’s impermissible religious arguments, and further
that trial counsel’s underlying failure to object to the closing
argument was prejudicially deficient performance.

Respondent

argues these claims were not adequately raised during the state
habeas

proceedings

and

procedurally defaulted.

are,

therefore,

ECF No. 37 at 222.

unexhausted

and

Alternatively, he

argues the claims have no merit.
The record shows, and Respondent acknowledges, that in
Claim One of his first amended state habeas petition, Tollette
alleged generally that trial counsel failed to object to
improper and prejudicial comments at the sentencing phase.
No. 10-16 at 8.

ECF

In a footnote, Tollette alleged that “[t]o the

extent appellate counsel failed to adequately litigate trial
counsel’s errors at motion for new trial or appeal, appellate
counsel rendered prejudicially deficient performance.”
No. 10-16 at 14 n.2.

ECF

The state habeas court specifically quoted

-98* App. 124 *

Case 4:14-cv-00110-CDL Document 43 Filed 08/17/16 Page 99 of 106

this footnote.

ECF No. 12-24 at 3.

The court then noted:

Of the numerous claims and sub-claims set forth in
the Amended Petition, Tollette’s post-hearing brief
argues only Claim One and Claim Seven. The brief
states, however, that Tollette “does not abandon any
of the claims or arguments previously made . . . and
incorporates by this reference all of the claims
raised in his Petition and amended Petition, in all
motions and pleadings he has filed, and in the
evidentiary hearing.” In an abundance of caution,
the Court rules on every claim enumerated in the
Amended Petition.
ECF No. 12-24 at 4 footnotes omitted.
The state habeas court found that “[o]f the claims that
are not barred by res judicata, the Court finds that, except
for the portion of Claim One that alleges the ineffectiveness
of direct appeal counsel, the remaining claims are procedurally
defaulted.”

ECF No. 12-24 at 8.

Thus, it appears the state

habeas court found Tollette’s claim that trial counsel were
ineffective for failing to object to the prosecutor’s religious
comments was procedurally defaulted.29

Id.

Tollette relied on

ineffective assistance of appellate counsel to supply the
requisite cause and prejudice to overcome the procedural
default.

Id.

The state habeas court found that Tollette

failed to show direct appellate counsel were ineffective.

ECF

No. 12-24 at 9.
29
The state habeas court found that Tollette’s general argument that trial
counsel made “‘hardly any objections’” had been resolved on direct appeal
and was barred by res judicata. ECF No. 12-24 at 4 (quoting Tollette, 280
Ga. at 106, 621 S.E.2d at 749). Tollette does not argue that his specific
claim that trial counsel were ineffective for failing to object to the
prosecutor’s religious comments was exhausted in the Georgia Supreme Court.

-99* App. 125 *

Case 4:14-cv-00110-CDL Document 43 Filed 08/17/16 Page 100 of 106

Tollette maintains any reasonable appellate attorney
would have raised a claim that trial counsel were ineffective
for failing to object to the prosecutor’s religious comments.
Appellate counsel is not required to raise every non-frivolous
issue.

Jones

v.

Barnes,

463

U.S.

745,

752-54

(1983).

“Counsel’s performance is deficient only if it falls below the
wide range of competence demanded of attorneys in criminal
cases.”

Farina, 536 F. App’x at 979 (citing Strickland, 466

U.S. at 688).

Furthermore, prejudice results only if “‘the

neglected claim would have a reasonable probability of success
on appeal.’”

Id. (quoting Heath v. Jones, 941 F.2d 1126, 1130

(11th Cir. 1991)).

If the underlying substantive claim lacks

merit, appellate counsel’s failure to raise the claim does not
constitute ineffective assistance of counsel.

Shere, 537 F.3d

at 1311.
Here, the underlying trial counsel ineffectiveness claim
is without merit because the underlying improper prosecutorial
arguments claim has no merit.

“The relevant question under

Strickland’s performance prong, which calls for an objective
inquiry, is whether any reasonable lawyer would have elected
not to object for strategic or tactical reasons, even if the
actual defense counsel was not subjectively motivated by those
reasons.”

Castillo v. Florida, 722 F.3d 1281, 1285 n.2 (11th

Cir. 2013).

“Decisions about whether to object . . . are

-100* App. 126 *

Case 4:14-cv-00110-CDL Document 43 Filed 08/17/16 Page 101 of 106

tactical choices consigned by Strickland to a lawyer’s reasoned
professional judgment.”

Bates v. Sec’y, Fla. Dep’t of Corr.,

768 F.3d 1278, 1295 (11th Cir. 2014).
Here, Wadkins may have thought it was “incompatible with
his trial strategy” to object to the prosecutor’s religious
comments.

Id.

Specifically, he might have refrained from

objecting because he planned to rely on religious values and
make his own religious comments during closing.

He perhaps

hoped his lack of objection to the prosecutor’s comment would
enable him to make his “what would Jesus do” argument without
objection from the prosecutor.

ECF No. 8-38 at 133.

Also,

Wadkins thought it essential that he gain credibility with the
jury during his closing argument.

ECF No. 9-2 at 58-60.

He

may have worried that he would lose credibility and appear
hypocritical if he made his own religious pleas for mercy and
compassion right after objecting to the prosecutor’s reference
to religion.
As for prejudice, Tollette has not shown that but for trial
counsel’s failure to object to the prosecutor’s religious
comments, there is a reasonable probability that he would not
have received a death sentence.

Strickland, 466 U.S. at 687.

As discussed above, the Georgia Supreme Court determined that
the prosecutor’s religious statements did not “in reasonable
probability” lead the jury to select the death sentence.

-101* App. 127 *

Case 4:14-cv-00110-CDL Document 43 Filed 08/17/16 Page 102 of 106

Tollette, 280 Ga. at 104, 621 S.E.2d at 748.

The Court has found

this was reasonable, both factually and legally.

Because there

is not a reasonable likelihood that the religious comments
affected the sentence, appellate counsel’s failure to raise
trial counsel’s lack of objection did not prejudice Tollette.
Cox v. McNeil, 638 F.3d 1356, 1362 (11th Cir. 2011) (finding
that petitioner failed to satisfy Strickland’s prejudice prong
regarding trial counsel’s failure to object to prosecutor’s
misstatements of the law because no “reasonable probability”
that misstatements contributed to the sentence).

Having found

the underlying trial counsel ineffectiveness claim, which was
based on the underlying improper prosecutorial comments claim,
without merit, Tollette’s ineffective assistance of appellant
counsel claim is, likewise, meritless.
E. Claim
that
Tollette’s
death
sentence
is
disproportionate punishment in violation of the Eighth
Amendment
The Georgia Supreme Court found that “[t]he evidence in
this case show that Tollette carefully planned his crimes and
killed without mercy for monetary gain.”
107, 621 S.E.2d at 750.

Tollette, 280 Ga. at

Citing twenty-three cases that

“involved an intentional killing in furtherance of an armed
robbery or an intentional killing committed for the purpose of
receiving

money

or

other

things

of

value,”

the

court

“conclude[d], considering both the crime and the defendant,

-102* App. 128 *

Case 4:14-cv-00110-CDL Document 43 Filed 08/17/16 Page 103 of 106

that the death sentence imposed for the murder in this case was
neither excessive nor disproportionate to the penalties imposed
in similar cases in Georgia.”

Id. at 107-08, 621 S.E.2d at 750.

Despite this analysis, Tollette argues that in affirming his
death

sentence,

the

Georgia

Supreme

Court

abdicated

its

constitutionally required duty to thoroughly review whether it
was proportional with other sentences imposed in Georgia
courts.

ECF No. 34 at 217-35.

There is no constitutional right to proportionality
review, and the Eleventh Circuit has instructed the district
courts not to conduct proportionality reviews in death penalty
habeas corpus cases.

According to the Supreme Court, “[t]here

is . . . no basis in our cases for holding that comparative
proportionality review by an appellate court is required in
every case in which the death penalty is imposed.”
Harris, the 465 U.S. 37, 50 (1984).

Pulley v.

The Eleventh Circuit has

held:
A federal habeas court should not undertake a review
of the state supreme court’s proportionality review
and, in effect, “get out the record” to see if the
state court’s findings of fact, their conclusion
based on a review of similar cases, was supported by
the “evidence” in the similar cases. To do so would
thrust the federal judiciary into the substantive
policy making area of the state. It is the state’s
responsibility to determine the procedure to be used,
if any, in sentencing a criminal to death.
Moore v. Balkcom, 716 F.2d 1511, 1518 (11th Cir. 1983) (citing

-103* App. 129 *

Case 4:14-cv-00110-CDL Document 43 Filed 08/17/16 Page 104 of 106

California v. Ramos, 463 U.S. 992, 996-1001 (1983)); Mills v.
Singletary, 161 F.3d 1273, 1282 (11th Cir. 1998) ((“We have
instructed district courts to refuse [proportionality review]
requests when deciding habeas petitions.”) (citing Lindsey v.
Smith, 820 F.2d 1137, 1154 (11th Cir. 1987)).
Because the Constitution does not entitle Tollette to
proportionality

review

and

the

Eleventh

Circuit

has

specifically instructed district courts not to review the
proportionality review undertaken by the state supreme court,
the Court must refuse Tollette’s request to do so.
IV.

CONCLUSION

For the reasons explained above, Tollette’s petition for
writ of habeas corpus is DENIED.
CERTIFICATE OF APPEALABILITY
A prisoner seeking to appeal a district court’s final order
denying his petition for writ of habeas corpus has no absolute
entitlement

to

appeal

Appealability (“COA”).

but

must

obtain

a

Certificate

28 U.S.C. § 2253(c)(1)(A).

of

As amended

effective December 1, 2009, Rule 11(a) of the Rules Governing
Section 2254 Cases in the United States District Courts provides
that “[t]he district court must issue or deny a [COA] when it
enters a final order adverse to the applicant,” and, if a COA
is issued, “the court must state the specific issue or issues
that satisfy the showing required by 28 U.S.C. § 2253(c)(2).”

-104* App. 130 *

Case 4:14-cv-00110-CDL Document 43 Filed 08/17/16 Page 105 of 106

The Court can issue a COA only if the petitioner “has made
a substantial showing of the denial of a constitutional right.”
28 U.S.C. § 2253(c)(2).

To merit a COA, the Court must

determine “that reasonable jurists could debate whether or, for
that matter, agree that the petition should have been resolved
in a different manner or that the issues presented were
‘adequate to deserve encouragement to proceed further.’”
Miller-El v. Cockrell, 537 U.S. 322, 336 (2003) (citations
omitted).

If a procedural ruling is involved, the petitioner

must show that “jurists of reason would find it debatable
whether the petition states a valid claim of the denial of a
constitutional right and that jurists of reason would find it
debatable whether the district court was correct in its
procedural ruling.”

Slack v. McDaniel, 529 U.S. 473, 484

(2000).
The Court is firmly convinced that its rulings in this
Order are correct and that they are likely not reasonably
debatable.

Nevertheless,

understanding

that

no

one

is

infallible and the consequences of today’s rulings, the Court
does issue a COA on the following issue:
Whether trial counsel were ineffective for failing to
investigate and present mitigating evidence and for failing to
investigate and challenge the State’s presentation of evidence
about the circumstance of the murder and whether subsequent

-105* App. 131 *

Case 4:14-cv-00110-CDL Document 43 Filed 08/17/16 Page 106 of 106

counsel were ineffective for failing to adequately litigate
trial counsel’s failure.
In relation to all other claims, grounds, and issues raised
in Tollette’s Petition for Writ of Habeas Corpus, ECF No. 1,
the Court finds the standard for the grant of a COA has not been
met.
SO ORDERED, this 17th day of August, 2016.

s/Clay D. Land
CLAY D. LAND, CHIEF JUDGE
UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF GEORGIA

-106* App. 132 *

SUPREME COURT OF GEORGIA
Case No. S13E1348

Atlanta, March 28, 2014

The Honorable Supreme Court met pursuant to adjournment.
The following order was passed:

LEON TOLLETTE v. STEPHEN UPTON, WARDEN
From the Superior Court of Butts County.
After reviewing the habeas court’s order, we conclude that the habeas
court applied the incorrect legal standard in determining whether the Petitioner
was prejudiced by trial counsel’s not utilizing an expert to challenge the State’s
characterization of the circumstances of the murder. The habeas court
concluded that “[the Petitioner] failed to meet the prejudice prong of the
Strickland [v. Washington, 466 U. S. 668 (104 SCt 2052, 80 LE2d 674)
(1984),] test because the sequencing of gunshot wounds would not have
significantly swayed the jury against finding a statutory aggravating
circumstance.” Order, 41 (HR, 836). However, the standard applied by the
habeas court is not the Strickland test for prejudice in this context, because it
fails to account for the jury’s discretionary decision regarding sentencing once
it has found at least one statutory aggravating circumstance. See Williams v.
Taylor, 529 U. S. 362, 397-398 (IV) (120 SCt 1495, 146 LE2d 389) (2000)
(finding that a state supreme court’s prejudice determination was unreasonable
under Strickland “insofar as it failed to evaluate the totality of the available
mitigation evidence – both that adduced at trial, and the evidence adduced in
the habeas proceeding – in reweighing it against the evidence in aggravation”
and stating that, when conducting this reweighing, a court must consider that
“[m]itigating evidence . . . may alter the jury’s selection of penalty, even if it
does not undermine or rebut the prosecution’s death-eligibility case”).

* App. 133 *

Nevertheless, after independently applying the correct legal principle to
the trial and habeas record, we conclude as a matter of law that, “[i]n exercising
its discretion once [the Petitioner] became eligible for a death sentence,” the
jury would not have been significantly swayed by the testimony that the
Petitioner presented on this issue in the habeas proceeding. Hall v. Terrell, 285
Ga. 448, 453 (II) (C) (679 SE2d 17) (2009). We further conclude that trial
counsel’s not utilizing testimony like that presented by the Petitioner’s new
expert to challenge the State’s characterization of the circumstances of the
murder did not result in prejudice sufficient to support the success of the
Petitioner’s underlying ineffective assistance of trial counsel claim and thus that
the Petitioner cannot show a reasonable probability that, had direct appeal
counsel raised the ineffective assistance of motion for new trial counsel in
litigating trial counsel’s ineffectiveness with respect to this issue on direct
appeal, the Petitioner would have been granted a new trial on this basis. See
Hall v. Lewis, 286 Ga. 767, 783-784 (II) (D) (692 SE2d 580) (2010).
Therefore, the Petitioner cannot satisfy the cause and prejudice test to overcome
the procedural bar to that claim, and it remains procedurally defaulted. See id.
Accordingly, we conclude that this issue ultimately is without arguable merit.
See Supreme Court Rule 36. Our review of the record similarly reveals that the
other claims properly raised by the Petitioner are without arguable merit.
In light of the foregoing and upon consideration of the entirety of the
Application for Certificate of Probable Cause to appeal the denial of habeas
corpus, it is hereby denied.
All the Justices concur.
SUPREME COURT OF THE STATE OF GEORGIA
Clerk’s Office, Atlanta
I certify that the above is a true extract from the
minutes of the Supreme Court of Georgia.
Witness my signature and the seal of said court
hereto affixed the day and year last above written.

2

* App. 134 *

IN THE SUPERIOR COURT OF BUTTS COUNTY
STATE OF GEORGIA
LEON TOLLETTE,
Petitioner,
Habeas Corpus No.

v.

2007-V-822;

STEPHEN UPTON, Warden,
Georgia Diagnostic and Classification Prison.:
Respondent.
ORDER
This case isbefore the Court on Petitioner Leon Toilette's Petition for Writ of
Habeas Corpus. The trial evidence was summarized on direct appeal as follows.'
Toilette travelled from Los Angeles, California to help Xavier Wommack and Jakeith
Robinson plan the armed robbery of a Brink's armored truck. When they executed the
plan on December 21, 1995, Toilette snuck up behind victim John Hamilton, a Brink's
employee, and fired into the head, back, and legs, killing him. The drivers of the Brink's
truck and of another armored truck fired at Toilette and gave chase. Toilette returned fire
while fleeing with a money bag. He also tried shooting at a police technician and a cadet
who responded to the radio call, but he had already emptied his revolver. Wommack and
Robinson drove away without Toilette, and Toilette threw down his gun and surrendered.
The procedural history of Toilette's capital case is as follows. ToIlette was
indicted for the shooting death of John Hamilton, and the State decided to seek the death

I

Toilette v. Stale, 280 Ga. 100, 101 (2005).

10f43
* App. 135 *

penalty.2 Attorneys Robert Wadkins and Steve Craft were appointed as lead defense
counsel. On the first day of jury selection, November 3,1997, Toilette pleaded guilty to
malice murder, felony murder, armed robbery, two counts of aggravated assault,
possession of a firearm by a convicted felon, and possession of a firearm during the
commission of a felony. A jury trial was then held on the issue of sentencing for the
malice murder and eight days later, on November II, 1997, a jury returned a verdict of
death, finding two statutory aggravating circumstances:
(a)

The offense of murder was committed while the defendant was engaged in
another capital felony. Armed Robbery is a capital felony under the law.

(b) The Defendant committed the offense of Murder for himself for the purpose
of receiving money or any other thing of monetary value.
In addition to the death sentence, Toilette also received a concurrent life sentence for
armed robbery, concurrent 20-year sentences for each count of aggravated assault, a
concurrent five-year sentence for possession of a firearm by a convicted felon, and a
consecutive five-year sentence for possession of a firearm during the commission of a
crime. The felony murder conviction was vacated by operation oflaw.
New counsel, attorney David Grindle, was appointed. A Motion for New Trial
was filed on March 11, 1998, amended on October 20, 1998, and denied on January 28,
1999. A number of attorneys successively represented Toilette on the direct appeal, and
on November 7, 2005, the Georgia Supreme Court affirmed his convictions and sentence

He was indicted by a Muscogee County grand jury on March 19, 1996, and re-indicted on August 5,
1996. The State filed written notices of its intent to seek the death penalty on March 21, 1996 and
September 27,1996.

2

20f43
* App. 136 *

of death.) Toilette's Motion for Reconsideration was denied on December 2, 2005. He
then filed a petition for writ of certiorari in the United States Supreme Court, which was
denied on October 2,2006. 4 Toilette filed this habeas action on August 7, 2007, and an
amendment thereto on November 3, 2008. The Court held a three-day evidentiary
hearing starting on January 13,2009 and continuing on January 22 and 23.
Toilette's Amended Petition for Writ of Habeas Corpus sets forth nine claims, but
within many of the claims are a multitude of allegations. Claim One in the Amended
Petition contains 33 asterisked allegations of ineffective assistance of counsel. The Court
identifies the asterisked subparts in Claim One as (a) through (gg): subsections (a)
through (v) allege ineffectiveness against trial counsel, and subsections (w) through (gg)
allege ineffectiveness against motion for new trial counsel and direct appeal counsel.
Claim Four contains 11 asterisked allegations of trial court error. The Court identifies
each asterisked subpart in Claim Four as (a) through (k). Claim Six has six subparts that
are already identified with alphabetical bullets. Also, each claim contains footnotes
asserting sub-claims. For instance, Claim Two alleges prosecutorial misconduct, and a
footnote to Claim Two contains sub-claims against trial counsel, the trial court, motion
for new trial counsel, and direct appeal counsel:
To the extent that Petitioner's counsel failed to object to these improper comments
and seek a mistrial or other appropriate relief ... counsel was ineffective, and
Petitioner was prejudiced thereby. To the extent that the Court attempted to cure
the improper comments by instructing the jury, the Court's instructions failed to
cure the error and actually exacerbated it by drawing the jury's attention to the

J

ld.

4

Toilette v. Georgia, 549 U.S. 893 (2006).

30f43
* App. 137 *

,

improper comments . ... To the extent direct appeal counsel failed to adequately
litigate trial counsel's errors at motion for new trial or appeal, direct appeal
counsel rendered prejudicially deficient performance.
Of the numerous claims and sub-claims set forth in the Amended Petition, Toilette's posthearing brief argues only Claim One and Claim Seven. The brief states, however, that
Toilette "does not abandon any ofthe claims or arguments previously made ... and
incorporates by this reference all ofthe claims raised in his Petition and Amended
Petition, in all motions and pleadings he has filed, and in the evidentiary hearing. ,,5 In an
abundance of caution, the Court rules on every claim enumerated in the Amended
Petition.
CLAIMS THAT ARE BARRED
Some of Toilette's claims are barred by res judicata because they were raised and
litigated in his direct appeal. As codified in OCGA § 9-12-40, res judicata prevents
relitigation of issues that were raised and litigated on direct appeal. In Walker v. Penn,
271 Ga. 609, 611 (1999), the Supreme Court reiterated that "[t]he principle of res judicata
... is binding on habeas corpus proceedings." The following claims were raised and
litigated in Toilette's direct appeal.
In Claim One, Toilette lists 21 different allegations of ineffective assistance of
trial counsel, which the Court has identified as subsections (a) through (u).6 (Subsection
(v) asserts that Toilette was prejudiced by trial counsel's incompetence, and subsection
(w) contends that the claims are not procedurally defaulted.) This ineffectiveness claim
, Toilette's Post-Hearing Brief at 6.
6

Amended Petition at 3, 'lf16(a) - (u).

40f43
* App. 138 *

was previously raised in Tollette's motion for new trial. The trial court denied the claim,
and the Supreme Court affirmed the denial. 7 On appeal, the Court rejected Tollette's
criticisms that trial counsel raised "hardly any objections" and that the trial court
8

"rescued" trial counsel by sua sponte excluding certain victim impact testimony. Ruling
that trial counsel had prepared adequate mitigation evidence, the Court detailed trial
counsel's pre-trial investigation, consultation, and analysis, including the decision to only
call ToIlette's mother and not his sister to testify.9 The Court also held that trial
counsel's statement during closing, "I have great loathing for my own client," was not an
unreasonable strategy under the circumstances of the case. 10 To the extent that the 21
allegations of ineffectiveness of trial counsel were denied in Tollette's appeal, they are
barred by res judicata.
In Claim Two, Tollette alleges, in part, that his "rights to due process and a fair
trial were violated by improper and prejudicial remarks by the prosecution in its
arguments at the gUilt/innocence [sic] and sentencing phases of trial." II Sub-claims are
contained in Footnote 2 against the trial court, trial counsel, motion for new trial counsel,
and direct appeal counsel. In his direct appeal, Tollette complained of the prosecutor's
closing argument and received an adverse ruling. 12 The Court ruled that the prosecutor

7

Toilette, 280 Ga. at 106( 13).

8 I d.

9Idat107.
10

Id.

II

Amended Petition at 14, ~20.

12

Toilette, 280 Ga. at 103-104(8).

50f43
* App. 139 *

properly asked the jury to consider Toilette's confession to draw a reasonable inference
of Toilette's involvement in other robberies, that the prosecutor's reference to Toilette's
travel from California was tied to the relevant issues of intent and premeditation, and that
the prosecutor's reference to religion, though improper, did not in reasonable probability
lead to the jury's selection of a death sentence. 13 Additionally, the Court held that even
assuming that the prosecutor had improperly referenced Toilette's inappropriate gesture
to one of the victim's children and improperly argued that prison was "too good" for
Toilette, the trial court's sustaining of Toilette's objections ensured that Toilette suffered
no harm. 14 To the extent that criticisms of the prosecutor's closing argument were
rejected in Toilette's appeal, they are barred by res judicata.
In Claim Four, Toilette argues, in part, that "[t]he trial court improperly failed to
strike for cause several [unspecified] venirepersons whose attitudes towards the death
penalty would have prevented or substantially impaired their performance as jurors."IS
He also contends that "[t]he court erred in its rulings on motions to challenge prospective
jurors for cause based on their attitudes about the death penalty and stated biases ... and
allowed fair and impartial jurors to be struck for cause.,,16 Sub-claims are contained in
Footnote 7 against trial counsel, motion for new trial counsel, and direct appeal counsel.
These allegations were raised and litigated in Toilette's direct appeal, and were rejected
with a finding that the trial court had not abused its discretion in refusing to excuse nine
13

Id at 104(8).

14

Id at 104-105(9).

IS

Amended Petition at 18, ~26(a).

161d.

60f43
* App. 140 *

jurors and in excusing three jurors for cause.

17

To the extent that the trial court' s conduct

of voir dire was affinned in Toilette's appeal, the claim is barred by res judicata.
In Claim Six, Toilette contends, in part, that the death penalty "was imposed
arbitrarily and capriciously, and pursuant to a pattern and practice of discrimination in the
administration and imposition of the death penalty in Georgia." 18 Sub-claims are
contained in Footnote 10 against trial counsel, motion for new trial counsel, and direct
appeal counsel. This allegation was ruled on in Toilette's direct appeal. The Court
concluded that the death sentence "was neither excessive nor disproportionate to the
penalties imposed in similar cases in Georgia," and the "death sentence was not imposed
under the influence of passion, prejudice, or any other arbitrary factor.,,19 To the extent
that the claim of arbitrary and capricious imposition of the death penalty was denied in
Toilette' s appeal, it is barred by res judicata.
In Claim Eight, Toilette alleges, in part, that his death sentence is
disproportionate.2o A sub-claim is contained in Footnote 12 against trial counsel, and
sub-claims are contained in Footnote 14 against motion for new trial counsel and direct
appeal counsel. This allegation was ruled on in Toilette's direct appeal. The Court ruled
that the death sentence "was neither excessive nor disproportionate to the penalties

\1

Toilette, 280 Ga. at 102(3).

18

Amended Petition at 22, ,31.

19

Toilette, 280 Ga. at 107(14) and 108(15).

2.

Amended Petition at 28, '42.

70f43
* App. 141 *

imposed in similar cases in Georgia.',2l To the extent that the claim of disproportionality
was denied in Tollette's appeal, it is barred by res judicata.
CLAIMS THAT ARE DEFAULTED
Of the claims that are not barred by res judicata, the Court finds that, except for
the portion of Claim One that alleges ineffectiveness of direct appeal counsel, the
remaining claims are procedurally defaulted. Under OCGA § 9-14-48(d), procedural
default prevents a habeas petitioner from litigating issues that could have been raised at
trial or on direct appeal but which were not. An exception to the bar of procedural
default arises when the petitioner satisfies the cause-and-prejudice test. 22 The cause of
the default must arise either from an objective factor external to the defense that impeded
counsel's efforts to raise the claim or from the ineffective assistance of counsel in
waiving an issue at trial or omitting an issue on appeal. Further, the default must have
resulted in actual prejudice of constitutional dimensions. A petitioner need not meet the
cause-and-prejudice test ifhe can show that denial of habeas relief would result in a
miscarriage of justice, but an extremely high standard applies in such a case?3
It is common to rely on ineffective assistance not as a separate claim, but as

supplying the requisite cause and prejudice to overcome procedural default. 24 A habeas

21

Toilette, 280 Ga. at 107(14).

Turpin v. Todd, 268 Ga. 820, 824(2)(a) (1997)(explaining the cause-and-prejudice test for overcoming
procedural default).

22

23

See Head v. Ferrell, 401-402(IIl) (200 I)(reviewing exception to bar of procedural default).

Greerv. Thompson, 281 Ga. 419, 422 (2006). See also Perkins v. Hall, 288 Ga. 810, 822 (201 I)("A
common method of satisfYing the cause and prejudice test is to show that trial and direct appeal counsel
rendered ineffective assistance.")

24

80f43
* App. 142 *

petitioner who meets both the deficient performance and prejudice prongs of Strickland v.

Washington, 466 U.S. 668,694, 104 S.Ct. 2052 (1984) "has established the necessary
cause and prejudice to overcome the procedural bar ofOCGA § 9-14-48(d).,,25 Tollette
argues that his claims are not procedurally defaulted because direct appeal counsel erred
in omitting them on appeal.
As discussed later in this Order, Tollette has failed to show that direct appeal
counsel was ineffective. Nor does Tollette provide any other evidence or argument to
meet the cause-and-prejudice test to overcome procedural default. Most of the
ineffectiveness claims are raised in a summary fashion in the Amended Petition, and they
are not supported by any evidence or argument from the evidentiary hearing or in posthearing briefs. 26 Therefore, the following claims remain barred by procedural default.
In Claim One, Tollette lists 21 different allegations of ineffective assistance of
trial counsel, which the Court has identified as subsections (a) through (u), and 10
different allegations of ineffective assistant of motion for new trial counsel, which the
Court has identified as subsections (x) through (gg).27 The portion of Claim One that
alleges ineffectiveness of trial counsel premised on issues raised and litigated on direct
appeal is res judicata, and the remaining allegations in Count One against trial counsel
and motion for new trial counsel are procedurally defaulted.

25

Battles v. Chapman, 269 Ga. 702, 702 (1998).

26

Head v. Hill, 277 Ga. 255, 265 (2003).

27

Amended Petition at 3-9, ~16(a)-(u); also at 10-12, ~16(x)-(gg).

90f43
* App. 143 *

In Claim Two, Toilette alleges that "[t]he jury bailiffs and/or sheriffs deputies
and/or other State agents who interacted with jurors engaged in improper
communications with jurors which deprived Petitioner of a fair trial and reliable
sentencing. 28 Toilette also alleges that "[t]he State suppressed information favorable to
the defense at both phases of the trial, and the materiality ofthe suppressed evidence
undermines confidence in the outcome of the guilt/innocence [sic] and penalty phases of
Petitioner's trial, and Petitioner's direct appeal.,,29 Sub-claims are contained in Footnotes
3 and 4 against trial counsel, motion for new trial counsel, and direct appeal counsel. The
portion of Claim Two that alleges improper closing arguments is barred by res judicata,
and the remainder of Claim Two concerning bailiff misconduct and evidence suppression
is procedurally defaulted.
In Claim Three, Toilette alleges that "[m]isconduct on the part of the jurors
included, but was not limited to, improper consideration of matters extraneous to the trial,
false or misleading responses of jurors on voir dire, failure to reveal U.S. citizenship
status, serving on a jury while not a citizen of the U.S., harboring improper biases which
infected deliberations, putting undue pressure on individual jurors to vote for death,
exploiting individual jurors' inability to fully understand the English language in order to
pressure them to vote for death, improper exposure to the prejudicial opinions of third
parties, improper communications with the trial judge, and improperly prejudging the

28

Amended Petition at 14, ~21.

29

Amended Petition at 15, '1/22 .

10 of 43
* App. 144 *

gUilt/innocence [sic] and penalty phases of Petitioner's trial.,,30 Sub-claims are contained
in Footnotes 5 and 6 against the trial court, the State and any of its entities, trial counsel,
motion for new trial counsel, and direct appeal counsel.
Claim Four contains 11 asterisked allegations of trial court error, which the Court
identifies as (a) through (k).31 Sub-claims are contained in Footnotes 7 and 8 against trial
counsel, motion for new trial counsel, and direct appeal counsel. Res judicata bars the
portion of subsection (a) concerning the trial court's conduct of voir dire, and the
remainder of the allegations in Claim Four are procedurally defaulted:
(a)

The trial court erred by phrasing his voir dire questions in a manner which
suggested to jurors who gave neutral responses that they were or should be in
favor of the death penalty ... and by [engaging] in improper voir dire ...

(b) The trial court failed to ensure that Petitioner was adequately informed of his
rights prior to accepting his guilty plea.
(c)

The trial court excused potential jurors or moved them to the back of the
venire for improper reasons under the rubric of "hardship."

(d) The trial court erred in admitting various items of prejudicial, unreliable,
unsubstantiated and irrelevant evidence tendered by the State at either phase
of trial.
(e)

The trial court erred in allowing the prosecution to introduce improper,
unreliable and irrelevant evidence in aggravation at sentencing, as well as
evidence of which the defense had not been provided adequate notice and
which had been concealed from the defense.

(t)

The trial court erred in failing to require the State to disclose certain items of
evidence or witnesses in a timely manner so as to afford the defense an
opportunity to conduct an adequate investigation.

(g) The trial court erred in failing to require the State to disclose certain items of
evidence of an exculpatory or impeaching nature to the defense.
30

Amended Petition at 16, ~24.

31

Amended Petition at 18, ~26(a)-(k).

11 of43
* App. 145 *

(h) The trial court failed to provide adequate funding and time to allow trial
counsel to properly investigate the circumstances of the crime and
Petitioner's background in order to marshal a defense to the charges and the
State's case in aggravation.
(i)

The trial court abused its discretion in dismissing trial counsel from their
representation of Petitioner against his wishes prior to motion for new trial
proceedings.

U)

The trial court, having dismissed trial counsel from Petitioner's
representation prior to motion for new trial proceedings, crippled Petitioner's
ability to litigate his ineffective assistance of counsel claims by appointing
attorneys with no experience litigating such claims in capital cases and who
were unprepared to conform to prevailing norms of post-conviction capital
defense representation in litigating such claims. The trial court further
hampered Petitioner's ability to adequately litigate his ineffectiveness claims
by refusing to dispense adequate resources for investigative and expert
assistance with which Petitioner could have developed evidentiary support
for his ineffectiveness claims. The trial court's imposition of multiple layers
of attorneys in this case distorted and misapplied the rule that ineffectiveness
claims must be raised at the first practicable opportunity, and effectively
denied Petitioner his due process right to a meaningful adversarial testing of
the issue of trial counsel's effectiveness.

(k) The trial court made other improper rulings and otherwise conducted the trial
in such a way as to deprive Petitioner of a reliable conviction and fair and
reliable sentencing and motion for new trial proceedings. 32
In Claim Five, Toilette alleges that "[t]he trial court's instructions at sentencing
violated Petitioner's right to due process and a fair and reliable sentencing determination
in that they failed, inter alia, to adequately guide the jurors' discretion, failed to
adequately explain the meaning and purpose of mitigating circumstances, failed to
adequately explain to the jury that aggravating circumstances must be found beyond a
reasonable doubt but that mitigating circumstances need not be, and failed to adequately
explain that not only a death verdict must be unanimous, but that each individual juror

32

[d.

12 of 43
* App. 146 *

may vote for life regardless of how the other jurors vote.")) Sub-claims are contained in
Footnote 9 against trial counsel, motion for new trial counsel, and direct appeal counsel.
Claim Six contains six allegations challenging the death penalty.)4 Sub-claims are
contained in Footnote 10 against trial counsel, motion for new trial counsel, and direct
appeal counsel. Res judicata bars subsection (b), which alleges that the death penalty was
imposed arbitrarily and capriciously, and the remainder of the allegations in Claim Six
are procedurally defaulted:
(a)

Georgia' statutory death penalty procedures, as applied, do not result in fair,
nondiscriminatory imposition of the death sentence.

(c)

Georgia cases similar to that of Petitioner with regard to both the nature and
circumstances ofthe offense, prior record, culpability and life and character
of the accused have resulted in lesser punishments than death.

(d) Georgia cases more aggravated than that of Petitioner with regard to both the
nature and circumstances of the offense, prior record, culpability, and life and
character of the accused, have resulted in lesser punishments than death.
(e)

There is no constitutionally-permissible way to distinguish the few cases in
which the death penalty has been imposed, and Petitioner's case in particular,
from the many similar cases in which a lesser punishment has been imposed.

(f)

There exists in Georgia a pattern and practice of prosecuting authorities,
courts, and juries to discriminate on the basis of race, gender, and poverty in
deciding whether to seek or impose the death penalty in cases similar to that
of Petitioner.)5

In Claim Seven, Toilette claims that "[i]n general and as applied to Petitioner's
case, the rule that defendants must litigate an ineffective assistance of counsel claim at

33

Amended Petition at 21, "128.

34

Amended Petition at 22, , 31 (a)-(f).

35

Id.

13 of 43
* App. 147 *

the motion for new trial stage if new counsel attaches at that time, violates the
defendant's [constitutional] rights ... ,,)6 Sub-claims are contained in Footnote 11 against
motion for new trial counsel and direct appeal counsel, and these sub-claims correspond
to the allegation in subsection (z) of Claim One that "[m]otion for new trial and direct
appeal counsel failed to adequately object to or litigate the issue of the improper removal
of trial counsel from Petitioner' s case prior to motion for new trial and direct appeal
proceedings, in opposition to Petitioner's wishes." Toilette expands on this claim in
Section IV of his post-hearing brief, arguing that "[t]he Procedure by which Mr. Toilette
was forced to litigate ineffectiveness at the motion for new trial violated his right to due
process oflaw." As discussed in Section III of this Order, this claim is barred by
procedural default, and it is also meritless.
In Claim Eight, Toilette argues that "[t]he proportionality review conducted in the
State of Georgia is constitutionally infirm in general and as applied. Walker v. Georgia,
_ S.Ct. - ' 2008 WL 2847268 (2008)(statement of Stevens, J., respecting denial of cert.)
The constitutional mandate against disproportionate sentencing does not merely require
that the Georgia Supreme Court be able to find other instances in which the death penalty
is applied to similar facts, but rather, to view the state system as a whole to see that
sentences are proportionate across the spectrum. . .. To conduct an equitable
proportionality review, it is crucial that this Court review other similarly situated
defendants in cases where life sentences resulted .... ,,)7 Sub-claims are contained in

36

Amended Petition at 24, '\133.

37

Amended Petition at 29-30, ~42.

14 of 43
* App. 148 *

Footnotes 12 and 14 against trial counsel, motion for new trial counsel, and direct appeal
counsel. In a recent decision of Fults v. Upton, Slip Copy, 2012 WL 884766 (ND.Ga.,
2012), the U.S. District Court for the Northern District of Georgia pointed out that the
Court in Walker denied cert because the proportionality claim was barred by procedural
default:
Petitioner contends that Walker v. Georgia, -U.S. - - , 129 S.Ct. 453, 172
L.Ed.2d 344 (2008), requires that Georgia courts compare cases in which the death
penalty was not imposed. In Walker, Justice Stevens argues that in approving
Georgia's capital punishment scheme in Gregg, the Supreme Court "assumed that
the court would consider whether there were 'similarly situated defendants' who
had not been put to death because that inquiry is an essential part of any
meaningful proportionality review." Id. at 454. The Court in Walker, however,
denied the petitioner a writ of certiorari after finding that his proportionality claim
had been procedurally defaulted. Indeed, Justice Stevens' accompanying
statement is not precedent. .. 38
Similarly, in Head v. Carr, 273 Ga. 613, 615 (2001), the Supreme Court held that an
objection to the proportionality review was procedurally defaulted because the habeas
petitioner did not raise it on direct appeal and did not show sufficient cause to exp lain
why it was not raised. Here, Toilette could have raised it on direct appeal, and he has not
shown sufficient cause or prejudice to overcome the procedural bar.
In Claim Nine, Toilette contends that execution by lethal injection constitutes
cruel and unusual punishment. 39 Sub-claims are contained in Footnote 15 against trial
counsel, motion for new trial counsel, and direct appeal counsel. In Davis v. Turpin, 273
Ga. 244, 245(1)(2000), the Supreme Court held that the habeas petitioner was

38

Id.

39

Amended Petition at 31, ~~45-49.

15 of 43
* App. 149 *

procedurally barred from arguing that execution by electrocution was cruel and unusual
punishment. Further, the Georgia Supreme Court has held in Dawson v. State, 274 Ga.
327,334-335 (2001), that execution by lethal injection is not unconstitutional. Toilette
could have raised this claim on direct appeal, and he has not shown sufficient cause or
prejudice to overcome the procedural bar.
ALLEGED INEFFECTIVENESS OF DIRECT APPEAL COUNSEL
In Claim One, Toilette argues, in part, that direct appeal counsel was ineffective.
In his post-hearing brief, Toilette explicitly argues that direct appeal counsel was
ineffective in two ways: (1) "[a]ppellate counsel were ineffective in failing to raise the
issue of the trial court's denial of Mr. Toilette's right to counsel of choice," and (2)
"[a]ppellate counsel was ineffective in failing to raise the issue of Motion for New Trial
counsel's ineffectiveness. ,,40
A successful ineffectiveness claim must meet both the performance and prejudice
prongs of Strickland v. Washington, 466 U.S. 668,694, 104 S.Ct. 2052 (1984). The
performance prong requires a showing that counsel's performance, without the aid of
hindsight, was so deficient "that counsel was not functioning as the 'counsel' guaranteed
the defendant by the Sixth Amendment.,,41 Trial counsel, however, is "strongly
presumed to have rendered adequate assistance and made all significant decisions in the
exercise of reasonable professional judgment.,,42 As further clarified by the Georgia

40

Toilette's Post-Hearing Brief, Section 11(0)(\) and (2).

41

Strickland, 466 U.S. at 687.

42

Strickland, 466 U.S. at 690.

160f43
* App. 150 *

Supreme Court in Battles v. Chapman, 269 Ga. 702, 703 (1998), "in determining under
the first Strickland prong whether an appellate counsel's performance was deficient for
failing to raise a claim, the question is not whether [an appellate] attorney's decision not
to raise the issue was correct or wise, but rather whether his decision was an unreasonable
one which only an incompetent attorney would adopt." "With respect to the prejudice
prong, a petitioner must show that, but for direct appeal counsel's errors or omissions,
there was a reasonable probability that the outcome of the appeal would have been
different. ,,43
In addition to evaluating counsel's performance under Strickland, Toilette
maintains that trial counsel's performance should be assessed in light of the prevailing
professional norms for capital case representation, and he contends that the ABA
Guidelines have provided well-defined norms for capital representation since 1989. The
Court accedes that the U.S. Supreme Court and the Georgia Supreme Court have
acknowledged that the ABA Guidelines "may serve as a guide to reasonable defense
preparations in capital cases. ,,44 "While it is appropriate to measure counsel's
performance against prevailing norms of practice as reflected in publications such as .. .
the ABA Guidelines for the Appointment and Performance of Counsel in Death Penalty
Cases, ... such pUblications are only guides in determining the reasonableness of
counsel's performance, as no set ofmles can adequately allow for the variety of

43

Hall v. Lewis, 286 Ga. 767, 770 (201O)(Citation and punctuation omitted).

Perkins v. Hall, 288 Ga. 810, 814 (2011). See also Wiggins v. Smith, 539 U.S. 510, 524(1I)(B)(I), 123
S.C!. 2527 (2003); Franks v. State, 278 Ga. 246, 261(B)(7) (2004).

44

17 of 43
* App. 151 *

circumstances faced by defense counselor the range of legitimate decisions regarding
how best to represent a criminal defendant. ,,45
Applying the Strickland test, relevant statutory and case law, and the prevailing
professional norms as a guide, the Court evaluates Tollette's grounds for ineffective
assistance of direct appeal counsel.
(1) No Right to Counsel of Choice
The first allegation of ineffectiveness - that direct appeal counsel should have
protested the trial court's denial ofTollette's right to counsel of choice - is meritless.
First, Tollette could have raised this issue on direct appeal, and he has not shown
sufficient cause to explain why it was not raised. Direct appeal counsel cannot be held
ineffective for failing to raise a claim that was procedurally defaulted. Second, Davis v.

State, 262 Ga. 221 (1991), cited by Tollette in support of his contention that he had a
right to retain counsel of choice, actually undermines his claim. In Davis, the Georgia
Supreme Court explicitly stated that "[a]n indigent defendant has no right to compel the
trial court to appoint an attorney of his own choosing.,,46 The right to counsel-of-choice
depends on whether objective considerations favoring the appointment of the preferred
counsel are outweighed by countervailing considerations of comparable weight:
The choice of appointed counsel is a matter governed by the trial court's sound
exercise of discretion ... However, when a defendant's choice of counsel is
supported by objective considerations favoring the appointment of the preferred
counsel, and there are no countervailing considerations of comparable weight, it is

" Hall v. Lee, 286 Ga. 79, 8I(FNI) (2009)(Emphasis original. Citations and punctuation omitted).
46

Davis, 262 Ga. at 222.

18 of 43
* App. 152 *

an abuse of discretion to deny the defendant's request to appoint the counsel of his
preference. 47
"This standard applies equally to the removal of appointed counsel because the effect of
removal is that counsel of choice is not appointed. ,,48
ToIlette also cited White v. Kelso, 261 Ga. 32 (1991) for the proposition that
litigating effectiveness in habeas is the accepted practice in Georgia. While the Court in
White noted that "claims of ineffective assistance of counsel are often properly raised for

the first time in a habeas corpus petition," it ultimately ruled that the petitioner's
ineffectiveness claim was procedurally barred because appellate counsel, who was not the
trial counsel, failed to assert it on direct appeaI. 49 "The rule is consistent: New counsel
must raise the ineffectiveness of previous counsel at the first possible stage of postconviction review."so
Here, ToIlette's preference that trial counsel continue to represent him on the
motion for new trial, with the reason for such preference being to delay raising his
ineffectiveness claim until habeas proceedings, does not outweigh the countervailing
consideration to litigate the ineffectiveness claim at the earliest practicable opportunity.
ToIlette has provided no persuasive legal support for his contention that the trial court
abused its discretion in appointing substitute counsel for the motion for new trial in order
to litigate the ineffectiveness claim. Having failed to show an abuse of discretion by the

47

ld (citation omitted) .

• 8 Davenport

v. State, 283 Ga. 29, 31(2(b»(2008) (citing Chapel v. State, 264 Ga. 267(2) (1994».

49

White, 261 Ga. at 32.

'0

Id.

19 of 43
* App. 153 *

trial court, Toilette has failed to show the cause and prejudice necessary to show that his
direct appeal counsel were ineffective for omitting this argument from appeal.

(2) Direct Appeal Counsel's Failure to Raise Ineffectiveness Claim
The second allegation of ineffectiveness - that direct appeal counsel should have
claimed that motion for new trial counsel was ineffective - is also unavailing. Toilette's
claim that direct appeal counsel was ineffective rests on the premise that motion for new
trial counsel was in fact ineffective in not properly litigating trial counsel's
ineffectiveness, which in tum rests on the premise that trial counsel were in fact
ineffective. Thus, Toilette has effectively appended the barred and defaulted
ineffectiveness claims against trial counsel and motion for new trial counsel to his viable
ineffectiveness claim against direct appeal counsel.
To decide whether a habeas petitioner was prejudiced by direct appeal counsel's
failure to raise ineffectiveness against prior counsel, the habeas court "must examine the
underlying ineffectiveness of trial counsel claim and determine whether that claim would
have had a reasonable probability of success.,,51
[O)ur analysis requires us to determine whether, but for the alleged deficiencies of
[the habeas petitioner's) trial counsel, there is a reasonable probability that the jury
would have returned a [sentence of life imprisonment rather than death). In order
to conduct such an analysis, it is necessary to look both at the evidence actually
presented at trial and the evidence available to trial counsel that they failed to
present. 52

'1

Hall v. Lewis, 286 Ga. 767, 770 (20lOXcitation omitted).

'2

(d.

200f43
* App. 154 *

Toilette's various allegations of ineffectiveness can be distilled into the contention that
trial counsel were ineffective in failing to procure and present (a) evidence and expert
analysis of his disadvantaged life history, (b) evidence rebutting the brutal
characterization of the murder, and (c) his good candidacy for a life sentence.
(a) Evidence and Expert Analysis of Toilette's Life History

Investigation and presentation o/trial counsel. Because Toilette pleaded guilty,
trial counsel knew that they needed to put up a vigorous case for mitigation. Attorney
Wadkins testified at the motion for new trial hearing that "the only chance to keep Leon
alive was to put a vigorous mitigation on, and we tried to find that mitigation and we just
did not find it. ,,53 Trial counsel were hindered in investigating and presenting the
mitigation case due to Toilette's reluctance to involve his family:
Leon asked me not to do any mitigation for him .... I believe he was somewhat
upset that we were contacting his grandparents about this, but we did it anyway, of
course. 54
He continued to tell us that he did not want any mitigation put up at all. And
specifically, he did not want his mother here, or for us to bother his mother with it.
He did not want his grandparents in Arkansas brought into the thing. 55
To build a mitigation case, trial counsel hired neuropsychologist, Dr. Daniel Grant, and a
mitigation expert, Cheryl Abernathy.
Dr. Grant interviewed and evaluated Toilette "for two whole eight hour days.,,56
In addition to his examination of Toilette, Dr. Grant also reviewed a copy of the

53

RX 27, Motion for New Trial Tr. at 57.

14

RX27, MNT Trans. at 47-48. See also HT, Vol. 2 at 273.

"Id at 56. See also PX 15, Abernathy's Report of October 16, 1997.

210f43
* App. 155 *

competency report prepared by Dr. Karen Bailey-Smith and Dr. Margaret Fahey of West
Central Georgia Regional Hospital. The report found Toilette to be competent but also
diagnosed him with Personality Disorder NOS (not otherwise specified) with Antisocial
and Schizotypal Features. 57 Similarly, Dr. Grant did not find that Toilette suffered from
any neurological impairments or mental retardation, but he suggested a diagnoses of
borderline personality disorder. Dr. Grant, as well as Drs. Bailey-Smith and Fahey,
found Toilette to be depressed. But this depression did not correlate to a feeling of
remorse, but rather with a desire to die rather than spend life in prison without parole. 58
According to Attorney Wadkins, "Dr. Grant ... said don't put me on the stand, don't use
me. There is nothing that I can help you with."s9
Mitigation expert Abernathy was recommended to trial counsel by the MultiCounty Public Defender. Abernathy's credentials include being a licensed social worker
with over 20 years of experience specializing in child abuse/neglect, substance abuse, and
overall familial dysfunction. She has provided consultation and testimony on death
penalty cases in both state and federal levels. Abernathy had three months and $5,000 to
investigate Toilette's early childhood, medical history, school records, prison records,
friends, family, and "[a]ny path that look[ed] in anyway [sic] inviting as far as producing

'6

Resp. X 27, MNT Transcript at 45.

"PX 25.
'8

RX 27, MNT Trans. at ##.

'9

Id at 45-46.

220f43
* App. 156 *

mitigation.,,6o Abernathy provided trial counsel with typed summaries of her interviews
of Toilette; his mother, Willie Clentries Robinson; his two sisters, Gladys Mae Lattier
and Merlinda Moore; a maternal aunt, Josie Clay Washington; and a childhood friend and
neighbor, Shelton Jarnes. 61
From her interviews, Abernathy learned about Toilette's family. Toilette's
deceased father, Arthur Desmond Toilette, had been an alcoholic Vietnam war veteran
who had all but deserted him. Toilette fondly remembered a childhood trip with his
father to Arkansas to visit his paternal grandparents and other aunts and cousins, but
Toilette's father rebuffed all of Toilette's attempts to establish a relationship with him.
Toilette's mother seemed to have provided Toilette with the love and attention that he
desired when she was single, but after her marriage to Freddy Robinson, she became
preoccupied with marital life and religious activities. Freddy, his step-father, was not
interested in being a father to his step-children, and he was an abusive disciplinarian.
Despite Freddy's avid interest in sports, he never showed much interest in Toilette's little
league baseball games even though Toilette enthusiastically excelled at the sport.
Toilette grew up with two older brothers and two older sisters. He also has a
significantly younger brother from his mother's marriage to Freddy. Toilette's older
siblings were born during their mother's first marriage in Mississippi . Toilette is the
product of a one-night relationship after she moved to Los Angeles. Toilette'S oldest
brother, Willie, was sent to live with his father in Chicago when Toilette was about 8
Id at 47. See also Motion for Continuance attaching Aff. of Abernathy detailing "page after page of
things that she want[ed] to look at." Id at 48.

60

61

PX 15 .

230f43
* App. 157 *

years old. Willie left because he started hanging out with the wrong crowd, cutting
school, and smoking marijuana. At the time of Abernathy's investigation, Willie had
been incarcerated twice but appeared to be doing better with his life. Toilette's other
brother, Donnell, is considered the successful sibling, having stayed out of trouble during
his youth, graduated from college, married, and obtained long-term employment with the
postal service. When contacted by Toilette' s defense team, Donnell "didn't want
anything to do with [the case) whatsoever.'.62 Both of Toilette' s sisters, Gladys and
Merlinda, left home early and have histories of drug abuse and criminal activity. Gladys
lost custody of her two children due to her drug use and crimes. Abernathy stated in an
October 24, 2007 memo to attorney Wadkins, "It seemed that all of the children were
motivated by deprivation and financial gain. All felt as though they had been deprived
and neglected as children and somehow needed to make up for lost time."
Childhood friend Shelton James and Toilette's sister Gladys described their
neighborhood of Gardena as a nice place comprised of single-family homes with a
mixture of ethnic groups. But Toilette explained that even though his neighborhood
appeared safe, it was just like everywhere in and around the Los Angeles area - lots of
crime, drugs, and gang activity.63 Toilette said that joining a gang was considered
normal, and most of the guys that Toilette grew up with were involved with gangs. 64
Abernathy noted that "[a)ccording to family accounts, Leon was quite intelligent in

62

Id at 72.

63

PX 15, Abernathy's Report of October 16, 1997.

64

Id.

240f43
* App. 158 *

school .. . [but his] life began to take a tum for the worse . .. when he gravitated toward
gangs." Toilette joined the Crypts gang in middle school. According to Toilette, "he had
no choice in the matter" and "getting into a gang sparked the beginning of his criminal
Iife.,,6~ Toilette left home around the tenth grade because of a disagreement over a car,

sold drugs because he was impressed with the potential for enormous wealth, and was
incarcerated 13 times. He started using alcohol and drugs in his early teens, and he never
received treatment other than what was offered in prison. Abernathy also found that
Toilette was self-conscious about his short stature of 5'2", his recurring eczema, and his
surname which people sometimes likened to a toilet or sewer.
Toilette has a son, TJ., who was five years old at the time of his trial. TJ. was
born while his mother, Yvonne Lopez, was in prison, and he was living with Merlinda
until his mother was released. Toilette expressed great affection for TJ. He stated that
he provided for and spent time with T.]., and he was never abusive to him because he
wanted his son to have good memories of him.
When asked whether Abernathy's mitigation investigation had produced anything
useful, attorney Wadkins responded:
No. Every avenue was just was bad. Nothing was good. The [extensive] prison
record, the school records didn't help. There was nothing that she could find in
the childhood that we thought was of any use. We thought that much of the other
stuff that was uncovered or discovered would have been more in aggravation than
mitigation.

6'

ld.

250f43
* App. 159 *

[W]e looked for, you know, like good behavior type stuff and all of that. But the
circumstances were, basically, that he never stayed in jail long enough in one thing
to get really any accolades from the prison system. 66
Leon lived in a middle to upper middle class neighborhood, a nice neighborhood
with nice houses. Leon went to school, a local school as a child. He wasn't bused
anywhere and he didn't have a long way to go, and he didn't have any problems
with that. He played sports like an average normal teenager - I mean, child
would. He didn't have any money problems to speak of. He had all of the
necessities and all that he, extras I supposed that other people in his surroundings
had. Baseball uniforms, money for school, money for lunch, money for this and
that. It was no deprivation in other words in his life, except the fact that his father
had left him, and he got a stepfather that he didn't much like.
We could find nothing that we thought would help persuade the jury that his
childhood was bad. Many of the jurors would have had a much worse childhood
than he did. So, we decided that we just couldn't afford to try to put that on
because that would probably back fire in our face.67
Upon speaking with Toilette's mother and two sisters, trial counsel learned that Merlinda
refused to testify, and they believed that Gladys ''was unsuitable and would have hurt us
rather than help us.,,68 Because trial counsel did not know of any other mitigation
witnesses that would have testified favorably,69 they only called one witness, Toilette's
mother, in mitigation.

Alleged/ai/ure to investigate and present evidence a/Toilette's life leading up to
the crimes. According to Toilette, his mother's testimony inaccurately portrayed an
"average, safe, loving home ... [which] served only to bolster the State's prosecution
theme - that despite every 'chance,' Mr. Toilette perversely chose not to tum his life

66

Id at 52.

67

1d at 75 .

68

Id at 53-54.

69

Id at 54.

260f43
* App. 160 *

around.,,70 Toilette insists that if trial counsel had perfonned a better mitigation
investigation, the jury would have learned that TolIette's neighborhood and home life
were so bad that his change from a "good and polite" kid to a depressed, drug-using gang
member was inescapable. Toilette maintains that trial counsel should have located and
presented additional witnesses to testify about his neighborhood's gang activity, his
neglectful and abusive home life, his genetic predisposition to drug and alcohol abuse,
and his mental and emotional disturbances.
To show that trial counsel's mitigation investigation was inadequate, Toilette
provided affidavits from family members:
•

Gladys Moore-Lattier, Toilette's oldest sister;71

•

Frankye Charles, Toilette's paternal aunt;72

•

Julius Caesar Crofton, Toilette's paternal second-cousin.

73

Several neighborhood friends and acquaintances submitted affidavits:
•

Katrina Wilson, Toilette' s girlfriend at the time of the crime;74

•

Shirley McCarty, Toilette's eighth-grade school teacher and across-the-street
neighbor; 75

•

Shelton Franklin, another across-the-street neighbor, friend, and former fellow
gang member; 76

•

Michael Chapman, a schoolmate, friend, and former fellow gang member;77

70

Id at 12.

7\

PX 2 (Moore-Lattier Aff.);

72

PX 3 (Charles Aff.),

73

PX 7 (Crofton Aff.).

7.

Testimony in HT Vol. I at 79- I 08 and PX I (Wilson Aff.).

75

PX 4 (McCarty Aff.);

76

PX 5 (Franklin Aff.);

77

PX 6 (Chapman Aff.);

270f43
* App. 161 *

•
•

8
Renauld Walker, a neighborhood friend and fonner fellow gang member/ and
Ronald Williams, a neighborhood friend and a fonner affiliate of Toilette's
gang. 79

Toilette also retained experts to submit affidavits and testity:
•

Dr. James Diego Vigil, an expert on gangs and gang socialization;80

•

Dr. Michael Hilton, a forensic psychiatrist;81 and
82
Dr. R. Robert Tressel, a forensic pathologist.

•

Based on the affidavits and testimony at the evidentiary hearing, Toilette asserts that the
following evidence was readily available to trial counsel and should have been presented
as mitigation.
Toilette contends that Katrina Wilson "held the key to an entire case in
mitigation," but trial counsel never contacted her.83 Wilson met Toilette in 1993 and
became his girlfriend. She testified about the good qualities that made Toilette likeable,
described the drugs and violence of the neighborhood where they lived, and detailed the
negative change in Toilette's behavior during the first year that she knew him. When
Wilson met him, Toilette was courteous, helped with chores, played with her son Spencer
and his son T.J., wore nice clothes, and drove a nice car. Within a year, Toilette "hit
bottom," with poor grooming, an old car, a defeatist attitude, and alcohol abuse.

78

PX 8 (Walker Aff.);

79

PX 9 (Williams Aff.)

80

Vigil's testimony in HT Vol. I at 18-78 and PX 17 (Vigil's Report);

81

Hilton's testimony in HT Vol. I at 110-165, PX 19 (Hilton's Report), and PX 21 (Hilton's Dep.);

Tressel's testimony in HT Vol. 2 at 206-232, PX 22 (Tressel's Report), PX 24 (Diagram of gunshot
wounds);

82

83

Id at II.

28 of 43
* App. 162 *

According to Toilette, Wilson's account of "the weeks and months prior to the
crime . .. [would have] provided critical information regarding [his] impaired functioning
and deteriorating mental state.,,84 Trial counsel could then have traced the origin of his
mental decline to his gang-infested neighborhood and his terrible home life.
Toilette's sister Gladys provided a habeas affidavit that gave a much darker
description of their neighborhood than she had given Abernathy in 1997. She described
the dangers of living in Nickerson Garden Housing Proj ects in South Central Los
Angeles where Toilette was born, and she also described the deterioration of Gardena, the
neighborhood that the family moved to when Toilette was seven years old. The
neighborhood of Gardena was about ten miles away from Nickerson Gardens. It was
originally a neighborhood that promised a fresh-start, but Moore-Lattier described the
decline of Gardena as the drugs and gangs moved in from Nickerson Gardens. Similar
descriptions of the neighborhood were given by Shirley McCarty, Leon's eighth-grade
teacher who had also moved from Nickerson Garden to Gardena85 ; Shelton Franklin,
Toilette's neighbor, friend, and former gang member86 ; and Ronald Williams, another
neighborhood friend. 87 By the time Toilette was in junior high school, Gardena was
known to be the territory of the Shotgun Crips gang. 88 Dr. James Diego Vigil, an expert
on gangs and gang socialization, detailed the underprivileged social, economic, and

84

Toilette's Post-Trial Brief at 11.

85

PX 4 (McCarty Aff.).

86

PX 5 (Franklin Alf.).

87

PX 9 (Williams Aft'.).

88

PX 9 at 495 (Williams Aff.).

290f43
* App. 163 *

political climate of South Central Los Angeles, in which Gardena was located, and
explained its affects on the youth, particularly Tollette.

89

Toilette's mother was described by Moore-Lattier, as someone who played around
and drank. According to McCarty, Toilette's mother eventually "realized that she was
setting a poor example for her children ... [and] became religious and started trying to
clean up her life." Toilette's step-father was disinterested in being a father figure and
was often a harsh disciplinarian. 90 Toilette's father lived nearby but did not involve
himself as a parent. He was described by Frankye Charles and Julius Caesar Crofton as a
Vietnam veteran who drank a lot and who completely neglected his parenting duties to
Leon as well as to the two other children that he fathered. Moore-Lattier described how
Toilette as a child would dress in his best clothes and vainly wait for hours for his father
to show up for visitation. 91 Charles and Crofton both described similar instances when
Toilette was older and sought his father's attention and support but was rebuffed.

92

One bright spot in Toilette's childhood was a passion for baseball. According to
Toilette's childhood friend Michael Chapman, whose father coached little league,
Toilette enthusiastically participated in drills and practice, but his parents did not support

89

Vigil's testimony in HT Vol. I at 18-77.

PX 15 (Investigation file of Abernathy); PX 4 at 464 (McCarty Aff.); PX 2 at 447 (Moore-Lallier
Aff.); PX 8 at 487 (Walker Aff.); PX 5 at 471-72 (Franklin Aff.).

90

91

92

PX 2 at 446-47 (Moore-Lallier Aff.); PX 7 at 483 (Crofton Aff.); PX 3 at 456 (Charles Aff.).
PX 3 at 456 (Charles Aff.) and PX. 7 at 483 (Crofton Aff.)

300f43
* App. 164 *

his efforts. 93 Also, ToIlette did not physically mature as quickly as other boys, and
eventually his slighter height and weight resulted in his quitting the team.

94

Home life became worse after his younger brother was born and his older siblings
moved OUt. 95 Gladys had acted as primary caretaker, and she moved out and eventually
became a drug addict. ToIlette's older brother Donnell was a positive role model who did
well in school and stayed out oftrouble. 96 But Donnell's departure coincided with
Toilette's entering junior high school. ToIlette stopped doing well academically and, a
year later, he became a full-fledged member of the Shotgun CripS.97 His friends Shelton
Franklin, Michael Chapman, and Renauld Walker were also members ofthe Shotgun
Crips, and Ronald Williams was affiliated with the gang.
Frankye Charles, a paternal aunt, and Julius Caesar Crofton, a paternal secondcousin, both lived near Toilette when he was growing up and described him as a good
and polite child who unfortunately got pulled into gang life. Shirley McCarty, who lived
across the street from ToIlette, stated that it saddened her to watch Toilette start
associating with gang members because "[a]s a kid he had always been very polite and
respectful to me and the other parents on our street. ,,98

.) PX 6 (Chapman All) .
.. PX 6 at 478 (Chapman All) .
•s PX 2 at 449-50 (Moore-Lattier Aff.); Vigil's testimony in HT Vol. I at 45-46.
96

Vigil's testimony in HT Vol. I at 45-46; Hilton's testimony Id at 122; Grant's testimony Id at 181-182.

" PX 28 at 1489 (Los Angeles Unified School District File); Hilton's testimony in HT Vol. I at 118 .
•8

PX 4 (McCarty Aff.).

310f43
* App. 165 *

Toilette hung out with older boys, started drinking and smoking marijuana, and, in
eighth grade, learned how to steal cars. 99 When Toilette was 16 years old, he left home to
live on the streets. As Toilette points out in his post-trial brief, there is conflicting
evidence about why he left home. His mother did not remember the details; Gladys
recalled that Toilette was kicked out for bringing home a car that he had purchased with
drug money; and Toilette told defense mitigation investigator Cheryl Abernathy that his
step-father had kicked him out. IOO Regardless of the reason for leaving, after he left
home, Toilette became wholly dependent on his gang. His role in the gang was "street
soldier," or entry-level drug dealer. He did not advance in the gang hierarchy because of
his drug addiction. He was arrested several times, and after the third time he seemed to
find a manageable balance between using drugs and selling them. He met Katrina
Wilson in 1993, and they dated until 1995. In June 1994, Toilette had a son, T.J., by
Yvonne Lopez. By 1995, Toilette had relapsed and started abusing drugs again. Later
that year, he received a phone call from Xavier Womack, a friend from the neighborhood,
asking Toilette to come to Georgia to help with the robbery of an armored truck.
Alleged failure to obtain and present expert analysis of life history. Toilette
contends that had trial counsel conducted an adequate investigation into his
disadvantaged life history, experts could have explained the impact and relevance of that
life history on Toilette's moral culpability. The mental health evaluation that Dr. Grant
performed prior to trial revealed that Toilette suffered from depression, poor personal
PX 17 at 883-85 (Report of Vigil); PX 19 at 904-910 (Report of Hilton); Dr. Daniel Grant's testimony
in HT Vol. I at 185, 200; PX 3 at 456 (Charles Aff.); and PX 8 at 487 (Walker Aff.).

99

100

Toilette Post-Hearing Brief at 70.

320f43
* App. 166 *

concept, and bizarre thinking. 101 But the evaluation did not include the effects of gang
socialization or delve deeper into Toilette's history of mental health issues. For the
habeas proceeding, Dr. Grant reviewed Toilette's life history, some of which he did not
have when he performed the pre-trial evaluation, and he identified and discussed the
numerous risk factors in Toilette's early development for developing substance abuse
problems, mental health issues, and criminal and antisocial behaviors.

102

In addition to having Dr. Grant testify at the evidentiary hearing, Toilette also
retained two other experts, Dr. Vigil, and Dr. Michael Hilton, a forensic psychiatrist. Dr.
Vigil testified at the evidentiary hearing and submitted a report explaining and
contextualizing Toilette's gang affiliation, tracing the influence of street socialization on
Toilette's life trajectory which culminated in the armed robbery and shooting death of
Hamilton. 103 Dr. Hilton testified and submitted a report diagnosing Toilette with
polysubstance abuse and moderate major depressive disorder, i.e., clinical depression.

104

The depression was aggravated by drug use that started at a very early age, and Toilette
likely had an episode of severe depression in 1995 at the time of the crime.
Cumulatively, the expert testimony opined on the allure of gangs to disadvantaged
youths and how Toilette's home life made him particularly, almost unavoidably,
vulnerable to gang recruitment. The experts noted the predisposition to addiction on

Grant testimony in HT Vol. 1 169, 172-73; PX 38 at 2460 (Trial counsel's notes of conversation with
Dr. Grant).
101

102

Grant testimony in HT Vol. 1 at 166-199.

103

Vigil testimony at HT Vol. 1 at 18-77; PX 17 (Report of Vigil).

104

Hilton testimony in HT Vol. 1 at 110-163; PX 19 at 909 (Report of Hilton).

33 of 43
* App. 167 *

Toilette's paternal side of the family, and explained how use of alcohol and drugs during
childhood impairs brain development, including executive functions like judgment and
impulse control. Finally, they reviewed Toilette's history of depression, explaining that
"[t]he chronic sense ofloss, worthlessness, hopelessness and low self-esteem impairs
concentration, good judgment and impulse control."IOS Toilette contends that this expert
testimony would have shown the jury how Toilette's life trajectory inexorably led to his
committing the crime.

Findings a/Court. The record shows that trial counsel conducted an adequate
mitigation investigation, and they made a reasonable choice of trial strategy based on the
investigation. Toilette's mental examinations by the state for competency and by defense
expert Dr. Grant did not reveal any useful mental trauma or impairment. Abernathy's
investigation revealed much of Toilette's life history, including the neighborhood of
Gardena, the imperfect home life, gang involvement, and drug history. When asked at
the motion for new trial hearing whether there was "ever any discussion or plan to try and
turn what Ms. Abernathy's findings were into some sort of a coherent mitigation strategy
of showing that Mr. Toilette was the person he is as a result of the problems that he had
in his childhood, such as the abandonment that he felt, the guilt, and all along those kinds
ofthings," attorney Wadkins replied, "Yeah. There was a lot of discussion about that."
But ultimately, trial counsel decided that much of the evidence revealed by the

lOS

PX 19 at 909 (Report of Hamilton).

340f43
* App. 168 *

investigation could have been both aggravating and mitigating, noting that "[m]any of the
jurors would have had a much worse childhood than [Tollette].,,1D6
Due to the lack of mitigating evidence, trial counsel put Tollette's mother on the
stand to plead for her son's life. Also, Tollette's behavior during trial- "leaning back
grinning" and possibly blowing a kiss to one of the victim's daughters - did not help his
case. 107 Realizing that the jury held no sympathy for Tollette, trial counsel attempted to
gain credibility with the jury by conceding his dislike for his own client but emphasizing
how justice would best be served by a sentence of life in prison without the possibility of
parole. lOS
Great deference is generally given to counsel over matters of trial strategy.l09 This
deference is conditioned on the requirement that the chosen strategy be supported by
adequate investigation. IIO
Before selecting a strategy, counsel must investigate the defendant's background
for mitigation evidence to use at sentencing. An attorney is not ineffective for
failing to follow every evidentiary lead; instead, the adequacy of the scope of an
attorney's investigation is to be judged by the standard of reasonableness. 1II

106

Id at 75.

107

RX27, MNT Trans. at 58 and 60-61.

108

RX27, MNT Trans. at 58-59; 62

109 Turpin v. Christenson, 269 Ga. 226, 239, 497 S.E.2d 216 (1998). See also Strickland v. Washington,
466 U.S. 668, 687 (I 984Xstrong presumption that counsel's conduct falls within range of sound trial
strategy and reasonable professional judgment).
110

See Turpin v. Christenson. 269 Ga. 226, 239 (1998).

III

Turpin v. Lipham, 270 Ga. 208, 216(3XBX3) (1998) (citations and punctuation omitted).

35 of 43
* App. 169 *

In Wiggins v. Smith, 539 U.S. 510 (2003), the United States Supreme Court
"emphasize[d] that Strickland does not require counsel to investigate every conceivable
line of mitigating evidence.,,112
Strategic choices made after thorough investigation of law and facts relevant to
plausible options are virtually unchallengeable; and strategic choices made after
less than complete investigation are reasonable precisely to the extent that
reasonable professional judgments support the limitations on investigation. 113
Here, the trial counsel's choice of strategy was supported by adequate investigation. The
fact that trial counsel's investigation and resulting analysis ofTollette's life history
differs from the investigation and analysis performed by Tollette's habeas counsel is not
due to trial counsel's inattention, but rather from reasoned strategic judgment.
Much of the evidence that Tollette argues would have allowed the jury to
sympathize with him could have just as likely been viewed unfavorably. Toilette stresses
that Wilson's testimony was "key to an entire case in mitigation" because she "could
have provided valuable and compelling insight into Mr. Tollette's character and the
struggles he had faced throughout his life, and most importantly, in the weeks and months
prior to the crime.,,114 Again, Toilette relies on his presumption that jurors would have
construed the evidence as showing how his "behavior was a product of his history and
circumstances which he was unable to overcome.,,115 Toilette's repeated criminal

112

Wiggins v. Smith, 539 U.S. 510, 533(IIXB)(3)(2003).

113

Wiggins v. Smith, 539 U.S. 510, 521-522(1I)(A) (2003)(Citations and punctuation omitted).

114

Toilette's Post-Hearing Brief at II.

115

Toilette's Post-Trial Brief at 6.

36 of 43
* App. 170 *

activity, however, would have been in sharp contrast to the maturity that his four
childhood friends eventually developed.
The affidavits of ToIlette's four friends and former fellow gang members show
that they all came from the same circumstances and faced many of the same struggles,
but each of his friends eventually broke free of gang life to pursue legitimate careers.
Shelton Franklin stated in his habeas affidavit that his mother kicked him out of the house
when she learned about his gang membership,
[b]ut unlike [ToIlette], ... [m]y grandmother and my aunts took me in with hopes
that I might change my lifestyle. It took a while, but in time I did .... It was not
until I had my first son that I was able to realize that I needed to change.
Similarly, Renauld Walker stated in his habeas affidavit that his daughter was the reason
for turning his life around. Michael Chapman described in his habeas affidavit how he
became a successful businessman. Ronald Williams explained in his habeas affidavit
how he became a dean at Gardena High School where he works to keep kids from joining
gangs. The evidence shows that ToIlette had maternal and paternal family who lived
nearby and who might have taken him in after he left home. He also had some family
outside of California. And the birth of his son TJ. did not prompt ToIlette to change his
life for the better like fatherhood did Franklin or Walker.
Furthermore, ToIlette's second-chair defense attorney, Stephen Craft, testified that
it was a strategic decision to not present evidence of gang involvement.
It's a two-edge sword. You know, you present that as he had no choice, he was
forced to join a gang, how do you show that, and as a result of that, that led him,
quote, "into a life of crime at an early age," or did he decide he wanted to be big
and bad and prove himself by being part ofthe gang, and that was a choice, to
enter to this lifestyle? Which, then again, it comes back to the State's position,

370f43
* App. 171 *

how are they going to counter or argue that? Well, that's right, he joined a gang
when he was a teenager and he has been a gangster ever since, or a thug, or
however you want to characterize that. Those types of things are a two-edged
sword and you have to be very careful how you put that in front of the jury.116
Trial counsel clearly considered and rejected introducing this evidence to the jury due to
the potential for it being used not only favorably by the defense, but unfavorably by the
prosecution
The cases cited by Tollette, Turpin v. Christenson, 269 Ga. 226, 238 (1998), Hall

v. McPherson, 284 Ga. 219, 234 (2008), and Williams v. Taylor, 529 U.S. 362, 398
(2000), are distinguishable. Ineffective assistance was found in Turpin v. Christenson
because the inadequacy of the investigation was evidenced by trial counsel's ignorance of
their client's impaired mental condition and of the prevalence of mental illness and
substance abuse in his family. 117 Christenson had "an extensive history of psychiatric
problems and substance abuse," including in-patient treatment at a private psychiatric
hospital three years before the murder. liS The Court in Christenson found that
"[p]sychiatric evidence may have provided the jury with an explanation for Christenson's
actions" and also noted that ''the jury found only one statutory aggravating factor, that the
murder was committed during the course of an armed robbery." I 19 Here, there is no
evidence that Toilette had an extensive history of psychiatric problems and substance
abuse like the defendant in Christenson, let alone that trial counsel were ignorant of the

116

Vol. 2, HT 276.

117

269 Ga. at 236.

118

269 Ga. at 235.

119

269 Ga. at 242.

38 of 43
* App. 172 *

evidence. Toilette's trial counsel retained a neuropsychologist to detennine whether he
had any mental condition that could be used as mitigation. They also hired a mitigation
expert who investigated his background, including any history of mental illness. Neither
the doctor nor the investigator found anything remotely similar to the documented
psychiatric treatment in Christenson. And whereas the jury in Christenson found one
statutory aggravating factor, Toilette' s jury found two, the murder was committed during
an armed robbery and Toilette committed the murder for the purpose of receiving money.
Ineffective assistance was found in Hall v. McPherson because "trial counsel's
failure to investigate further into McPherson's life history was not a strategic decision but
stemmed from counsel's inattention.,,12o Rather than hire a mitigation investigator, trial
counsel relied almost exclusively on McPherson's mother to provide life history
mitigation evidence even though trial counsel had infonnation that "should have raised
concerns regarding the role McPherson's mother played in his childhood abuse and
neglect.,,121 Also, trial counsel chose not to obtain McPherson's drug treatment records
which would have shown that McPherson had felt remorse and had also voluntarily
sought treatment for his drug addiction. Here, Toilette's trial counsel hired an
experienced mitigation expert who found that Toilette never received drug treatment
other than in prison.
Toilette cites Williams v. Taylor, 529 U.S. 362, 398 (2000) for the proposition that
the infonnation of his underprivileged background might "well have influenced the jury's
120

284 Ga. at 223.

121

284 Ga. at 222.

390f43
* App. 173 *

appraisal of [his] moral culpability" and persuaded at least one juror that "his violent
behavior was a compulsive reaction rather than the product of cold-blooded
premeditation." The ineffectiveness found in Williams was based on an array of
egregious failures by trial counsel, one being trial counsel's failure "to conduct an
investigation that would have uncovered extensive records of Williams' nightmarish
childhood." Moreover, WiIliams' trial counsel's failure was not due to "any strategic
calculation but because they incorrectly thought that state law barred access to such
records.,,122 An investigation would have shown that "WiIliams' parents had been
imprisoned for criminal neglect of Williams and his siblings, that Williams had been
severely and repeatedly beaten by his father, that Williams had been committed to the
custody of the social services bureau for two years during his parents' incarceration
(including one stint in an abusive foster home), and then, after his parents were released
from prison, had been returned to his parents' custody.,,123 Here, there is no evidence that
the trial counsel' s investigation failed to uncover any childhood abuse of the magnitude
detailed in Williams, let alone that the failure was based on a misunderstanding of the
law.
The cases cited by ToIlette are clearly distinguishable and do not call for a finding
of ineffectiveness. Here, the evidence shows that trial counsel conducted a reasonable
mitigation investigation into his life history by retaining experts in neuropsychology and
mitigation. Both experts were highly qualified within their fields. Moreover, there is no
122

529 U.S. 395.

123Id.

400f43
* App. 174 *

evidence that the jury, presented with the additional evidence provided in the habeas
proceeding, would have returned a different verdict.
(b) Evidence Rebutting the State's Brutal Characterization of the Murder
Toilette argues that had trial counsel investigated the circumstances of the crime,
counsel could have persuasively challenged the State's characterization of the crime as an
execution-style shooting. Toilette contends that trial counsel could have used eye
witnesses to the shooting and forensic experts to show that Toilette did not shoot
Hamilton execution-style, but that he first shot Hamilton in each leg, then to the back,
and finally and fatally to the head. 124 In Hall v. Terrell, 285 Ga. 448, 452-454(II(C))
(2009), the Supreme Court held that even assuming that trial counsel should have
presented forensic evidence disputing the exact number of blows inflicted and the timing
of the fatal blow, the habeas petitioner failed to show "any reasonable probability that the
jury would have failed to find beyond a reasonable doubt the statutory aggravating
circumstance." As in Hall v. Terrell, Tollette failed to meet the prejudice prong of the

Strickland test because the sequencing of gunshot wounds would not have significantly
swayed the jury against finding a statutory aggravating circumstance.
(c) Evidence That Toilette Would Be A Good Candidate for Life Sentence
Toilette asserts that trial counsel were ineffective in failing to present evidence
that he would not be a future danger in prison. Attorney Wadkins' notes of a phone call
with Dr. Grant indicate that Dr. Grant might have been able to testify about Toilette's
124

(Vol. 2, HT 219-220).

41 of 43
* App. 175 *

adaptability to prison life, noting that Leon had no known disciplinary problems during
his previous incarcerations and had possibly become certified as an upholsterer and a
firefighter while in prison. Toilette concedes, however, that Dr. Grant would not
unequivocally testifY that Toilette would be a good candidate for life without parole. 125
Toilette points out that Dr. Grant and Dr. Karen Bailey-Smith testified at the
evidentiary hearing that one of the better predictors of prison adaptation is prior
performance in prison. 126 And Dr. Grant testified that Toilette's prior history did not
indicate an inability to adapt to prison. 127 Trial counsel testified, however, that he was
concerned that addressing Toilette's prior incarceration history - consisting of 13
imprisonments - would open the door for the prosecution to bring in a Brinks robbery in
California the month prior to the murder in which Toilette was a strong suspect as well as
Dr. Bailey-Smith's evaluation that described Toilette's "anti-social and schizotypal
features.,,128
The Court finds that the information that was available to counsel during trial
"would not have led constitutionally effective counsel to pursue [a different trial strategy]
and would not be reasonably probable to have resulted in" the jury sentencing Toilette to
life without parole. 129 Toilette has failed to show how direct appeal counsel was
ineffective for not pursuing this issue.

125

Vol. 2, HT 270.

126

HT, Vol. 1 at 176 and HT, Vol. 3 at 306.

127

HT, Vol. 1 at 176.

128

Vol. 3 at 349; Vol. 23, Res. Ex. 33, HT 5701).

129

Perkins v. Hall, 288 Ga. at 822-823 (citations omitted).

420f43
* App. 176 *

CONCLUSION
Toilette has not satisfied his burden of showing that trial counsel's preparation for
the mitigation phase was inadequate and that he was prejudiced by their pre-trial
decisions. For these reasons, the Court hereby DENIES the Petition for Writ of Habeas
Corpus. SO ORDERED this

cc:

~ of F~

Kirsten Salchow, Georgia Resource Center
Theresa Schiefer, Asst Attorney General
Shannon Weathers, Council of Superior Court Judges

430f43
* App. 177 *

2013.

* App. 178 *

* App. 179 *

* App. 180 *

* App. 181 *

* App. 182 *

* App. 183 *

* App. 184 *

* App. 185 *

* App. 186 *

* App. 187 *

* App. 188 *

* App. 189 *

* App. 190 *

* App. 191 *

* App. 192 *

* App. 193 *

* App. 194 *

* App. 195 *

No. 21IN THE SUPREME COURT OF THE UNITED STATES
________________________________________________________
_________________________________________________________
LEON TOLLETTE,
Petitioner,
-vBENJAMIN FORD, Warden,
Georgia Diagnostic and Classification Prison,
Respondent
__________________________________________________________
PROOF OF SERVICE
__________________________________________________________
I declare that on January 8, 2021, pursuant to Supreme Court Rule 29, I served
the Petition for a Writ of Certiorari and Appendix on Respondent’s counsel by filing
a copy of the documents with this Court’s electronic filing system and by directing
that the documents be placed in an envelope and deposited with the United States
Postal Service for delivery to:
Sabrina D. Graham, Esp.
Senior Assistant Attorney General
40 Capitol Square, SW
Atlanta, GA 30334
Respectfully submitted,
/s/ Anna M. Arceneaux
Anna M. Arceneaux (Ga. 401554)*

